APPENDIX
Court of appeals opinion (Mar. 10, 2020).......................1a
District court opinion (Oct. 25, 2019)........................76a
District court order (Oct. 25, 2019).........................151a
District court memorandum and order denying stay pending
appeal (Oct. 29, 2019) ....................................153a
Court of appeals order entering administrative stay
(Oct. 29, 2019) ...........................................160a
Court of appeals order extending administrative stay
(Nov. 18, 2019) ...........................................161a
Court of appeals order denying stay of mandate
(May 1, 2020) .............................................163a

USCA Case #19-5288

Document #1832741

Filed: 03/10/2020

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

Argued January 3, 2020

Decided March 10, 2020
No. 19-5288

IN RE: APPLICATION OF THE COMMITTEE ON THE JUDICIARY,
U.S. HOUSE OF REPRESENTATIVES, FOR AN ORDER
AUTHORIZING THE RELEASE OF CERTAIN GRAND JURY
MATERIALS,
COMMITTEE ON THE JUDICIARY, UNITED STATES HOUSE OF
REPRESENTATIVES,
APPELLEE
v.
UNITED STATES DEPARTMENT OF JUSTICE,
APPELLANT
Appeal from the United States District Court
for the District of Columbia
(No. 1:19-gj-00048)
Mark R. Freeman, Attorney, U.S. Department of Justice,
argued the cause for appellant. With him on the briefs were
Hashim M. Mooppan, Deputy Assistant Attorney General, and
Michael S. Raab and Brad Hinshelwood, Attorneys.
Douglas N. Letter, General Counsel, U.S. House of
Representatives, argued the cause for appellee. With him on

(1a)

Page 1 of 75

USCA Case #19-5288

Document #1832741
2a

Filed: 03/10/2020

2
the brief were Todd B. Tatelman, Deputy General Counsel,
Megan Barbero and Josephine Morse, Associate General
Counsel, Adam A. Grogg and William E. Havemann, Assistant
General Counsel, Jonathan B. Schwartz, Attorney, Annie L.
Owens, Mary B. McCord, and Daniel B. Rice.
Elizabeth B. Wydra, Brianne J. Gorod, and Ashwin P.
Phatak were on the brief for amicus curiae Constitutional
Accountability Center in support of the Committee on the
Judiciary, U.S. House of Representatives.
Before: ROGERS, GRIFFITH, and RAO, Circuit Judges.
Opinion for the Court by Circuit Judge ROGERS.
Concurring opinion by Circuit Judge GRIFFITH.
Dissenting opinion by Circuit Judge RAO.
ROGERS, Circuit Judge:
Article I of the United States Constitution
provides that the House of Representatives
“shall have the sole Power of Impeachment.”
U.S. CONST. art. I, § 2, cl. 5. Further, the Senate
“shall have the sole Power to try all
Impeachments.” Id. § 3, cl. 6.
The Committee on the Judiciary of the U.S. House of
Representatives seeks to obtain the redacted grand jury
materials referenced in the Special Counsel’s Report in
connection with its impeachment investigation of President
Donald J. Trump. The district court authorized the disclosure
of these grand jury materials pursuant to the “judicial
proceeding” exception in Federal Rule of Criminal Procedure

Page 2 of 75

USCA Case #19-5288

Document #1832741
3a

Filed: 03/10/2020

3
6(e)(3)(E)(i).
For the following reasons, because that
exception encompasses impeachment proceedings and the
Committee has established a “particularized need” for the
grand jury materials, the Order of the district court is affirmed.
I.
In May 2017, Deputy U.S. Attorney General Rod
Rosenstein appointed Robert S. Mueller, III, as Special
Counsel to investigate Russian interference in the 2016
presidential election, including any links or coordination
between the Russian government and individuals associated
with President Trump’s election campaign. As part of this
investigation, a grand jury sitting in the District of Columbia
“issued more than 2,800 subpoenas” and almost 80 witnesses
testified before the grand jury. Special Counsel Robert S.
Mueller, III, Report on the Investigation into Russian
Interference in the 2016 Presidential Election, Vol. I at 13
(March 2019) (“The Mueller Report”). In addition, the Special
Counsel’s Office interviewed “approximately 500 witnesses”
under oath, id., including members of the Administration.
On March 22, 2019, the Special Counsel submitted his
confidential two-volume report to the Attorney General
pursuant to 28 C.F.R. § 600.8(c). Volume I summarizes
Russian interference in the 2016 presidential election and
describes the “numerous links between the Russian
government and the Trump Campaign.” Vol. I at 1–3.
Nevertheless, the Special Counsel concluded that “the
investigation did not establish that members of the Trump
Campaign conspired or coordinated with the Russian
government in its election interference activities.” Id. at 2.
Volume II outlines the Special Counsel’s examination of
whether the President obstructed justice in connection with the
Russia-related investigations. The Special Counsel declined to

Page 3 of 75

USCA Case #19-5288

Document #1832741
4a

Filed: 03/10/2020

4
exonerate the President. Citing to an opinion issued by the
Office of Legal Counsel, the Special Counsel stated that
indicting or criminally prosecuting a sitting President would
violate the separation of powers. Notably, for purposes of the
Committee’s need for the redacted grand jury materials, the
Special Counsel stated that a federal indictment would
“potentially preempt constitutional processes for addressing
presidential misconduct.” Vol. II at 1 (citing U.S. CONST. art.
I, § 2, cl. 5; § 3, cl. 6).
The Attorney General released a public version of the
Mueller Report in April 2019, with redactions for grand jury
materials, and other information that he determined could
compromise ongoing intelligence or law enforcement
activities, harm ongoing criminal matters, or unduly infringe
upon the personal privacy interests of peripheral third parties.
Letter from Attorney General Barr to Senate Judiciary
Chairman Graham and Ranking Member Feinstein, and House
Judiciary Chairman Nadler and Ranking Member Collins (Apr.
18, 2019). The Assistant Attorney General wrote the
Committee that certain members of Congress, including the
Chairman and Ranking Members of the House Judiciary
Committee, could review an unredacted version of the Report,
except for redactions relating to grand jury information, which
the Attorney General claimed he was prohibited from
disclosing to Congress by law citing Rule 6(e). Letter from
Assistant Attorney General Boyd to Senate Judiciary Chairman
Graham and House Judiciary Chairman Nadler (Apr. 18,
2019).
In October 2019, the House of Representatives passed
House Resolution 660, which directed six committees,
including the House Judiciary Committee and the House
Intelligence Committee, to continue their ongoing
impeachment investigations. H. Res. 660, 116th Cong. (2019).

Page 4 of 75

USCA Case #19-5288

Document #1832741
5a

Filed: 03/10/2020

5
On December 18, 2019, the full House adopted two Articles of
Impeachment against President Trump. H. Res. 755, 116th
Cong. (2019). The first Article of Impeachment, “Abuse of
Power,” alleges that President Trump “solicited the
interference of a foreign government, Ukraine, in the
[upcoming] 2020 United States Presidential election.” Id. at 1.
The second Article, “Obstruction of Congress,” alleges that
President Trump “directed the unprecedented, categorical, and
indiscriminate defiance of subpoenas issued by the House of
Representatives.” Id. at 2.
The House Judiciary Committee’s Report on the
Impeachment of President Trump asserts that the conduct
described by these Articles is consistent with the President’s
“inviting and welcoming Russian interference in the 2016
United States Presidential election,” H. Rep. No. 116-346, at
127 (2019), and the President’s “endeavor to impede the
Special Counsel’s investigation into Russian interference . . .
as well as [his] sustained efforts to obstruct the Special Counsel
after learning that he was under investigation for obstruction of
justice,” id. at 159–60. The Committee Report also makes
clear that although two Articles of Impeachment have been
approved, the Committee’s impeachment investigation related
to the Mueller Report is ongoing. Id. at 159 n.928; see also
Appellee’s Supp. Br. 17 (Dec. 23, 2019); Oral Arg. Tr. at 59–
60 (Jan. 3, 2020).
On July 26, 2019, the House Judiciary Committee filed an
application for an order authorizing the release of certain grand
jury materials related to the Mueller Report pursuant to Rule
6(e)(3)(E)(i). The Committee requested three categories of
grand jury materials: (1) all portions of the Mueller Report that
were redacted pursuant to Rule 6(e); (2) any portions of grand
jury transcripts or exhibits referenced in those redactions; and
(3) any underlying grand jury testimony and exhibits that relate

Page 5 of 75

USCA Case #19-5288

Document #1832741
6a

Filed: 03/10/2020

6
directly to certain individuals and events described in the
Mueller Report. The Committee proposed a “focused and
staged disclosure” of the first two categories of material, to be
followed as necessary by disclosure of the third category. In re
App. of Comm. on Judiciary, U.S. House of Representatives,
for an Order Authorizing Release of Certain Grand Jury
Materials (“App. for Mueller Report Grand Jury Materials”),
2019 WL 5485221, at *33 (D.D.C. Oct. 25, 2019) (internal
quotation marks and citation omitted). The Department of
Justice, which is the custodian of the grand jury records, see
Rule 6(e)(1), opposed the application and submitted an ex parte
declaration disclosing the contents of the Rule 6(e) redactions
in Volume II and Appendix C of the Mueller Report for the
district court to review in camera. The record indicates that the
district court reviewed this declaration but that the district court
did not receive or review any of the grand jury materials
redacted in Volume I of the Report, nor any of the grand jury
transcripts or exhibits referenced in these redactions.
On October 25, 2019, the district court granted the
Committee’s application. The district court concluded that a
Senate impeachment trial is a “judicial proceeding” under Rule
6(e). App. for Mueller Report Grand Jury Materials, 2019 WL
5485221, at *11. The court noted that “historical practice, the
Federalist Papers, the text of the Constitution, and Supreme
Court precedent all make clear” that “impeachment trials are
judicial in nature and constitute judicial proceedings.” Id. at
*14; see also id. at *14–19. The court further explained that,
in any event, it was bound by circuit precedent to conclude that
an impeachment trial is a “judicial proceeding,” citing
Haldeman v. Sirica, 501 F.2d 714 (D.C. Cir. 1974) (en banc)
and McKeever v. Barr, 920 F.3d 842 (D.C. Cir. 2019). App.
for Mueller Report Grand Jury Materials, 2019 WL 5485221,
at *19. The district court also found that the Committee
established a “particularized need” because the Committee’s

Page 6 of 75

USCA Case #19-5288

Document #1832741
7a

Filed: 03/10/2020

7
compelling need for the requested material to “investigate
fully” and “to reach a final determination about conduct by the
President described in the Mueller Report,” id. at *35,
outweighs any remaining grand jury secrecy interests, id. at
*37–38, and the requested disclosure was tailored to this need,
id. at *38.
The district court therefore authorized the disclosure of the
first two categories of requested grand jury information: all
portions of the Mueller Report redacted pursuant to Rule 6(e)
and any portions of grand jury transcripts or exhibits referenced
in those redactions. Id. The court ordered the Department to
provide these materials to the Committee by October 30, 2019.
Id. The court also stated that the Committee could file
additional requests articulating its particularized need for the
third category of grand jury materials requested in its initial
application. Id.
The Department appealed and sought a stay pending
appeal from the district court and from this court. The district
court denied a stay pending appeal. This court entered an
administrative stay on October 29, 2019, held oral argument on
the stay motion on November 18, 2019, and then extended the
administrative stay setting the case for expedited briefing and
oral argument on the merits on January 3, 2020.
II.
The Committee asks this court to interpret and apply Rule
6(e) — which is “a familiar judicial exercise.” Zivotofsky ex
rel. Zivotofsky v. Clinton, 566 U.S. 189, 196 (2012). Rule 6(e)
codifies the “long-established policy” of maintaining grand
jury secrecy. United States v. Procter & Gamble Co., 356 U.S.
677, 681 (1958). Rule 6(e)(2)(B) provides that “a matter
occurring before the grand jury” must not be disclosed by grand

Page 7 of 75

USCA Case #19-5288

Document #1832741
8a

Filed: 03/10/2020

8
jurors, interpreters, court reporters, government attorneys, or
other persons specifically listed in the Rule. Although Rule
6(e) “makes quite clear that disclosure of matters occurring
before the grand jury is the exception and not the rule,” the Rule
“sets forth in precise terms to whom, under what circumstances
and on what conditions grand jury information may be
disclosed.” McKeever, 920 F.3d at 844 (quoting Fund for
Constitutional Gov’t v. Nat’l Archives & Records Serv., 656
F.2d 856, 868 (D.C. Cir. 1981)), cert. denied, 2020 WL 283746
(Jan. 21, 2020). Rule 6(e)(3)(E) provides a list of “exceptions”
to grand jury secrecy, including five circumstances in which a
“court may authorize disclosure . . . of a grand-jury matter.” As
relevant here, Rule 6(e)(3)(E)(i) permits a court to authorize
disclosure “preliminarily to or in connection with a judicial
proceeding,” where the person seeking disclosure has shown a
“particularized need” for the requested grand jury materials,
United States v. Sells Engineering, Inc., 463 U.S. 418, 443
(1983).
The grand jury functions to a large degree at “arm’s
length” from the judicial branch, United States v. Williams, 504
U.S. 36, 47 (1992), but it operates under the auspices of the
district court in which it is convened, see Rule 6(a); 28 U.S.C.
§ 1861 et seq., and “depend[s] on the judiciary in its role as an
investigative body,” United States v. Seals, 130 F.3d 451, 457
(D.C. Cir. 1997). The district court has supervisory jurisdiction
over the grand jury. Morrison v. Olson, 487 U.S. 654, 681 n.20
(1988). Although the district court’s authority over the grand
jury is limited, Williams, 504 U.S. at 47–50, courts may
exercise control over the grand jury in several significant
respects, including the power to summon and empanel the
grand jury and the power to discharge the grand jury, Rule 6(a),
(g). Courts also may control access to the records of a grand
jury investigation conducted under the court’s auspices. As
noted, Rule 6(e) codifies and defines that authority and

Page 8 of 75

USCA Case #19-5288

Document #1832741
9a

Filed: 03/10/2020

9
prescribes the procedures for its exercise. The Committee’s
Rule 6(e)(3)(E)(i) application asks the district court to exercise
its continuing supervisory jurisdiction concerning the grand
jury to authorize and order the release of grand jury records.
Numerous courts have recognized that grand jury records
are court records. Carlson v. United States, 837 F.3d 753, 758–
59 (7th Cir. 2016); Standley v. Dep’t of Justice, 835 F.2d 216,
218 (9th Cir. 1987); In re Grand Jury Investigation of
Cuisinarts, Inc., 665 F.2d 24, 31 (2d Cir. 1981); United States
v. Penrod, 609 F.2d 1092, 1097 (4th Cir. 1979). “The grand
jury minutes and transcripts are not the property of the
Government’s attorneys, agents or investigators . . . . Instead
those documents are records of the court.” Procter & Gamble
Co., 356 U.S. at 684–85 (Whittaker, J., concurring). But even
where doubt is expressed whether grand jury records are
judicial records, Rule 6(e)(3)(E) vests courts with control over
the disclosure of these records and courts exercise this control
“by ordering ‘an attorney for the government’ who holds the
records to disclose the materials,” McKeever, 920 F.3d at 848
and id. (quoting Rule 6(e)(1)).
Although the grand jury “has not been textually
assigned . . . to any of the branches,” Williams, 504 U.S. at 47,
it “remains an appendage of the court,” Seals, 130 F.3d at 457
(quoting Brown v. United States, 359 U.S. 41, 49
(1959), overruled on other grounds by Harris v. United
States, 382 U.S. 162 (1965)). Grand jury records do not
become Executive Branch documents simply because they are
housed with the Department of Justice. For instance, in the
Freedom of Information Act context, where “documents
remain within the control of the court and the grand jury,” those
documents are not “agency records” and are not subject to
FOIA’s disclosure requirements that otherwise apply to agency
documents even if they are in the possession of the Department

Page 9 of 75

USCA Case #19-5288

Document #1832741
10a

Filed: 03/10/2020

10
of Justice. Tigar & Buffone v. Dep’t of Justice, 590 F. Supp.
1012, 1014–15 (D.D.C. 1984). As the Ninth Circuit has
explained, “were court documents deemed ‘agency records’ for
purposes of the FOIA when held by the [Department], the Act
would encroach upon the authority of the courts to control the
dissemination of its documents to the public.” Warth v. Dep’t
of Justice, 595 F.2d 521, 523 (9th Cir. 1979). This court has
applied similar reasoning to congressional documents
transmitted from Congress to the Executive. Am. Civil
Liberties Union v. CIA, 823 F.3d 655, 667–68 (D.C. Cir. 2016).
In short, it is the district court, not the Executive or the
Department, that controls access to the grand jury materials at
issue here. The Department has objected to disclosure of the
redacted grand jury materials, but the Department has no
interest in objecting to the release of these materials outside of
the general purposes and policies of grand jury secrecy, which
as discussed, do not outweigh the Committee’s compelling
need for disclosure. Even if the Department had not objected
to disclosure, the district court would still need to authorize
disclosure pursuant to Rule 6(e)’s “judicial proceeding”
exception. See, e.g., In re Report & Recommendation of June
5, 1972 Grand Jury Concerning Transmission of Evidence to
House of Representatives (“In re 1972 Grand Jury Report”),
370 F. Supp. 1219, 1227 (D.D.C. 1974). Requests for grand
jury materials pursuant to Rule 6(e)(3)(E)(i) necessarily require
resolution by the courts.
III.
On the merits, the Department maintains that the district
court erred in concluding that Haldeman and McKeever
establish binding precedent on the correct meaning of the term
“judicial proceeding” in Rule 6(e). Appellant’s Br. 13.
Reviewing de novo the district court’s interpretation of Rule

Page 10 of 75

USCA Case #19-5288

Document #1832741
11a

Filed: 03/10/2020

11
6(e), see United States v. McIlwain, 931 F.3d 1176, 1181 (D.C.
Cir. 2019), these precedents establish that a Senate
impeachment trial qualifies as a “judicial proceeding” under
the Rule.
In In re 1972 Grand Jury Report, Chief Judge Sirica
ordered the disclosure of the grand jury report and
accompanying materials to be delivered to the House Judiciary
Committee, which was then engaged in an impeachment
investigation of President Richard M. Nixon. 370 F. Supp. at
1230–31. This court denied mandamus relief in Haldeman,
holding that Chief Judge Sirica had not abused his discretion in
ordering the release of these materials. 501 F.2d at 715–16.
Significantly, this court expressed “general agreement with his
handling of these matters,” observing that Chief Judge Sirica
“dealt at length” with the contention that Rule 6(e) limits the
disclosure of grand jury materials “to circumstances incidental
to judicial proceedings and that impeachment does not fall into
that category.” Id. at 715. Judge MacKinnon’s partial
concurrence concluded that the disclosure fit within the Rule
6(e) exception for judicial proceedings. Id. at 717.
Even assuming that the court’s opinion in Haldeman was
“ambiguous” as to whether the disclosure of grand jury
materials to Congress was permitted under the “judicial
proceeding” exception or the court’s inherent authority, see
McKeever, 920 F.3d at 847 n.3, this court’s decision in
McKeever clarified that district courts lack inherent authority
outside of the exceptions listed in Rule 6(e) to order disclosure
of grand jury material, id. at 844, and understood Haldeman to
conclude that impeachment “fit[] within the Rule 6 exception
for ‘judicial proceedings,’” id. at 847 n.3 (quoting Haldeman,
501 F.2d at 717 (MacKinnon, J., concurring in part and
dissenting in part)). The Department now maintains that this
interpretation of Haldeman is not “precedential,” Appellant’s

Page 11 of 75

USCA Case #19-5288

Document #1832741
12a

Filed: 03/10/2020

12
Br. 33–34, but the court’s interpretation of Haldeman was
essential to this court’s reasoning in McKeever. The dissenting
opinion in McKeever rested principally on the view Haldeman
held “that a district court retains discretion to release grand jury
materials outside the Rule 6(e) exceptions.” McKeever, 920
F.3d at 855 (Srinivasan, J., dissenting). In reaching the
contrary conclusion, the majority in McKeever necessarily
interpreted Haldeman to involve an application of Rule 6(e)’s
“judicial proceeding” exception rather than an exercise of
inherent authority.
Neither in Haldeman nor McKeever did this court explain
in detail why impeachment qualifies as a judicial proceeding,
although the en banc court in Haldeman embraced Chief Judge
Sirica’s analysis, 501 F.2d at 715, and the term “judicial
proceeding” in Rule 6(e) “has been given a broad interpretation
by the courts,” In re Sealed Motion, 880 F.2d 1367, 1379–80
(D.C. Cir. 1989) (collecting cases). The district court’s
interpretation in the instant case is further supported by
traditional tools of statutory construction.
The constitutional text confirms that a Senate
impeachment trial is a judicial proceeding. Article I provides
that “[t]he Senate shall have the sole Power to try all
Impeachments” and further states that when the President “is
tried, the Chief Justice shall preside.” U.S. CONST. art. I, § 3,
cl. 6. The Framers of the Constitution also understood
impeachment to involve the exercise of judicial power. For
instance, Alexander Hamilton referred to the Senate’s “judicial
character as a court for the trial of impeachments.” THE
FEDERALIST NO. 65, at 396 (Clinton Rossiter ed., 1961). The
district court here properly concluded that “the Federalist
Papers, the text of the Constitution, and Supreme Court
precedent all make clear” that “impeachment trials are judicial
in nature and constitute judicial proceedings.” App. for

Page 12 of 75

USCA Case #19-5288

Document #1832741
13a

Filed: 03/10/2020

13
Mueller Report Grand Jury Materials, 2019 WL 5485221, at
*14; see id. at *14–18.
The Department objects that the term “judicial
proceeding” in Rule 6(e) is limited to judicial court
proceedings because the ordinary meaning of the term “judicial
proceeding” does not include a proceeding conducted before a
legislative body and the two other provisions of Rule 6(e) that
use the term “judicial proceeding,” Rule 6(e)(3)(F), (G),
unambiguously refer to a court proceeding. Appellant’s Br.
18–19. These arguments are foreclosed by our precedent and
are unpersuasive in any event. The term “judicial proceeding”
has long and repeatedly been interpreted broadly, and courts
have authorized the disclosure of grand jury materials “in an
array of judicial and quasi-judicial contexts” outside of Article
III court proceedings — such as administrative proceedings
before the United States Tax Court, App. for Mueller Report
Grand Jury Materials, 2019 WL 5485221, at *12–13
(collecting cases).
So understood, the term “judicial
proceeding” encompasses a Senate impeachment trial over
which the Chief Justice of the Supreme Court presides and the
Senators constitute the jury. That Rule 6(e)’s other references
may contemplate a judicial court proceeding is of little
significance because “the presumption of consistent usage
‘readily yields’ to context,” Util. Air Regulatory Grp. v. EPA,
573 U.S. 302, 320 (2014) (quoting Envtl. Def. v. Duke Energy
Corp., 549 U.S. 561, 574 (2007)).
Additionally, the historical practice supports interpreting
Rule 6(e) to encompass impeachment. Rule 6(e) was adopted
in 1946 to “codif[y] the traditional rule of grand jury secrecy”
that was applied at common law. Sells Eng’g, 463 U.S. at 425.
As summarized by the district court, Congress has repeatedly
obtained grand jury material to investigate allegations of
election fraud or misconduct by Members of Congress. App.

Page 13 of 75

USCA Case #19-5288

Document #1832741
14a

Filed: 03/10/2020

14
for Mueller Report Grand Jury Materials, 2019 WL 5485221,
at *18–19. The Department dismisses this practice because no
example involved impeachment proceedings. Appellant’s Br.
29–32. But these examples evince a common-law tradition,
starting as early as 1811, of providing grand jury materials to
Congress to assist with congressional investigations. See In re
1972 Grand Jury Report, 370 F. Supp. at 1230. And historical
practice reflects at least one example of a court-ordered
disclosure of grand jury materials to the Committee — prior to
the Rule’s enactment — for use in its impeachment
investigation of two federal judges. Conduct of Albert W.
Johnson and Albert L. Watson, U.S. District Judges, Middle
District of Pennsylvania: Hearing before Subcomm. of the H.
Comm. on the Judiciary, 79th Cong., at 63 (1945).
Since Rule 6(e) was enacted, federal courts have
authorized the disclosure of grand jury materials to the House
for use in impeachment investigations involving two presidents
and three federal judges. See generally In re 1972 Grand Jury
Report, 370 F. Supp. 1219 (President Nixon); Order, In re
Madison Guar. Sav. & Loan Ass’n, Div. No. 94-1 (D.C. Cir.
Spec. Div. July 7, 1998) (per curiam) (President Clinton); In re
Request for Access to Grand Jury Materials Grand Jury No.
81-1, Miami (“Hastings”), 833 F.2d 1438 (11th Cir. 1987)
(Judge Alcee Hastings); Order, Nixon v. United States, Civ. No.
H88-0052(G) (S.D. Miss. 1988) (Judge Walter Nixon),
referenced in H.R. Rep. No. 101-36, at 15 (1989); and Order,
In re Grand Jury Investigation of U.S. District Judge G.
Thomas Porteous, Jr., No. 2:09-mc-04346-CVSG (E.D. La.
Aug. 6, 2009). It is only the President’s categorical resistance
and the Department’s objection that are unprecedented. Oral.
Arg. Tr. at 11–12; McGahn, No. 19-5331, Oral Arg. Tr. at 21
(Jan. 3, 2020). In interpreting the Rule, this established
practice deserves “significant weight.” Cf. NLRB v. Noel
Canning, 573 U.S. 513, 524–26 (2014) (emphasis omitted).

Page 14 of 75

USCA Case #19-5288

Document #1832741
15a

Filed: 03/10/2020

15
The Department worries that reading Rule 6(e) to
encompass impeachment proceedings would create separationof-powers problems. It maintains that the particularized need
standard for all applicants under Rule 6(e)(3)(E) is “in
considerable tension with the House’s sole power of
impeachment,” Appellant’s Br. 49, and would invite courts to
“pass[] judgment on the legal sufficiency of a particular
impeachment theory,” id. at 50. Courts, however, regularly
apply the particularized need standard to mitigate such
concerns in the impeachment context because the district court
need only decide if the requested grand jury materials are
relevant to the impeachment investigation and authorize
disclosure of such materials without commenting on the
propriety of that investigation. See, e.g., Hastings, 833 F.2d at
1446.
In any event, the Department’s contrary interpretation of
Rule 6(e) would raise as many separation-of-powers problems
as it might solve. The Department implies its interpretation of
the Rule strengthens the House by insulating its “sole power of
impeachment” from judicial interference. But it ignores that
courts have historically provided grand jury records to the
House pursuant to Rule 6(e) and that its interpretation of the
Rule would deprive the House of its ability to access such
records in future impeachment investigations. Where the
Department is legally barred from handing over grand jury
materials without court authorization, judicial restraint does not
empower Congress; it impedes it.
IV.
The Committee has established a particularized need for
the redacted grand jury materials it seeks. The party requesting
the grand jury information must show (1) the material “is
needed to avoid a possible injustice in another judicial

Page 15 of 75

USCA Case #19-5288

Document #1832741
16a

Filed: 03/10/2020

16
proceeding,” (2) “the need for disclosure is greater than the
need for continued secrecy,” and (3) the “request is structured
to cover only material so needed.” Douglas Oil Co. of Cal. v.
Petrol Stops Nw., 441 U.S. 211, 222 (1979). The Supreme
Court characterizes “[t]he Douglas Oil standard [as] a highly
flexible one, adaptable to different circumstances and sensitive
to the fact that the requirements of secrecy are greater in some
situations than in others.” Sells Eng’g, 463 U.S. at 445. The
Supreme Court has “repeatedly stressed that wide discretion
must be afforded to district court judges in evaluating whether
disclosure is appropriate.” United States v. John Doe, Inc. I,
481 U.S. 102, 116 (1987). The district court’s determination
“is subject to reversal only if that discretion has been abused.”
In re Sealed Case, 801 F.2d 1379, 1381 (D.C. Cir. 1986).
The district court did not abuse its discretion. Special
Counsel Mueller prepared his Report with the expectation that
Congress would review it. See Vol. II at 1. The district court
released only those materials that the Special Counsel found
sufficiently relevant to discuss or cite in his Report. Moreover,
the Department has already released information in the Report
that was redacted to avoid harm to peripheral third parties and
to ongoing investigations, thereby reducing the need for
continued secrecy. Finally, the Committee’s particularized
need for the grand jury materials remains unchanged. The
Committee has repeatedly stated that if the grand jury materials
reveal new evidence of impeachable offenses, the Committee
may recommend new articles of impeachment. Appellee’s
Supp. Br. 17 (Dec. 23, 2019); Oral Arg. Tr. at 59–60 (Jan. 3,
2020).
A.
The district court concluded that the Committee needed
the redacted grand jury materials to “investigate fully,” to
“evaluate the bases for the conclusions reached by the Special

Page 16 of 75

USCA Case #19-5288

Document #1832741
17a

Filed: 03/10/2020

17
Counsel,” and to “reach a final determination” about “whether
the President committed an impeachable offense” a question
“that the Special Counsel simply left unanswered.” App. for
Mueller Report Grand Jury Materials, 2019 WL 5485221, at
*35. The district court noted several features of the
impeachment investigation that made the Committee’s need
especially compelling. First, because several individuals were
convicted of making false statements either to Congress or in
connection with the Special Counsel’s investigation, the court
found that the grand jury material at issue “may be helpful in
shedding light on inconsistencies or even falsities in the
testimony of witnesses called in the House’s impeachment
inquiry.” Id. at *34. Second, the district court found that other
sources of information — “such as the public version of the
Mueller Report, the other categories of material redacted from
the Mueller Report, congressional testimony and FBI Form 302
interview reports” — “cannot substitute for the requested grand
jury materials.” Id. at *36. Third, of striking significance, it
was undisputed that “the White House has flatly stated that the
Administration will not cooperate with congressional requests
for information.” Id. (citing Letter from Pat A. Cipollone,
White House Counsel, to Representative Nancy Pelosi,
Speaker of the House, et al. (Oct. 8, 2019)).
On appeal, the Department contends that a “generalized
need” for grand jury materials “to ‘complete the story’ or
‘investigate fully,’ or simply to double-check that witnesses are
not lying, has never been sufficient.” Appellant’s Br. 3. The
Department asserts that the district court’s analysis amounts to
no more than an observation that the grand jury materials may
be relevant to the Committee’s inquiry, id. at 15, and that the
district court should have conducted a redaction-by-redaction
review to determine if the Committee actually needed the
material, Oral Arg. Tr. at 26 (Jan. 3, 2020). Not only does this
ignore the district court’s detailed consideration of the

Page 17 of 75

USCA Case #19-5288

Document #1832741
18a

Filed: 03/10/2020

18
evidentiary obstacles confronting the Special Counsel’s
investigation, App. for Mueller Report Grand Jury Materials,
2019 WL 5485221, at *37, the showing of particularized need
required in the impeachment context is different. The Douglas
Oil standard is “highly flexible” and “adaptable to different
circumstances,” Sells Engineering, 463 U.S. at 445, and courts
have required a line-by-line or witness-by-witness
determination only in cases where grand jury materials are
needed in a future trial to impeach or refresh the recollection of
a specific witness. See, e.g., In re Special Grand Jury 89-2,
143 F.3d 565, 568, 571 (10th Cir. 1998); United States v.
Fischbach & Moore, Inc., 776 F.2d 839, 845–46 (9th Cir.
1985).
In the impeachment context, both this court sitting en banc
in Haldeman and the Eleventh Circuit in Hastings concluded
that when Congress seeks access to grand jury materials to
assist in an impeachment investigation, district courts hand off
all relevant materials to Congress without micromanaging the
evidence. For example, in In re 1972 Grand Jury Report, Chief
Judge Sirica ordered that the “Grand Jury Report and
Recommendation” and accompanying grand jury materials be
delivered to the Committee for use in an impeachment
investigation involving the President. 370 F. Supp. at 1230–
31. The Chief Judge reasoned that “[i]t would be difficult to
conceive of a more compelling need than that of this country
for an unswervingly fair inquiry based on all the pertinent
information.” Id. at 1230 (emphasis added). In making this
determination, Chief Judge Sirica “carefully examined the
contents of the Grand Jury Report” and stated that he was
“satisfied that there can be no question regarding their
materiality to the House Judiciary Committee’s investigation,”
without parsing through the materials to determine which
specific witnesses or lines of testimony were relevant to the
Committee’s investigation. Id. at 1221. This court, in turn,

Page 18 of 75

USCA Case #19-5288

Document #1832741
19a

Filed: 03/10/2020

19
expressed its “general agreement with his handling of these
matters.” Haldeman, 501 F.2d at 715. Similarly, in Hastings,
the Eleventh Circuit authorized the disclosure of all grand jury
materials to the Committee to assist in its impeachment
investigation of Judge Hastings because “without full access to
the grand jury materials, the public may not have confidence
that the Congress considered all relevant evidence.” 833 F.2d
at 1445 (emphasis added).
Applying the particularized need standard in this way in
the impeachment context avoids the potentially problematic
second-guessing of Congress’s need for evidence that is
relevant to its impeachment inquiry. The Constitution grants
to the House of Representatives the “sole Power of
Impeachment.” U.S. CONST. art. I, § 2, cl. 5. In an
impeachment, the House serves as both the grand jury and
prosecutor; it appoints managers to prosecute in the Senate the
Articles of Impeachment that were approved by the House of
Representatives. See H. Res. 798, 116th Cong. (2020)
(appointing managers for the impeachment trial of President
Donald J. Trump). The courts cannot tell the House how to
conduct its impeachment investigation or what lines of inquiry
to pursue, or how to prosecute its case before the Senate, cf.
Old Chief v. United States, 519 U.S. 172, 186 (1997), much
less dictate how the Senate conducts an impeachment trial,
Walter Nixon v. United States, 506 U.S. 224, 230–33 (1993).
B.
Here, the context makes readily apparent that the need for
disclosure is not only greater than the need for continued
secrecy but that the district court findings confirmed the
particularity of the need. The need for grand jury secrecy is
reduced after the grand jury has concluded its work, but courts
still “must consider . . . the possible effect upon the functioning
of future grand juries” such as the need to encourage “frank and

Page 19 of 75

USCA Case #19-5288

Document #1832741
20a

Filed: 03/10/2020

20
full testimony,” Douglas Oil, 441 U.S. at 222, and the risk that
“persons who are accused but exonerated by the grand jury”
will face “public ridicule,” id. at 219. The district court
concluded upon reviewing in detail the findings in the Mueller
Report that any remaining secrecy interests in the redacted
grand jury materials were readily outweighed by the
Committee’s compelling need for the materials in order to
determine whether, or to what extent, links existed between the
Russian government’s efforts to interfere in the 2016 United
States presidential election proceedings and individuals
associated with President Trump’s election campaign. App. for
Mueller Report Grand Jury Materials, 2019 WL 5485221, at
*37–38.
Although the need for continued secrecy remains, the
district court reasonably concluded that this need is reduced by
the Committee’s adoption of special protocols to restrict access
to the grand jury materials in order to maintain their secrecy.
Id. at *37; see Memorandum from Chairman Nadler to
Members of the Committee on the Judiciary re Procedures for
Handling Grand Jury Information (July 26, 2019). The
Department objects that the Committee has the discretion to
make the grand jury material public at any time. Appellant’s
Br. 45. But the district court, relying on Chief Judge Sirica’s
analysis, followed a tradition of satisfaction with these
protocols. App. for Mueller Report Grand Jury Materials,
2019 WL 5485221, at *37. As Chief Judge Sirica explained,
such protocols “insure against unnecessary and inappropriate
disclosure,” dismissing concerns about leaks as “speculation.”
In re 1972 Grand Jury Report, 370 F. Supp. at 1230. Here, too,
the Department offers “no basis on which to assume that the
Committee’s use of the [material] will be injudicious.” Id. In
fact, history supports the conclusion that such protocols are not
an empty gesture. As the district court noted, “Congress has
still not publicly disclosed the entirety of the Watergate grand

Page 20 of 75

USCA Case #19-5288

Document #1832741
21a

Filed: 03/10/2020

21
jury report that Chief Judge Sirica ordered be given to [the
Committee] forty-five years ago, in 1974.” In re App. of
Comm. on Judiciary U.S. House of Representatives for an
Order Authorizing Release of Certain Grand Jury Materials,
No. 19-48, 2019 WL 5608827, at *3 (D.D.C. Oct. 29, 2019)
(denying stay pending appeal).
Additionally, the risk of “public ridicule” decreases where,
as here, there is already “widespread public knowledge about
the details of the Special Counsel’s investigation, which
paralleled that of the grand jury’s, and about the charging and
declination decisions outlined in the Mueller Report.” App. for
Mueller Report Grand Jury Materials, 2019 WL 5485221, at
*37. Cf. In re Grand Jury Subpoena, Judith Miller, 438 F.3d
1138, 1140 (D.C. Cir. 2006); In re North, 16 F.3d 1234, 1245
(D.C. Cir. 1994). The Report was made available to the public
and the Special Counsel testified about it in congressional
hearings. See, e.g., Former Special Counsel Robert S. Mueller,
III on the Investigation into Russian Interference in the 2016
Presidential Election: Hearing Before the H. Perm. Select
Comm. on Intelligence, 116th Cong. 49 (July 24, 2019).
Moreover, the Department recently introduced the grand jury
testimony of senior Trump advisor, Steven Bannon, at Roger
Stone’s criminal trial, United States v. Stone, No. 19-cr-00018
(D.D.C. Nov. 8, 2019), publicly disclosing grand jury materials
concerning a player who was interviewed in connection with
the Special Counsel’s investigation but not indicted.
It is true that “courts have been reluctant to lift
unnecessarily the veil of secrecy.” Douglas Oil, 441 U.S. at
219. In the impeachment context, courts need to be especially
careful in balancing the House’s needs against various ongoing
secrecy interests inasmuch as courts lack authority to restrict
the House’s use of the materials or withdraw them if
improvidently issued or disseminated. In Senate Permanent

Page 21 of 75

USCA Case #19-5288

Document #1832741
22a

Filed: 03/10/2020

22
Subcomm. on Investigations v. Ferrer, 856 F.3d 1080 (D.C.
Cir. 2017), this court suggested that the Speech or Debate
Clause bars “ordering a congressional committee to return,
destroy, or refrain from publishing” information already in its
possession. Id. at 1086. But a compelling need for the material
and the public interest may necessitate disclosure. See Illinois
v. Abbott & Assocs., Inc., 460 U.S. 557, 567 n.15 (1983).
Special Counsel Mueller spoke directly to Congress in his
Report, see Vol. II at 1, and stopped short of making any
“ultimate conclusions about the President’s conduct,” id. at 8.
The Department has failed to show in these circumstances that
the district court abused its discretion in agreeing that the
Committee had a compelling need to be able to reach a final
determination about the President’s conduct described in the
Mueller Report. Along with the “public’s interest in a diligent
and thorough [impeachment] investigation,” these
considerations tip the balance toward disclosure. App. for
Mueller Report Grand Jury Materials, 2019 WL 5485221, at
*38; see In re 1972 Grand Jury Report, 370 F. Supp. at 1227.
“Public confidence in a procedure as political and public as
impeachment is an important consideration justifying
disclosure.” Hastings, 833 F.2d at 1445.
C.
Furthermore, the Committee’s request was tailored to its
need. Douglas Oil, 441 U.S. at 222. The Committee requested
three categories of grand jury materials: (1) all portions of the
Mueller Report that were redacted pursuant to Rule 6(e); (2)
any portions of grand jury transcripts or exhibits referenced in
those redactions; and (3) any underlying grand jury testimony
and exhibits that relate directly to certain individuals and
events described in the Mueller Report. Additionally, the
Committee proposed a staged disclosure, starting with the first
two categories of materials. App. for Mueller Report Grand
Jury Materials, 2019 WL 5485221, at *33. The district court

Page 22 of 75

USCA Case #19-5288

Document #1832741
23a

Filed: 03/10/2020

23
reasonably granted this request given the Committee’s
compelling need to be able to make a final determination about
the President’s conduct described in the Mueller Report, id. at
*33, 35, 38, and stated that the Committee could file further
requests articulating its need for the grand jury materials in the
third category, id. at *33.
The Department’s objections to this limited and structured
disclosure are unpersuasive. First, the Department maintains
that the disclosure includes a redaction in Volume II that the
Committee conceded it did not need. Appellant’s Br. 38;
District Ct. Hearing Tr. at 37–38 (Oct. 8, 2019). The
Committee made this concession without knowing what was
underlying the redactions. The district court later reviewed in
camera the grand jury material in Volume II, before
authorizing the release of all grand jury material redacted from
and referenced in both volumes of the Mueller Report. As to
the Committee’s need for the material, the court found that
“[t]he grand jury material relied on in Volume II is
indispensable to interpreting the Special Counsel’s evaluation
of this evidence and to assessing the implications of any
‘difficult issues’ for [the Committee’s] inquiry into obstruction
of justice.” App. for Mueller Report Grand Jury Materials,
2019 WL 5485221, at *35. Given the nature of the two
volumes, the Department offered no persuasive reasons to
conclude that the Committee’s need for the redacted materials
in Volume I was less compelling than the need demonstrated
for Volume II. The court’s determination, of course, is
properly “infused with substantial discretion.” Douglas Oil,
441 U.S. at 223.
Second, the Department maintains that the district court
could not have evaluated whether the requested material was
limited to material relevant to the Committee’s need without
conducting an in camera review of Volume I. Appellant’s Br.

Page 23 of 75

USCA Case #19-5288

Document #1832741
24a

Filed: 03/10/2020

24
38. The district court reviewed the grand jury material redacted
from Volume II of the Mueller Report but not from Volume I.
As a result, the Department notes that the district court only
examined five of the over 240 redactions in the Mueller Report.
Reply Br. 23–24. Here, it was unnecessary for the district court
to conduct an in camera review of the Volume I redactions.
The Committee’s request for the grand jury materials in the
Mueller Report is directly linked to its need to evaluate the
conclusions reached and not reached by the Special Counsel.
In the Special Counsel Mueller’s own estimation, his Report
“contains . . . that information necessary to account for the
Special Counsel’s prosecution and declination decisions and to
describe the investigation’s main factual results.” Vol. I at 13.
The Committee states that it needs the unredacted material to
review these findings and make its own independent
determination about the President’s conduct. The district court
had no reason to question the Committee’s representation
because the Mueller Report itself made clear why the grand
jury materials in Volume I were necessary for the Committee
to review and evaluate in exercise of its constitutional duty.
Courts must take care not to second-guess the manner in which
the House plans to proceed with its impeachment investigation
or interfere with the House’s sole power of impeachment. Cf.
Walter Nixon, 506 U.S. at 230–31.
Of course, courts must not simply rubber stamp
congressional requests for grand jury materials. In cases where
the connection between the grand jury materials and the
Committee’s impeachment investigation is not obvious, further
inquiry by the district court may be needed. For instance,
Committee counsel could be permitted to review the
unredacted grand jury materials in camera to enable a more
detailed explanation of the relevance of particular witnesses,
portions of transcripts, or records. See Oral Arg. Tr. 62–64
(Nov. 18, 2019). Or the district court, in the exercise of its

Page 24 of 75

USCA Case #19-5288

Document #1832741
25a

Filed: 03/10/2020

25
discretion, might decide it should review the unredacted
materials in camera, as occurred here at the Department’s
suggestion, with respect to Volume II of the Mueller Report.
See Redacted Decl. of Bradley Weinsheimer ¶¶ 5–10 (Sept. 13,
2019).
But here, where the Special Counsel stopped short of
making any “ultimate conclusions about the President’s
conduct,” Mueller Report, Vol. II at 8, in part to avoid
preempting the House’s sole power of impeachment, see id. at
1, the Committee has established that it cannot “fairly and
diligently” make a final determination about the conduct
described in both volumes of the Mueller Report “without the
grand jury material referenced” therein. App. for Mueller
Report Grand Jury Materials, 2019 WL 5485221, at *35. In
affirming the disclosure of “the entire grand jury record” to the
Committee, the Eleventh Circuit similarly observed: “The
recommendation of the judicial branch concerning
impeachment of Judge Hastings was based on access to the
whole grand jury record, and that same access should not be
denied Congress.” Hastings, 833 F.2d at 1445. Given the
Committee’s tailored request in the instant case, this court has
no occasion to decide whether granting a request for “all” of
the redacted grand jury materials would have been an abuse of
discretion; that question remains for another day. Here, for
reasons explained, the district court did not abuse its discretion
by ordering the disclosure of all portions of the Mueller Report
redacted pursuant to Rule 6(e) and any grand jury transcripts or
exhibits referenced in those redactions without scrutinizing the
Committee’s need as to each redaction.
Accordingly, because a Senate impeachment trial qualifies
as a “judicial proceeding” pursuant to Rule 6(e) and the
Committee has established a particularized need for the
requested portions of grand jury materials, the district court’s

Page 25 of 75

USCA Case #19-5288

Document #1832741
26a

Filed: 03/10/2020

26
Order is affirmed. The distinction that our dissenting colleague
reads into the district court’s Order between authorizing and
ordering release is not raised by either party and rests on a
flawed premise. See Dissenting Op. at 1–3 (Rao, J.). Our
colleague assumes that the House of Representatives is seeking
compulsory judicial action against the Executive Branch.
Because the Department of Justice is simply the custodian of
the grand jury materials at issue however, the instant case is
unlike inter-branch disputes where Congress issued subpoenas
and directed Executive Branch officials to testify and produce
their relevant documents. See generally Comm. on the
Judiciary v. McGahn, 2019 WL 6312011 (D.D.C. Nov. 25,
2019); Comm. on the Judiciary v. Miers, 558 F. Supp. 2d 53
(D.D.C. 2008).

Page 26 of 75

USCA Case #19-5288

Document #1832741
27a

Filed: 03/10/2020

GRIFFITH, Circuit Judge, concurring: I join the opinion for
the court, but I write separately to address the dissent’s
argument that the district court lacked jurisdiction to compel
disclosure of grand jury materials under Committee on the
Judiciary v. McGahn, No. 19-5331 (D.C. Cir. Feb. 28, 2020).
Unlike McGahn, this case does not involve a suit between the
political branches over executive-branch documents or
testimony. Instead, it involves an application for access to
records of the grand jury, whose disclosure the district court
has traditionally controlled.
As the dissent acknowledges, grand jury records do not
belong to the Executive Branch. See Dissent at 28; see also
Majority at 9-10; In re Grand Jury Investigation of Cuisinarts,
Inc., 665 F.2d 24, 31 & n.10 (2d Cir. 1981). Regardless of
whether grand jury materials are “judicial records,” see Dissent
at 27-28, they do not become executive records simply because
the Department of Justice stores them in file cabinets after the
grand jury completes its investigation. The Department holds
these records subject to the ongoing supervision of the district
court. Accordingly, Rule 6(e) bars the Department from
disclosing these records to Congress without court approval.
See FED. R. CRIM. P. 6(e)(2)(B)(vi); see also J.A. 448 (letter
from the Attorney General stating that he “d[id] not believe that
[he] ha[d] discretion to disclose grand-jury information to
Congress”). Federal courts, including courts in our own circuit,
have approved the disclosure of grand jury materials to the
House of Representatives in seven prior impeachment
proceedings. See Majority at 13-14. Congressional applications
for access to grand jury materials have thus traditionally been
thought capable of (and indeed to require) judicial resolution.
Cf. Raines v. Byrd, 521 U.S. 811, 819 (1997).
The dissent insists that “possession” is the “dispositive
factor” in our jurisdictional analysis: When the court holds the
grand jury materials, it may hand them over; when it does not,
it may not compel the Department to do so. Dissent at 20-23.

Page 27 of 75

USCA Case #19-5288

Document #1832741
28a

Filed: 03/10/2020

2
This argument elevates form over substance. I do not take the
dissent to dispute that the district court could have ordered the
Department to deliver the grand jury materials for in camera
review. Indeed, to assess particularized need, “[d]istrict courts
are often required to conduct an in camera review of grand jury
material requested under [Rule 6(e)’s judicial-proceeding
exception].” In re Sealed Case No. 98-3077, 151 F.3d 1059,
1074 (D.C. Cir. 1998). Had the court done so, it would have
taken possession of the requested materials and could have
provided them directly to the Committee, instead of ordering
the Department to hand them over. See Haldeman v. Sirica, 501
F.2d 714, 715 (D.C. Cir. 1974) (en banc) (approving such a
direct transfer); Dissent at 20-23 (recognizing that courts have
provided grand jury materials to Congress when they possessed
them). If the district court may do that, why can’t it cut itself
out as the intermediary?
I understand the dissent’s concern that ordering the
Executive Branch to provide grand jury records to Congress
could make us a tool of the House in the exercise of its “sole
power of impeachment.” Dissent at 34-39. The Judiciary’s
proper place in an impeachment fight is typically on the
sidelines. See Nixon v. United States, 506 U.S. 224, 228-36
(1993). But, as gatekeepers of grand jury information, we
cannot sit this one out. The House isn’t seeking our help in
eliciting executive-branch testimony or documents. Instead,
it’s seeking access to grand jury records whose disclosure the
district court, by both tradition and law, controls.
In an effort to bring this dispute under McGahn, the dissent
creates a novel distinction between authorization and
compulsion on which its analysis turns. But that distinction is
difficult to square with our precedent and the district court’s
longstanding supervisory power over the grand jury. Our
circuit has never distinguished between authorization and

Page 28 of 75

USCA Case #19-5288

Document #1832741
29a

Filed: 03/10/2020

3
compulsion under Rule 6(e). To the contrary, we’ve said that
“[w]hen the court authorizes . . . disclosure [of grand jury
records], it does so by ordering an attorney for the government
who holds the records to disclose the materials.” McKeever v.
Barr, 920 F.3d 842, 848 (D.C. Cir. 2019) (emphases added)
(internal quotation marks omitted); see also In re Grand Jury,
490 F.3d 978, 986 (D.C. Cir. 2007) (“The federal courts have
the authority under Rule 6(e)(3)(E)(i) to order disclosure to
grand jury witnesses of their own transcripts.” (emphasis
added)). The text of Rule 6(e) also suggests that courts may
order the Department to transfer certain grand jury materials to
another entity. Rule 6(e)(1) provides that “[u]nless the court
orders otherwise, an attorney for the government will retain
control of . . . any transcript [of the grand jury].” As the
Department explained at oral argument, “it just doesn’t seem
like a plausible reading of Rule 6(e) that the District Court
could authorize [disclosure] but that the Department of Justice
would then say well, we don’t want to turn over [the]
information.” Oral Arg. Tr. 7:20-23.
All that aside, the dissent’s distinction between
authorization and compulsion strikes me as untenable on its
own terms. In the dissent’s view, although “[a]uthorization of
disclosure is part of the district court’s supervisory power” over
the grand jury, compulsion is not. Dissent at 1-2. The dissent
explains this distinction by arguing that the court’s
“supervisory power is strictly limited to actions taken . . . in aid
of the grand jury” and that compelling disclosure aids third
parties rather than the grand jury. Id. at 2. But merely
authorizing disclosure also aids third parties rather than the
grand jury. The dissent therefore cannot explain why the
district court has power to permit disclosure in the first place.
Taken to its logical conclusion, the dissent’s theory would
seem to require outright dismissal of this case—a result that the

Page 29 of 75

USCA Case #19-5288

Document #1832741
30a

Filed: 03/10/2020

4
dissent agrees is contrary to history and precedent. See id. at
3-5; see also Majority at 10-14.
More broadly, I’m skeptical of the claim that the district
court’s supervisory authority never extends to aiding third
parties. As the dissent concedes, the district court may issue
compulsory process in the form of contempt orders and grand
jury subpoenas. Dissent at 16-17. But when the court holds
someone in contempt for breaching the grand jury’s secrecy, it
often aids not only the grand jury but also a third party whose
private papers or statements have been unveiled. Moreover, the
district court’s local rules allow the court “on its own motion”
to “ma[ke] public” grand jury materials “upon a finding that
continued secrecy is not necessary to prevent disclosure of
matters occurring before the grand jury.” D.D.C. LOCAL CRIM.
R. 6.1; see also In re Motions of Dow Jones & Co., 142 F.3d
496, 504 (D.C. Cir. 1998). Under this rule, the district court
could presumably compel the Department to make such
materials available to the public. All this suggests that
compulsory process—even for the benefit of third parties—
falls within the district court’s traditional supervisory power.
Finally, although I agree with the dissent that we have an
independent obligation to assure ourselves of our jurisdiction,
we need not chase jurisdictional phantoms. The relationship
between the grand jury and Article III courts is, to put it mildly,
“very under-theorized,” Oral Arg. Tr. 5:21 (counsel for the
Department); see also id. 62:24-63:17 (counsel for the
Committee), and neither party has advanced the dissent’s novel
theory of that relationship. Given the district court’s traditional
supervisory power over the grand jury and the fact that grand
jury records do not belong to the Executive Branch, I am
satisfied that the court had jurisdiction to compel disclosure.

Page 30 of 75

USCA Case #19-5288

Document #1832741
31a

Filed: 03/10/2020

RAO, Circuit Judge, dissenting: The district court in this case
took two distinct actions: first, it authorized disclosure of grand
jury materials to the House Committee on the Judiciary, and
second, it ordered the Department of Justice to release those
materials to the Committee. The majority affirms both orders
and treats them essentially as a single action pursuant to the
district court’s supervisory power over grand juries, and
therefore outside the boundaries of Article III. Yet there are
important distinctions between these two actions. While I agree
that the court may authorize release under Federal Rule of
Criminal Procedure 6(e), a judicial order compelling action by
the executive branch has always been treated as an exercise of
the Article III power.
The majority dismisses the Article III inquiry because
grand jury records are different and outside the traditional
constitutional boundaries. It is true that the grand jury exists
separate from the three departments of the federal government
and that in aiding the grand jury the courts may exercise limited
non-Article III powers. Yet the ancient institution of the grand
jury does not eviscerate the constitutional limits between the
coordinate branches of the federal government. While the
courts and the executive branch each have a distinct
relationship to the grand jury and Rule 6(e) gives both branches
shared responsibility for maintaining grand jury secrecy, the
grand jury context does not change the powers of the judiciary
in relation to the executive branch or to Congress. Thus, a court
may compel action by the executive branch to release grand
jury records only when a proper litigant meets the requirements
of Article III.
As an initial matter, I agree with the majority that at the
time of its order, the district court did not abuse its discretion
in authorizing disclosure of the grand jury materials. An
impeachment investigation is “preliminar[y] to or in
connection with a judicial proceeding.” FED. R. CRIM. P.
6(e)(3)(E)(i). Authorization of disclosure is part of the district

Page 31 of 75

USCA Case #19-5288

Document #1832741
32a

Filed: 03/10/2020

2
court’s supervisory power and does not require Article III
jurisdiction. Yet in the months following the Committee’s
initial petition, the House passed two articles of impeachment
and the Senate conducted an impeachment trial and voted to
acquit President Donald J. Trump. In light of these
circumstances, I would remand to the district court to consider
in the first instance whether the Committee can continue to
demonstrate that its inquiry is preliminary to an impeachment
proceeding and that it has a “particularized need” for disclosure
of the grand jury records.
Separate from authorization, ordering DOJ to turn over the
grand jury documents is an exercise of the Article III judicial
power for which the Committee must have standing. The
majority and the concurrence fail to identify a single case in
which a court has compelled disclosure of grand jury materials
to a party without standing. Waving the banner of grand jury
tradition is not enough to overcome the fundamental principle
of separation of powers that a court may order action by the
executive branch only at the behest of a party with standing.
The constitutional requirements of Article III standing do not
disappear when a party seeks grand jury materials. The district
court’s non-Article III supervisory power is strictly limited to
actions taken by courts in aid of the grand jury. Nothing in Rule
6(e) nor the district court’s supervisory power changes the
constitutional limits on the court’s authority with respect to
third parties who are not part of the grand jury process.
Therefore, the Committee must have standing to obtain a
judicial order compelling the Department to produce grand jury
materials.
The Committee, however, lacks standing in this case.
Under Article III, as confirmed by Raines v. Byrd, 521 U.S. 811
(1997), and our recent decision in Committee on the Judiciary
of the U.S. House of Representatives v. McGahn, 2020 WL

Page 32 of 75

USCA Case #19-5288

Document #1832741
33a

Filed: 03/10/2020

3
1125837 (D.C. Cir. Feb. 28, 2020), the Committee has no
standing to enforce directly its subpoena to DOJ for grand jury
materials.1 The reasoning of McGahn means that the
Committee also lacks standing to seek a compulsory order in a
Rule 6(e) proceeding—such relief presents an interbranch
dispute not traditionally cognizable by the judiciary. Although
McGahn leaves open the possibility that a statute may create
legislative standing, Rule 6(e) does not do so here. The Rule
merely permits courts to authorize disclosure. It vests no right
in third parties to obtain such authorization, much less a right
to compulsory process to receive grand jury materials. Rule
6(e) thus provides no basis for the informational injury claimed
by the Committee and cannot provide the prerequisites to the
exercise of the Article III judicial power. Because the
Committee lacks standing, I would vacate the district court’s
order compelling DOJ to disclose the grand jury materials. I
respectfully dissent.
I.
The primary question addressed by the majority concerns
whether the district court could authorize disclosure to the
Committee. On this point, I agree with the majority that the
Committee’s petition could fit within Rule 6(e)’s “judicial
proceeding” exception because it sought the grand jury
materials preliminary to a possible Senate impeachment trial,
The House Judiciary Committee’s subpoena to Attorney General
William P. Barr, dated April 18, 2019, seeks “[t]he complete and
unredacted version” of Special Counsel Robert S. Mueller III’s
Report On The Investigation Into Russian Interference In The 2016
Presidential Election (“Mueller Report”), “[a]ll documents
referenced in the Report,” and “[a]ll documents obtained and
investigative materials created by the Special Counsel’s Office.” See
J.A. 190–97.
1

Page 33 of 75

USCA Case #19-5288

Document #1832741
34a

Filed: 03/10/2020

4
which has always been understood as an exercise of judicial
power. The Constitution vests the Senate with the “sole Power
to try all Impeachments.” U.S. CONST. art. I, § 3, cl. 6. The
Framers understood this clause to vest in the Senate a “distinct”
non-legislative power to act in a “judicial character as a court
for the trial of impeachments.” The Federalist No. 65, at 337
(Alexander Hamilton) (George W. Carey & James McClellan
eds., 2001); see also Hayburn’s Case, 2 U.S. (2 Dall.) 408, 410
(1792) (“[N]o judicial power of any kind appears to be vested
[in Congress], but the important one relative to
impeachments.”); Trump v. Mazars USA, LLP, 940 F.3d 710,
755 (D.C. Cir. 2019) (Rao, J., dissenting) (“[T]he Constitution
confers upon the House and Senate limited judicial powers
over impeachable officials.”), cert. granted, 140 S. Ct. 660
(2019).
The Supreme Court has consistently recognized the Senate
as a court of impeachment parallel to the federal courts. For
example, in Mississippi v. Johnson, the Court noted that it was
without authority to restrain the Senate in the conduct of an
impeachment trial because the Senate was sitting “as a court of
impeachment” and “this court [cannot] arrest proceedings in
that court.” 71 U.S. 475, 500–01 (1866); see also Kilbourn v.
Thompson, 103 U.S. 168, 191 (1880) (“The Senate also
exercises the judicial power of trying impeachments.”).
Similarly, we have stated that doctrines ordering the relations
between “state or coordinate federal court[s]” apply to the
Senate when it “sits as the constitutionally-designated court of
impeachment.” Hastings v. United States Senate, 887 F.2d 332,
1989 WL 122685, at *1 (D.C. Cir. Oct. 18, 1989)
(unpublished). The text of the Impeachment Trial Clause and
its consistent interpretation confirm that when sitting for an
impeachment trial, the Senate is a court and the trial a “judicial
proceeding.”

Page 34 of 75

USCA Case #19-5288

Document #1832741
35a

Filed: 03/10/2020

5
At the time of its decision, the district court did not abuse
its discretion in concluding that the Committee had shown a
“particularized need” for the grand jury materials. As the
majority notes, the particularized need inquiry is a “highly
flexible one” that is “adaptable to different circumstances.”
Maj. Op. 16 (quoting United States v. Sells Eng’g, Inc., 463
U.S. 418, 445 (1983)). Impeachment is one such circumstance
to which the standards for particularized need must be uniquely
adapted. Cf. In re Request for Access to Grand Jury Materials
Grand Jury No. 81-1, Miami, 833 F.2d 1438, 1444 (11th Cir.
1987) (“Hastings”) (“[A]pplying the requirements of rule 6(e)
in this context, we hold, taking into account the doctrine of
separation of powers, that a merely generalized assertion of
secrecy in grand jury materials must yield to a demonstrated,
specific need for evidence in a pending impeachment
investigation.”).
Although I agree that the authorization of disclosure was
within the district court’s discretion at the time it issued its
decision, the district court’s analysis was highly fact-bound.
Rule 6(e)’s “preliminarily to or in connection with a judicial
proceeding” exception to grand jury secrecy required the
district court to find that the “primary purpose” of the
Committee’s inquiry was impeachment. See United States v.
Baggot, 463 U.S. 476, 480 (1983). In analyzing that issue, the
district court considered various actions and statements by
legislators and legislative committees and concluded that the
purpose of the Committee’s investigation and its request for the
grand jury materials was to “determine whether to recommend
articles of impeachment.” See In re Application of Comm. on
Judiciary, U.S. House of Representatives, for an Order
Authorizing Release of Certain Grand Jury Materials, 414 F.
Supp. 3d 129, 149 (D.D.C. 2019).

Page 35 of 75

USCA Case #19-5288

Document #1832741
36a

Filed: 03/10/2020

6
Much has happened since the district court authorized
disclosure in October. The House Judiciary Committee
conducted an impeachment investigation, subpoenaed
materials, and heard from witnesses. The House voted in favor
of two articles of impeachment against President Trump. The
Senate then conducted an impeachment trial in which it
considered the House’s evidence, determined that no further
evidence was needed, and entered a judgment of acquittal.
In light of these developments, remand is necessary for the
district court to address whether authorization is still
warranted. A similar analysis of the Committee’s application
today requires ascertaining whether such investigations are
ongoing and, if so, whether their “primary purpose” is to obtain
the grand jury materials for impeachment. The Committee’s
request must fit within one of the Rule 6(e) exceptions and the
only exception claimed by the Committee is that impeachment
is a “judicial proceeding.” Legislative oversight, for example,
would not fit within this exception. If impeachment is no longer
the primary purpose of the Committee’s application, the court
could not authorize disclosure because the grand jury records
would not be sought “preliminarily to or in connection with”
an impeachment trial or inquiry. FED. R. CRIM. P. 6(e)(3)(E)(i).
Similarly, remand is necessary for the district court to
consider whether the Committee continues to have a
particularized need for the requested grand jury materials, or
whether the intervening developments have abrogated or
lessened the Committee’s need for these records. Once again,
this requires a fact-intensive inquiry. In re Sealed Case, 801
F.2d 1379, 1381 (D.C. Cir. 1986) (“[A] district court
[considering a Rule 6(e) application] must ‘weigh carefully the
competing interests in light of the relevant circumstances and
standards.’” (quoting Sells Eng’g, 463 U.S. at 443)). In order
to assess the Committee’s ongoing need for these materials,

Page 36 of 75

USCA Case #19-5288

Document #1832741
37a

Filed: 03/10/2020

7
additional factual information is needed regarding the status of
the Committee’s investigations. The majority relies on
assertions made in briefs filed by the Committee before the
impeachment trial. Maj. Op. 16–18. This generalized interest
standing alone does not speak to the fact-bound inquiry
regarding the ongoing purpose and need for the materials.
Remand is thus necessary for the district court to weigh the
public interest in disclosure against the need to preserve grand
jury secrecy in these changed circumstances. See In re Sealed
Case, 801 F.2d at 1381. Because authorization of disclosure
rests with the sound discretion of the district court, we should
not exercise such discretion in the first instance.
*

*

*

A reasonable observer might wonder why we are deciding
this case at this time. After all, the Committee sought these
materials preliminary to an impeachment proceeding and the
Senate impeachment trial has concluded. Why is this
controversy not moot? The majority simply turns a blind eye to
these very public events and the parties have not submitted any
additional briefs; however, a few observations are worth
noting. Mootness is a constitutional doctrine following from
the Article III requirement that courts decide only live cases
and controversies. See Conservation Force, Inc. v. Jewell, 733
F.3d 1200, 1204 (D.C. Cir. 2013). Mootness, however, does
not impact the district court’s authorization of disclosure
because authorization is a discretionary action under Rule
6(e)—it is part of the non-Article III supervisory power of the
court over the grand jury. With that said, while mootness per
se does not apply, the changed circumstances require remand
for the reasons already stated. As to the order compelling DOJ
to release the records, Article III limitations apply, as explained
below. Yet because I conclude that the Committee lacks
standing for compulsory process, mootness is irrelevant: The

Page 37 of 75

USCA Case #19-5288

Document #1832741
38a

Filed: 03/10/2020

8
district court lacked jurisdiction at the outset to compel DOJ to
release the grand jury materials.
II.
The constitutional problem presented by this case pertains
not to authorization of disclosure, but to the separate question
of whether the district court had jurisdiction to compel DOJ to
release the grand jury materials to the Committee. In the
months leading up to the House’s formal initiation of an
impeachment inquiry, the Judiciary Committee issued a
subpoena to the Department of Justice for the grand jury
materials relating to Special Counsel Robert S. Mueller III’s
investigation. U.S. Dep’t of Justice, Order No. 3915-2017,
Appointment of Special Counsel to Investigate Russian
Interference with the 2016 Presidential Election and Related
Matters (May 17, 2017); see also J.A. 190–97 (House Judiciary
Committee Subpoena to Attorney General William P. Barr
(Apr. 18, 2019)). When the Department refused to comply and
cited Rule 6(e) as an impediment to any release, the Committee
sought authorization from the district court for the release of
the materials. Notably, in its petition to the district court, the
Committee sought only authorization of disclosure; it did not
ask the court to compel DOJ to release the documents. J.A.
139–40. The district court authorized disclosure, but then went
beyond the relief requested by the Committee and ordered the
Department to turn over the materials. The Committee seeks to
defend that order on appeal.
The Committee’s Rule 6(e) application thus replaced
legislative process (the Committee’s subpoena) with judicial
process (the district court’s order compelling the Department
to turn over the grand jury materials to the House). We have
already held that the Committee lacks standing to use the courts
to enforce its subpoenas against the executive branch. See

Page 38 of 75

USCA Case #19-5288

Document #1832741
39a

Filed: 03/10/2020

9
McGahn, 2020 WL 1125837, at *16. Both the Department and
the Committee maintain, however, that Rule 6(e)
fundamentally changes the analysis in this case. They assert
that the district court’s order was an exercise of the supervisory
power over the grand jury, such that the traditional Article III
requirements of justiciability do not apply. That position,
however, reads too much into Rule 6(e) and the district court’s
traditional supervisory authority.
The crux of my analysis turns on fundamental principles
of separation of powers. First, the mere fact that this case
involves a request for grand jury materials does not alter the
basic constitutional requirement that a court order directing the
executive branch to produce documents to a third party is an
exercise of the Article III power. Here, DOJ has possession of
the grand jury records under the terms of Rule 6(e)(1).2 If DOJ
declines to disclose the documents, a court may not grant a
judicial order to disclose unless the Committee has standing.
Second, nothing in Rule 6(e) changes this basic requirement
and permits the district court to order disclosure of grand jury
materials to a third party that fails to meet the requirements of
standing. Finally, although district courts exercise some
supervisory authority to aid the grand jury with its core
functions, such authority traditionally has not extended to

Both the Committee and DOJ characterize the requested documents
as grand jury materials or papers. See, e.g., DOJ Br. 1; Comm. Br. 1.
It might fairly be questioned, however, whether the Mueller Report
is in fact a grand jury document, as it was prepared by Robert Mueller
in his role as the Special Counsel, serving within the Department of
Justice. Thus, the Report might be considered executive branch
papers, to which additional protections might attach. DOJ has not
raised this argument, however, so I consider all the papers as being
encompassed within the umbrella request for grand jury materials.
2

Page 39 of 75

USCA Case #19-5288

Document #1832741
40a

Filed: 03/10/2020

10
ordering the executive branch to release grand jury materials
to third parties in general, nor to Congress in particular.
The majority’s entire jurisdictional argument rests on the
fact that the question “[was] not raised by either party.” Maj.
Op. 26; see also Concurring Op. 4 (“[N]either party has
advanced the dissent’s novel theory of that relationship.”). Yet
DOJ in fact distinguishes between authorizing and ordering
disclosure when it asserts that ordering disclosure is an exercise
of Article III power, but authorization of disclosure is not. See
DOJ Supp. Br. 3–6. In any event, we have an independent
obligation to ensure jurisdiction before exercising the judicial
power. Here, the district court’s order to DOJ for disclosure of
the grand jury materials required an exercise of Article III
power, because nothing in the grand jury context alters the
court’s power in relation to the executive branch. Suspending
the standing requirements of Article III in this context would
constitute an exception to justiciability not supported by the
Constitution, Rule 6(e), or the general supervisory power over
grand juries.
A.
The Committee and the Department argue that the district
court’s order does not implicate Article III because it was
entered pursuant to the court’s supervisory power over grand
juries. It is true as a general matter that the supervisory power
does not implicate “the essential attributes of the judicial
power.” United States v. Seals, 130 F.3d 451, 457 (D.C. Cir.
1997) (citation and quotation marks omitted). But the
supervisory power “is a circumscribed one,” id., that cannot be
extended by federal courts in a manner that transgresses
constitutional or statutory limits, see Bank of Nova Scotia v.
United States, 487 U.S. 250, 254–55 (1988) (“[E]ven a sensible
and efficient use of the supervisory power … is invalid if it

Page 40 of 75

USCA Case #19-5288

Document #1832741
41a

Filed: 03/10/2020

11
conflicts with constitutional or statutory provisions.”
(quotation marks omitted)). In United States v. Williams, the
Court distinguished the limited supervisory power over the
grand jury from the Article III power, and held that district
courts cannot invoke the supervisory authority to take major
actions “on their own initiative,” or to “alter[] the traditional
relationships between the prosecutor, the constituting court,
and the grand jury itself.” 504 U.S. 36, 50 (1992).
The district court’s supervisory power cannot override
constitutional requirements with respect to parties outside the
grand jury process.3 A judicial order compelling a party to take
an action, be it a mandatory injunction, writ of mandamus, or
other similar form of compulsory relief has always been
understood as an exercise of the Article III judicial power. See,
e.g., Georgia v. Stanton, 73 U.S. 50, 75–76 (1867) (“[I]n order
to entitle the party to the [injunctive] remedy, a case must be
presented appropriate for the exercise of judicial power.”). A
court may therefore issue compulsory orders only at the behest
of a party with Article III standing. See Summers v. Earth
Island Inst., 555 U.S. 488, 493 (2009) (“To seek injunctive
relief, a plaintiff must show that he is under threat of suffering
‘injury in fact’ that is concrete and particularized.”).
The judicial power is particularly implicated when a court
issues a compulsory order to the executive branch. See Kendall
v. United States ex rel. Stokes, 37 U.S. 524, 618 (1838) (“[T]he
As discussed in greater depth below, the courts have a limited
ability to issue compulsory process to aid and protect grand jury
investigations as part of their traditional supervisory capacity. This
limited non-Article III power has never extended to issuing
compulsory orders for the benefit of third parties, such as the
Committee, who are external to the grand jury process. See infra 13–
19.
3

Page 41 of 75

USCA Case #19-5288

Document #1832741
42a

Filed: 03/10/2020

12
authority to issue the writ of mandamus to an officer of the
United States, commanding him to perform a specific act,
required by a law of the United States, is within the scope of
the judicial powers of the United States.”). A court may direct
the executive branch only when exercising its Article III
powers. As the Court held in Schlesinger v. Reservists
Committee to Stop the War, a plaintiff must present more than
“generalized grievances” to “seek to have the Judicial Branch
compel the Executive Branch to act in conformity” with
constitutional provisions. 418 U.S. 208, 217 (1974). The Court
emphasized the interrelation of standing and separation of
powers and explained that ruling on constitutional issues “in
the abstract” would “open the Judiciary to an arguable charge
of providing ‘government by injunction.’” Id. at 222.
The courts may interfere with the actions of a co-equal
branch only when deciding a justiciable case or controversy.
Consistent with these basic principles, during the course of
these impeachment investigations, House Committees have not
disputed that standing is required to enforce legislative
subpoenas directed to the executive branch. Indeed, standing
has been the key issue in recent congressional attempts to seek
judicial enforcement of congressional subpoenas.4
B.
Despite these fundamental constitutional requirements, the
Committee maintains it is “counterintuitive” to consider the
requirements of Article III in the context of an application for
grand jury materials because the district court may authorize
See McGahn, 2020 WL 1125837; Blumenthal v. Trump, 949 F.3d
14 (D.C. Cir. 2020); Maloney v. Murphy, No. 18-5305 (D.C. Cir.
filed Aug. 14, 2019); U.S. House of Reps. v. Mnuchin, et. al., No. 195176 (D.C. Cir. filed June 14, 2019).
4

Page 42 of 75

USCA Case #19-5288

Document #1832741
43a

Filed: 03/10/2020

13
disclosure under Rule 6(e) and the court’s supervisory power
over the grand jury exists separate and apart from Article III.
Comm. Supp. Br. 8–9. Intuitions aside, nothing in the text or
structure of Rule 6(e) permits district courts to order disclosure
of grand jury materials when a party does not otherwise have
standing for such relief. Nor does the district court’s residual
supervisory authority extend to issuing compulsory process to
the executive branch on behalf of third parties, rather than on
behalf of the grand jury. While courts exercise some limited
non-Article III powers when supervising the grand jury, the
grand jury context does not allow the courts to suspend Article
III when compelling action by the executive branch.
1.
Rule 6(e) does not alter the separation of powers by
permitting a court to order disclosure by the executive branch
absent standing by a third party. The Federal Rules of Criminal
Procedure have the force and effect of law, and as the Court
has explained, we interpret Rule 6(e) the same way we would
a statute: by looking first to “the Rule’s plain language.” United
States v. John Doe, Inc. I, 481 U.S. 102, 109 (1987); see also
United States v. Petri, 731 F.3d 833, 839 (9th Cir. 2013). As in
all cases of statutory interpretation, we must “accept [Rule
6(e)] as meaning what it says.” John Doe, Inc., 481 U.S. at 109
(quotation marks omitted). Under the plain text of Rule 6(e), a
supervising court “may authorize disclosure” of grand jury
materials under limited circumstances. FED. R. CRIM. P.
6(e)(3)(E).
Rule 6(e) codifies and reinforces the requirements of grand
jury secrecy, subject only to certain enumerated exceptions.
We have recently explained that the list of exceptions is
exclusive and that the district court has no “inherent authority”
to order disclosure outside of the circumstances provided for in

Page 43 of 75

USCA Case #19-5288

Document #1832741
44a

Filed: 03/10/2020

14
the Rule. See McKeever v. Barr, 920 F.3d 842, 846 (D.C. Cir.
2019), cert. denied, No. 19-307, 2020 WL 283746 (Jan. 21,
2020). Very few third parties will fit within these
circumscribed exemptions, which do not include, for example,
any provisions for Congress, members of the public, historians,
or the media. As we have explained, “[t]he rule makes quite
clear that disclosure of matters occurring before the grand jury
is the exception and not the rule.” Fund for Constitutional
Gov’t v. Nat’l Archives & Records Serv., 656 F.2d 856, 868
(D.C. Cir. 1981); see also United States v. Rutherford, 509 F.3d
791, 795 (6th Cir. 2007) (explaining that Rule 6(e)(2)(B) is a
powerful “prohibitory rule that prevents the government from
disclosing grand jury matters except in limited
circumstances”). The Supreme Court has explained the Rule
“ensure[s] the integrity of the grand jury’s functions” by
“placing strict controls on disclosure.” Williams, 504 U.S. at 46
& n.6. The text of the Rule’s “judicial proceeding” exception,
which specifies a precise “kind of need that must be shown” to
justify disclosure, “reflects a judgment that not every beneficial
purpose, or even every valid governmental purpose, is an
appropriate reason for breaching grand jury secrecy.” Baggot,
463 U.S. at 480.
The text and structure of Rule 6(e) demonstrate that it does
not create any distinct authority for compulsory process against
the executive branch. The fact that the court “may authorize
disclosure” suggests that the court cannot release the materials
itself. It may only authorize others to do so, presumably the
government attorneys who by default “retain control” of the
grand jury materials. FED. R. CRIM. P. 6(e)(1). The plain
meaning of “authorize” is to “give official permission for” or
to “approve” or “sanction,” not to compel or require. Authorize,
Oxford English Dictionary (3d ed. 2014); see also Authorize,
Webster’s New International Dictionary of the English
Language (2d ed. 1941) (“To give authoritative permission to

Page 44 of 75

USCA Case #19-5288

Document #1832741
45a

Filed: 03/10/2020

15
or for; to empower; warrant.”). Notably, the Rule does not
confer any right to disclosure, but rather leaves disclosure to
the discretion of the district court. See infra 31–34. Thus, under
Rule 6(e), authorizing disclosure does not include compulsion,
but rather refers to lifting grand jury secrecy so that the
executive branch attorney may disclose the materials.
Moreover, the Rule confers substantial authority on the
government attorneys, not only in serving as custodian over
grand jury materials, but in many instances allowing
government attorneys to disclose without court permission. See
FED. R. CRIM. P. 6(e)(3)(A), (C), (D). Even for those
disclosures that must be authorized by the court, three of the
five circumstances require the request for disclosure to be made
by the government. FED. R. CRIM. P. 6(e)(3)(E)(iii)–(v). When
a person petitions for disclosure of a grand jury matter, notice
must be given to an attorney for the government. FED. R. CRIM.
P. 6(e)(3)(F).
The government attorneys and the district court together
play a gatekeeping and supervisory role over grand jury
materials. Both the prosecutor and the district court have an
institutional relationship to the grand jury; yet the Rule does
not change other constitutional arrangements between the
courts and the Executive. Nothing in Rule 6(e) suggests that the
court may compel government attorneys to disclose grand jury
materials to third parties who do not meet Article III
requirements. To the contrary, Rule 6(e) establishes a balance,
requiring the agreement of both the courts and the government
lawyers for disclosure in most instances.
The majority’s position, however, entrusts grand jury
secrecy exclusively to the courts—allowing the district court
not only to authorize, but to compel release. Maj. Op. 26. By
contrast, DOJ’s position that impeachment does not fit within

Page 45 of 75

USCA Case #19-5288

Document #1832741
46a

Filed: 03/10/2020

16
the “judicial proceeding” exception would leave grand jury
secrecy solely to the Executive in this political context. The
grand jury, however, is not an appendage of any one branch.
Rule 6(e) should not be read to upend longstanding principles
of separation of powers, nor to create supremacy of either the
courts or the executive branch over the grand jury. See United
States v. Chanen, 549 F.2d 1306, 1313 (9th Cir. 1977)
(“[G]iven the constitutionally-based independence of each of
the three actors—court, prosecutor and grand jury—we believe
a court may not exercise its ‘supervisory power’ in a way which
encroaches on the prerogatives of the other two unless there is
a clear basis in fact and law for doing so. If the district courts
were not required to meet such a standard, their ‘supervisory
power’ could readily prove subversive of the doctrine of
separation of powers.”).
2.
Rule 6(e) codifies some aspects of grand jury practice and
secrecy but does not cover every aspect of the district court’s
supervisory power. Thus, whether a district court’s non-Article
III power extends to issuing a compulsory order to the
executive branch for the benefit of third parties must also be
considered against the historical background of the supervisory
power. Even though our circuit does not recognize any
“inherent” power in the district court over grand jury
disclosure, see McKeever, 920 F.3d at 849, some supervisory
powers exist alongside Rule 6(e). For example, because a grand
jury does not have the power to compel witness testimony, it
may rely on the supervising court to issue and enforce
compulsory process to aid the grand jury’s investigative
function. Seals, 130 F.3d at 457. Additionally, a court has the
power to protect the integrity of grand jury proceedings by
issuing contempt sanctions to attorneys who violate grand jury
secrecy. See In re Sealed Case No. 98-3077, 151 F.3d 1059,

Page 46 of 75

USCA Case #19-5288

Document #1832741
47a

Filed: 03/10/2020

17
1070 (D.C. Cir. 1998). Even though such exercises of power
by the district court go beyond the strictly administrative, they
are closely connected to aiding the grand jury in the exercise of
its core functions. Compulsory process ordered on behalf of
and at the request of the grand jury is not an exercise of the
Article III power, but instead part of the court’s supervisory
function over the grand jury. Judicial assistance in these limited
circumstances requires no jurisdiction or standing by the grand
jury—because the authority for such process inheres in the
limited relationship between the grand jury and judiciary.
By contrast, third parties who seek grand jury information
stand outside of the historic relationship between the grand jury
and the court. As discussed below, there is no longstanding
tradition of courts ordering disclosure of grand jury materials
to third parties. See infra 33–35. When third parties seek the
disclosure of such presumptively secret information, they
cannot rely on the court’s supervisory authority because such
authority extends only to aiding the grand jury. For instance,
we have drawn a sharp distinction between grand jury
witnesses, who are part of the grand jury process, and third
parties, who are not. See In re Grand Jury, 490 F.3d 978, 988
(D.C. Cir. 2007) (“Preventing a third party from reviewing a
witness’s grand jury testimony is essential to guarantee secrecy
to witnesses; preventing the witness from reviewing the
witness’s own testimony is entirely unnecessary to guarantee
secrecy to witnesses.”); United States v. Moussaoui, 483 F.3d
220, 237 (4th Cir. 2007) (“We are certainly unaware of any
long unquestioned power of federal district courts to order the
Government to disclose non-public materials given to the
defense in a criminal trial to third-party civil plaintiffs involved
in litigation in another jurisdiction.” (internal citation and
quotation marks omitted)). Even the prosecutor, who may issue
subpoenas on behalf of the grand jury, must ground his
authority in the “grand jury investigation, not the prosecutor’s

Page 47 of 75

USCA Case #19-5288

Document #1832741
48a

Filed: 03/10/2020

18
own inquiry” because “[f]ederal prosecutors have no authority
to issue grand jury subpoenas independent of the grand jury.”
Lopez v. Dep’t of Justice, 393 F.3d 1345, 1349–50 (D.C. Cir.
2005).
Only the grand jury and those who are part of the grand
jury process—not a third party—may petition a court for
compulsory process pursuant to the court’s limited supervisory
power.5 The supervisory power of the district court exists to
serve the functions of the grand jury, but the district court
cannot use that power to evade the requirements of Article III
or to expand judicial authority over the executive branch.6 See
Chanen, 549 F.2d at 1313 n.5 (admonishing against adopting a
view of “judicial supervisory powers [over the grand jury] so
broad in scope as to risk serious impairment of the
constitutionally-based independence of the Executive, i. e., the
prosecutor, when acting within his own sphere”).
The concurring opinion suggests this argument somehow prevents
authorization of disclosure, Concurring Op. 3; however, Rule 6(e)
specifically allows district courts to authorize disclosure by
government attorneys. See supra Part I. By contrast, neither the Rule
nor the traditional supervisory power suggest the court may compel
disclosure by the executive branch, and the concurrence offers not a
single case or example to support the principle that district courts
may compel disclosure to a party that lacks standing.
5

Furthermore, the available evidence suggests that the scope of the
supervisory power prior to the adoption of Rule 6(e) was similarly
limited. Courts allowed grand jury secrecy to be breached only in
very limited circumstances, and there is no evidence of a tradition of
third parties resorting to the courts to compel disclosure. See
generally Mark Kadish, Behind the Locked Door of an American
Grand Jury: Its History, Its Secrecy, and Its Process, 24 FLA. ST. U.
L. REV. 1, 16–22 (1996).
6

Page 48 of 75

USCA Case #19-5288

Document #1832741
49a

Filed: 03/10/2020

19
C.
This is not the first time Congress has sought grand jury
information in connection with an impeachment proceeding.
The handful of historical examples demonstrate that Congress
has received grand jury materials; however, courts have not
compelled disclosure of materials from the executive branch.
Since the enactment of Rule 6(e), courts analyzing
congressional requests for grand jury materials have been
careful to authorize rather than compel disclosure and have
recognized the separation of powers concerns present in such
cases.
For example, the Eleventh Circuit upheld an order
authorizing disclosure to the House Judiciary Committee
pursuant to the judicial proceeding exception during the
impeachment of Judge Alcee Hastings. See generally Hastings,
833 F.2d 1438. Authorization was all that was necessary
because DOJ “stated that it ha[d] ‘no objection’ to this
disclosure to the Committee.” Id. at 1441–42. Similarly, in
2007, the House Judiciary Committee petitioned for disclosure
of grand jury materials relevant to its impeachment inquiry into
the conduct of Judge Thomas Porteous. See In re Grand Jury
Investigation of U.S. Dist. Judge G. Thomas Porteous, Jr., No.
09-mc-04346 (E.D. La. Aug. 6, 2009). The district court held
that the Committee demonstrated a particularized need and
authorized the Department to disclose the materials. Id. at *6.
DOJ did not oppose the request, id. at *2, so no compulsory
process was necessary.
Other courts have recognized that Congress should rely on
legislative process to secure grand jury papers, even after
authorization of disclosure. In In re Grand Jury Investigation
of Ven-Fuel, a House Subcommittee Chairman moved for
disclosure under Rule 6(e). 441 F. Supp. 1299 (M.D. Fla.

Page 49 of 75

USCA Case #19-5288

Document #1832741
50a

Filed: 03/10/2020

20
1977). Only after concluding the Chairman had standing,7 the
court determined that it would enforce the authorization of
disclosure, but nonetheless “request[ed] that the Subcommittee
issue its own subpoena duces tecum to the United States
Attorney for the specific documents desired.” Id. at 1307
(emphasis added) (internal citation omitted). The court stressed
that the House should utilize the legislative process to enforce
its legislative demand for documents from the executive
branch. Id. at 1307–08. Respect for the political process
counseled in favor of withdrawing the judiciary from such
clashes to allow the political branches to rely upon their own
processes to resolve disputes over grand jury materials.
Courts also considered congressional requests for grand
jury records in impeachment proceedings prior to the adoption
of Rule 6(e). Rule 6(e) gives possession of grand jury materials
to government attorneys, but before Rule 6(e) possession of
grand jury materials was not uniform—sometimes the records
would be held by the district court and sometimes by the
prosecutor. In the few recorded instances of congressional
attempts to obtain grand jury materials prior to Rule 6(e),
possession appears to have been the dispositive factor.8 For
The district court relied on United States v. AT&T, 551 F.2d 384,
391 (D.C. Cir. 1976), to support its determination regarding
congressional standing. As we recognized in McGahn, AT&T’s
standing holding is no longer tenable after Raines. See 2020 WL
1125837, at *11–12.
7

The concurring opinion suggests, incorrectly, that the linchpin of
my position is possession. Concurring Op. 1–2. Yet while the
happenstance of physical possession appears to have been a critical
factor prior to Rule 6(e)’s adoption, Rule 6(e)(1) now establishes the
Executive as the designated custodian of grand jury materials. See
supra 15–16. A court’s power to utilize in camera review in
connection with a Rule 6(e) application does not alter DOJ’s duty to
8

Page 50 of 75

USCA Case #19-5288

Document #1832741
51a

Filed: 03/10/2020

21
example, during a 1945 impeachment inquiry into two judges,
the House Judiciary Committee requested grand jury materials.
The supervising district court directed its deputy clerk to testify
before the Committee regarding the materials. See, e.g.,
Conduct of Albert W. Johnson and Albert L. Watson, U.S. Dist.
Judges, Middle District of Pennsylvania: Hearing Before
Subcomm. of the H. Comm. on the Judiciary, 79th Cong. 62–
65 (1946). While the majority classifies this as an example of
“court-ordered disclosure,” Maj. Op. 14, it fails to note that the
direction was not to another branch, but simply to the court’s
deputy clerk. Because the district court possessed the grand
jury records, disclosure did not require an exercise of Article
III power, but merely an exercise of discretion to release papers
within the court’s control. By contrast, in a 1924 inquiry into
two congressmen, the House failed to obtain grand jury
materials that were in the possession of the Attorney General.
6 Cannon’s Precedents of the House of Representatives of the
United States § 402 (“Cannon’s”); see also H.R. Rep. No. 68282 (1924) (grand jury investigation of John W. Langley and
Frederick N. Zihlman). The House does not appear to have
considered petitioning the supervising court for an order
compelling the Attorney General to turn over the materials.
Both before and after Rule 6(e), the federal courts have not
utilized their limited supervisory authority to compel the
maintain grand jury documents. Neither of the cases cited by the
concurrence supports the claim that the mere availability of in
camera review can be used as a backdoor for a court to compel
disclosure over the objection of the Executive to a party that lacks
standing. To the contrary, both cases involved voluntary compliance
by the Executive. See In re Report & Recommendation of June 5,
1972 Grand Jury Concerning Transmission of Evidence to House of
Representatives, 370 F. Supp. 1219, 1221 (D.D.C. 1974), aff’d,
Haldeman v. Sirica, 501 F.2d714 (D.C. Cir. 1974); In re Sealed Case
No. 98-3077, 151 F.3d at 1068.

Page 51 of 75

USCA Case #19-5288

Document #1832741
52a

Filed: 03/10/2020

22
production of grand jury materials to Congress. The historical
precedents cited by the Constitutional Accountability Center in
its amicus brief are not to the contrary. Not one of the cited
examples involved a court issuing an order to compel
disclosure of grand jury materials to Congress. Rather, these
precedents all involved, at most, only authorization to release
grand jury materials.9 Thus, whenever Congress has received
The 1811 Toulmin precedent cited by CAC and the majority did
not involve compulsory process, judicial involvement of any sort, or
even secret grand jury materials. See 3 Asher C. Hinds, Hinds’
Precedents of the House of Representatives § 2488 (“Hinds’”). The
other historical instances CAC cites similarly did not involve
compulsory judicial process. See 2 Hinds’ § 1123; H.R. Rep. No. 571423 (1902) (contested election in which the House received a grand
jury report without evidence of judicial involvement); 6 Cannon’s
§ 74 (1921 contested election in which grand jury materials were
made available to the Senate with no evidence of judicial
involvement); id. § 399 (1924 Senate conduct inquiry in which a
district judge disclosed “some of the[] names” of grand jury
witnesses known to the judge but does not appear to have produced
“minutes of the grand jury proceeding” or the “documentary
evidence which had gone before the grand jury” in response to a
subpoena); Haldeman, 501 F.2d at 715 (“We think it of significance
that the President of the United States, who is described by all parties
as the focus of the report and who presumably would have the
greatest interest in its disposition, has interposed no objection to the
District Court’s action” in disclosing a grand jury report the district
judge possessed); Hastings, 833 F.2d at 1441–42 (“[T]he
Department of Justice has stated that it has ‘no objection’ to this
disclosure to the Committee.”); In re Cisneros, 426 F.3d 409, 412
(D.C. Cir. 2005) (noting the Independent Counsel is “not under the
aegis of either the court or a grand jury” and granting his petition to
disclose materials to Congress); In re Grand Jury Investigation of
Judge Porteous, No. 09-mc-04346, at *6–7 (“[T]he Department of
Justice is authorized to disclose to authorized personnel of the House
of Representatives” grand jury materials related to the Porteous
9

Page 52 of 75

USCA Case #19-5288

Document #1832741
53a

Filed: 03/10/2020

23
grand jury materials in the past, it was with the cooperation of
the entity that possessed the materials—either the supervising
court, if the materials were within its custody, or the executive
branch, which turned over the materials without being ordered
by a court to do so.10 The foregoing examples demonstrate that
although courts have sometimes authorized disclosure to third
parties pursuant to their supervisory authority or under the
judicial proceeding exception of Rule 6(e), courts have not
compelled disclosure to third parties over the objection of the
executive branch.
*

*

*

Even in the grand jury context, we are obliged to ensure
that a dispute is within our Article III authority. Nothing in
Rule 6(e), the traditional supervisory power, or historical
practice changes the relationship between the coordinate
branches or the general rule that a court exercises the Article
III judicial power when it issues compulsory process to the
executive branch.
III.
Because a compulsory order to the executive branch in aid
of Congress is an essential attribute of the Article III judicial
power, the Committee must establish standing in order to
investigation and “Department of Justice personnel may discuss”
with the Committee “matters occurring before the grand jury.”).
The historical practice also casts doubt on DOJ’s position that an
impeachment cannot be a judicial proceeding. DOJ has previously
consented to the release of materials for impeachment proceedings
and specifically agreed that a “Senate impeachment trial qualifies as
a ‘judicial proceeding,’ and that a House impeachment inquiry is
‘preliminary to’ the Senate trial.” Hastings, 833 F.2d at 1440–41.
10

Page 53 of 75

USCA Case #19-5288

Document #1832741
54a

Filed: 03/10/2020

24
obtain judicial relief. This Part explains why the Committee
lacks standing to seek compulsory process against the
executive branch for the grand jury materials. First, in light of
Raines and our court’s recent decision in McGahn, the
Committee would not have standing to seek judicial
enforcement of its subpoena to DOJ. Because this case
similarly presents a purely interbranch conflict, the Committee
has no standing to seek a judicial order compelling DOJ to
produce the same papers in the context of a Rule 6(e)
proceeding. Second, although McGahn leaves open the
possibility that legislative standing could be created by statute,
Rule 6(e) creates no informational right to grand jury materials
and the denial of such materials is not a judicially cognizable
injury. Therefore, irrespective of whether a statute could
establish congressional standing, Rule 6(e) does not. Finally,
allowing standing in this context would run against historical
practice and the limited role of the federal judiciary in our
system of separated powers. Raines, 521 U.S. at 819 (standing
requires the dispute to be “traditionally thought to be capable
of resolution through the judicial process” (quotation marks
omitted)).
A.
“[T]he law of [Article] III standing is built on a single
basic idea—the idea of separation of powers.” Raines, 521 U.S.
at 820 (quoting Allen v. Wright, 468 U.S. 737, 752 (1984)). The
Article III judicial power extends only to cases and
controversies, disputes that present concrete and particularized
injuries to the rights of individuals. A rigorous standing
analysis restricts courts to disputes traditionally within the
judicial power. “The statutory and (especially) constitutional
elements of jurisdiction are an essential ingredient of
separation and equilibration of powers, restraining the courts
from acting at certain times, and even restraining them from

Page 54 of 75

USCA Case #19-5288

Document #1832741
55a

Filed: 03/10/2020

25
acting permanently regarding certain subjects.” Steel Co. v.
Citizens for a Better Env’t, 523 U.S. 83, 94 (1998). The Court
often decides interbranch conflicts, but only when such
conflicts implicate the rights of private parties. See Raines, 521
U.S. at 820. Conflicts between the executive branch and
Congress are generally settled in the political back and forth,
because each branch has the constitutional motives and means
to defend its own powers and “resist encroachments of the
others.” The Federalist No. 51, at 268–69 (James Madison).
When Congress brings suit against the executive branch,
we must be especially careful to ensure that the suit is properly
within our jurisdiction. As we recently explained, “we lack
authority to resolve disputes between the Legislative and
Executive Branches until their actions harm an entity ‘beyond
the [Federal] Government.’ Without such a harm, any dispute
remains an intramural disagreement about the ‘operations of
government’ that we lack power to resolve.” McGahn, 2020
WL 1125837, at *3 (quoting Raines, 521 U.S. at 834 (Souter,
J., concurring in the judgment)). In McGahn, we held that the
Committee lacks standing to “invoke the jurisdiction of the
federal courts to enforce its subpoena” for the testimony of
former Counsel to the President Donald McGahn. Id. at *7.
McGahn made clear that generalized disputes between
Congress and the Executive are not justiciable because
standing in interbranch disputes is at odds with the
constitutional separation of powers, the nature of the judicial
power, and historical practice. Id.11
As McGahn recognized, “we may adjudicate cases concerning
congressional subpoenas that implicate the rights of private parties.”
2020 WL 1125837, at *16 (citing Mazars, 940 F.3d at 723). In Trump
v. Mazars, the House Oversight Committee’s subpoena was directed
to the President’s private accounting firm. Although the subpoena
raised separation of powers concerns and was intertwined with the
11

Page 55 of 75

USCA Case #19-5288

Document #1832741
56a

Filed: 03/10/2020

26
The framework in McGahn governs the standing inquiry
in the case before us. To begin with, the Committee would not
have standing to enforce its April subpoena for the grand jury
materials—a legislative subpoena against the executive branch
must be enforced through legislative process. The fact that the
Committee here seeks to use the courts to compel production
of the same materials under the aegis of Rule 6(e) does not alter
the standing analysis. The Committee asserts that its
“continued lack of access to the material is a quintessential
informational injury sufficient to confer standing.” Comm.
Supp. Br. 5. The nature of the interbranch dispute and the
relevant constitutional bar in this case is indistinguishable from
McGahn: In both cases the Committee seeks to invoke the
compulsory powers of the federal judiciary in an informational
dispute with the executive branch; however, the Committee’s
alleged “informational injury” is insufficient to confer standing
because federal courts lack constitutional power to issue an
“official actions of the Chief Executive,” Mazars, 940 F.3d at 752
(Rao, J., dissenting), it nonetheless involved private parties. When
determining standing, we focus on the identity of the parties rather
than the issues they seek to adjudicate. Valley Forge Christian Coll.
v. Americans United for Separation of Church & State, Inc., 454 U.S.
464, 485 (1982). Unlike Mazars, this case presents a purely
interbranch dispute between the House and the Executive, over
which this court lacks jurisdiction. Moreover, this case arises in
relation to a formal impeachment inquiry and trial, which raises
concerns regarding justiciability. See Raines, 521 U.S. at 829 (no
standing for suits that are “contrary to historical experience”);
(Walter) Nixon, 506 U.S. 224, 234 (1993) (“[T]he Judiciary … were
not chosen to have any role in impeachments.”). These concerns
were not present in Mazars. See 940 F.3d at 779 n.20 (Rao, J.,
dissenting) (“[T]he Committee has not relied on the impeachment
power for this subpoena …. Congress, the Executive, and the courts
have maintained that requests under the legislative and impeachment
powers may be treated differently.”).

Page 56 of 75

USCA Case #19-5288

Document #1832741
57a

Filed: 03/10/2020

27
injunction in a dispute between Congress and the Executive
when no individual rights are at stake. See McGahn, 2020 WL
1125837, at *3 (“[T]he Committee’s dispute with the
Executive Branch is unfit for judicial resolution because it has
no bearing on the ‘rights of individuals.’” (quoting Marbury v.
Madison, 5 U.S. (1 Cranch) 137, 170 (1803))).
The majority insists that this case “is unlike other interbranch disputes” and distinguishable from McGahn because
the grand jury is an “appendage of the court” and the
Department of Justice is “simply the custodian of the grand jury
materials.” Maj. Op. 9, 26. The majority further maintains that
“it is the district court, not the Executive or the Department,
that controls access to … grand jury materials.” Id. at 10. These
sweeping claims cannot be squared with Rule 6(e), our cases,
and the history of the grand jury.
The text and structure of Rule 6 make clear that the district
court and the executive branch share responsibility for
maintaining grand jury secrecy and for overseeing appropriate
disclosures. As discussed above, government attorneys have
authority to disclose in some circumstances without court
approval; in other circumstances, the government attorney
must approve the disclosure. See, e.g., FED. R. CRIM P.
6(e)(3)(A)–(D), (E)(iii)–(v). In McKeever, we explained that
the district court cannot release grand jury records on its own
initiative because “Rule 6 assumes the records are in the
custody of the Government, not that of the court” and the
district court may authorize disclosure by an “attorney for the
government.” 920 F.3d at 848 (citing FED. R. CRIM. P. 6(e)(1)).
The majority’s contrary position relies in part on the reasoning
of other circuits that have concluded grand jury records are
“court records” over which the district court can exercise
“inherent authority” because the grand jury is part of the
judicial process. Maj. Op. 9 (citing cases). Yet we have recently

Page 57 of 75

USCA Case #19-5288

Document #1832741
58a

Filed: 03/10/2020

28
stated it is “not at all clear” that grand jury records are “judicial
records” and noted that this court has rejected that conclusion
in other contexts. McKeever, 920 F.3d at 848. Grand jury
documents, like the grand jury itself, belong neither to the
executive branch nor to the courts.
Contrary to the majority’s classification of the grand jury
as part of the judiciary, the Supreme Court has explained that
the grand jury’s “institutional relationship with the Judicial
Branch has traditionally been, so to speak, at arm’s length.”
Williams, 504 U.S. at 47. The Court has also recognized the
important relationship between the prosecutor and the grand
jury. See, e.g., Sells Eng’g, 463 U.S. at 430 (“[A] modern grand
jury would be much less effective without the assistance of the
prosecutor’s office…. [The grand jury] depends largely on the
prosecutor’s office to secure the evidence or witnesses it
requires.”). Government attorneys have strong institutional
reasons for protecting grand jury secrecy in relation to ongoing
and future prosecutions.
Thus, although the grand jury relies on both court and
prosecutor for the exercise of its functions, it is an “appendage”
of neither. The grand jury exists apart from all three branches.
See Williams, 504 U.S. at 47 (“[The grand jury] has not been
textually assigned, therefore, to any of the branches described
in the first three Articles. It ‘is a constitutional fixture in its own
right.’” (quoting Nixon v. Sirica, 487 F.2d 700, 712 n.54 (D.C.
Cir. 1973))); Chanen, 549 F.2d at 1312 (“[T]he functions of the
grand jury are intimately related to the functions of court and
prosecutor …. But … the grand jury is not and should not be
captive to any of the three branches.” (internal citations
omitted)). A district court may supervise the grand jury, but
such supervision does not change the division of power
between the court and the political branches.

Page 58 of 75

USCA Case #19-5288

Document #1832741
59a

Filed: 03/10/2020

29
Because this case is fundamentally an interbranch dispute,
the House may seek judicial process against the executive
branch only if it can demonstrate Article III standing. The
Committee’s claim must fit within the increasingly narrow
exceptions for congressional standing. Here, the Committee
asserts no individual harm to a lawmaker’s personal interests.
Cf. Powell v. McCormack, 395 U.S. 486 (1969) (finding a
justiciable case or controversy for elected Member of Congress
to sue for wrongful exclusion from Congress, which deprived
him of salary and seat). The Committee here is “an institutional
plaintiff” representing the House of Representatives. Comm.
Supp. Br. 11 (quoting Ariz. State Legislature v. Ariz. Indep.
Redistricting Comm’n, 135 S. Ct. 2652, 2664 (2015)); see also
H.R. Res. 430, 116th Cong. (2019) (authorizing House
Judiciary Committee “to petition for disclosure of” the grand
jury materials at issue “pursuant to Federal Rule of Criminal
Procedure 6(e)”). Although the Court has suggested some
limited standing for state legislatures raising institutional
interests, McGahn forecloses institutional standing for
Congress in suits against the executive branch. See 2020 WL
1125837, at *3–8. McGahn, however, leaves open the question
of whether a “statute authorizing a suit like the Committee’s
would be constitutional.” Id. at *15. It is doubtful whether this
question in fact remains open after Raines, where the Court
noted “[i]t is settled that Congress cannot erase Article III’s
standing requirements by statutorily granting the right to sue to
a plaintiff who would not otherwise have standing.” 521 U.S.
at 820 n.3. Nonetheless, this remains the only possible path for
the Committee’s standing in this case. Assuming a statute
might be able to create standing in an interbranch dispute, I
analyze whether Rule 6(e) creates a legally cognizable injury
sufficient to sustain the Committee’s standing.

Page 59 of 75

USCA Case #19-5288

Document #1832741
60a

Filed: 03/10/2020

30
B.
Congress may “elevat[e] to the status of legally cognizable
injuries concrete, de facto injuries that were previously
inadequate in law.” Lujan v. Defenders of Wildlife, 504 U.S.
555, 578 (1992). Yet as the Court recently explained, a plaintiff
must always demonstrate that it has suffered a sufficiently
“concrete injury even in the context of a statutory violation.”
Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1549 (2016). Thus, the
mere fact that “a statute grants a person a statutory right and
purports to authorize that person to sue to vindicate that right,”
“does not mean that a plaintiff automatically satisfies the
injury-in-fact requirement.” Id. We have since elaborated on
the Court’s holding in Spokeo, explaining that “[f]or a statutory
violation to constitute an injury in fact, then, the statute must
protect the plaintiff’s concrete interest—i.e., afford the putative
plaintiff a right to be free of a harm capable of satisfying Article
III.” Jeffries v. Volume Servs. Am., Inc., 928 F.3d 1059, 1064
(D.C. Cir. 2019).
The Committee maintains that it has standing because
Rule 6(e) “authorizes court-ordered disclosures” when grand
jury material is sought preliminary to a judicial proceeding, and
the House is therefore “entitled to the material under the Rule.”
Comm. Supp. Br. 5. Contrary to the House’s assertions,
however, Rule 6(e) does not create an entitlement to invoke the
courts’ aid in compelling production of grand jury information.
See Pittsburgh Plate Glass Co. v. United States, 360 U.S. 395,
399 (1959) (Rule 6(e) does not confer upon an applicant “a
‘right’ to the delivery to it of the witness’ grand jury
testimony”); see also In re Fed. Grand Jury Proceedings, 760
F.2d 436, 439 (2d Cir. 1985) (explaining that there “is no
‘absolute right’ to … grand jury testimony” under the judicial
proceeding exception). Rather, Rule 6(e) starts from the
premise that “disclosure of matters occurring before the grand

Page 60 of 75

USCA Case #19-5288

Document #1832741
61a

Filed: 03/10/2020

31
jury is the exception and not the rule,” and then proceeds to
“set[] forth in precise terms to whom, under what
circumstances and on what conditions grand jury information
may be disclosed.” McKeever, 920 F.3d at 844 (emphasis
added) (citation and quotation marks omitted).
The decision to authorize the release of grand jury
materials in connection with a judicial proceeding is thus
committed to the sound discretion of the supervising court,
which “may” authorize disclosure “at a time, in a manner, and
subject to any other conditions that it directs.” FED. R. CRIM. P.
6(e)(3)(E). Even then, disclosure is appropriate only if the court
first concludes that “the party seeking material covered by the
exception ha[s] made a sufficiently strong showing of need to
warrant disclosure.” McKeever, 920 F.3d at 846.
Rule 6(e) is thus unlike other statutes and regulations that
require the disclosure of certain categories of information, such
as the Freedom of Information Act. See 5 U.S.C. § 552
(providing that agencies “shall make available” to the public
various categories of records and information); Zivotofsky ex
rel. Ari Z. v. Sec’y of State, 444 F.3d 614, 617–18 (D.C. Cir.
2006) (noting that under FOIA “[t]he requester is injured-infact for standing purposes because he did not get what the
statute entitled him to receive”). The Committee’s attempt to
analogize Rule 6(e) to such statutes is misguided. Each of the
cases cited by the Committee to support its theory of
informational injury-in-fact involved claims that a plaintiff was
denied access to information in violation of an express
statutory or regulatory mandate to disclose the information at
issue. For example, the Federal Election Campaign Act of 1971
required that political committees make certain information
public, and so an alleged failure to disclose such information
would constitute a judicially cognizable injury. See FEC v.
Akins, 524 U.S. 11, 21 (1998). Similarly, the Federal Advisory

Page 61 of 75

USCA Case #19-5288

Document #1832741
62a

Filed: 03/10/2020

32
Committee Act, 5 U.S.C. App. 2 § 10, requires release of
information pertaining to certain committees advising the
executive branch. The Court held that a deprivation of such
information constituted an injury sufficient to confer standing.
See Pub. Citizen v. U.S. Dep’t of Justice, 491 U.S. 440, 449–
50 (1989). Because these statutes created affirmative disclosure
obligations, a plaintiff could establish an Article III injury by
alleging a refusal to provide the required information.12
By contrast, Rule 6(e)(3) creates no such injury because it
does not afford any concrete right. Rather, the Rule is purely
permissive, providing that the district court “may authorize
disclosure” of grand jury materials. The existence of an
enumerated exception to grand jury secrecy under Rule 6(e)(3)
is only the starting point. After determining an exception
applies, a supervising court must determine, in its discretion,
whether disclosure of the grand jury materials may be
warranted under the circumstances and whether the applicant
has demonstrated a “particularized need” for the materials. See,
e.g., Sells Eng’g, 463 U.S. at 442–43. Even this permissive
standard refers only to authorization of disclosure, not to
disclosure itself. Moreover, the Court has never held that Rule
6(e)(3) creates a private right of action for a third party to
obtain injunctive relief. See Pittsburgh Plate Glass, 360 U.S.
at 399. Although Rule 6(e)(3) allows the court to remove the
The Committee’s attempt to analogize Rule 6(e) to statutes like
FOIA fails for an additional reason. Although Rule 6(e) “ha[s] the
force of law,” Comm. Supp. Br. 6–7 (quoting Deaver v. Seymour,
822 F.2d 66, 70 n.9 (D.C. Cir. 1987)), under the Rules Enabling Act,
a federal rule of criminal procedure cannot vest any substantive right
to information. 28 U.S.C. § 2072(b) (“Such rules shall not abridge,
enlarge or modify any substantive right.”); see also Kontrick v. Ryan,
540 U.S. 443, 453 (2004) (“[I]t is axiomatic” that rules promulgated
pursuant to the Rules Enabling Act “do not create or withdraw
federal jurisdiction.”).
12

Page 62 of 75

USCA Case #19-5288

Document #1832741
63a

Filed: 03/10/2020

33
shield of grand jury secrecy through authorization, a third party
must look elsewhere for a right of action to compel disclosure.
See Rutherford, 509 F.3d at 793 (“[Rule] 6(e)(3)(E)(i),
pertaining to the disclosure of grand jury documents, cannot be
used to mandate such release.”).
It is instructive that we have held other parts of Rule 6(e)
can be enforced by third parties through a private right of
action. For example, a third party has a “very limited” private
right of action to enforce Rule 6(e)(2)’s secrecy requirement by
seeking “injunctive relief or civil contempt of court through the
district court supervising the grand jury.” In re Sealed Case No.
98-3077, 151 F.3d at 1070 (quotation marks omitted). Rule
6(e)(2) uses the mandatory language “must not disclose,”
which courts have interpreted as vesting a private right that
may be judicially redressable. Rule 6(e)(3), unlike Rule
6(e)(2), does not provide a legal entitlement to compel
production of grand jury materials.13 Thus, a third party such
as the Committee that seeks a court order to compel production
must demonstrate an independent legal right to such materials14
Other statutes demonstrate that Congress knows how to vest
district courts with the power to compel production of grand jury
materials. For example, the Jencks Act provides that the government
may be ordered to produce grand jury witness statements. 18 U.S.C.
§ 3500(b). The Act also provides remedies if the government fails to
comply with a court’s disclosure order. 18 U.S.C. § 3500(d).
13

Legal rights to grand jury materials have been found in different
contexts. See, e.g., Gibson v. United States, 403 F.2d 166 (D.C. Cir.
1968) (criminal defendant asserting constitutional rights, such as the
need to obtain potentially exculpatory evidence in a pending criminal
trial); Dennis v. United States, 384 U.S. 855, 869–70 (1966)
(criminal discovery); Illinois v. Abbott & Assocs., Inc., 460 U.S. 557
(1983) (Section 4F(b) of the Clayton Act, 15 U.S.C. § 15f(b));
United States v. Procter & Gamble, 356 U.S. 677 (1958) (civil
plaintiff’s discovery rights). Our sister circuits have prevented
14

Page 63 of 75

USCA Case #19-5288

Document #1832741
64a

Filed: 03/10/2020

34
or possess a judicial device for compelling the materials, such
as a subpoena. See Rutherford, 509 F.3d. at 795 (“[Rule 6(e)]
does not authorize third parties to obtain grand jury materials
from the government against the government’s objections
without a proper device for compelling the documents, such as
a subpoena duces tecum.”).
In sum, Rule 6(e) fails to create a legally cognizable
informational right, the denial of which might constitute an
injury sufficient to support congressional standing. I therefore
need not opine on the broader question left open by McGahn
regarding whether a statute can confer such standing in the first
place.
C.
In addition to conflicting with McGahn and the text of
Rule 6(e)(3), the Committee’s “attempt to litigate this dispute
at this time and in this form is contrary to historical
experience.” Raines, 521 U.S. at 829. This type of interbranch
dispute is not one “traditionally thought to be capable of
resolution through the judicial process.” Allen, 468 U.S. at 752
(quoting Flast v. Cohen, 392 U.S. 83, 97 (1968)). The fact that
Congress seeks grand jury materials does not erase the
constitutional boundaries between the judiciary and Congress
with respect to impeachment, nor does it displace the separate
parties from using Rule 6(e)(3) to compel disclosure absent a legal
right. For example, in Moussaoui, the Fourth Circuit rejected an
attempt to use Rule 6(e) to “compel the Government to disclose nonpublic documents to crime victims involved in a civil action in a
different jurisdiction.” 483 F.3d at 230; see also California v. B.F.
Goodrich Co., 619 F.2d 798, 801 (9th Cir. 1980) (after authorizing
disclosure, adding that “[t]he Attorney General need not disclose the
materials if he objects to their disclosure”).

Page 64 of 75

USCA Case #19-5288

Document #1832741
65a

Filed: 03/10/2020

35
legislative processes that Congress has for obtaining
information.
The Committee initially sought authorization of disclosure
for the Mueller grand jury materials preliminary to an
impeachment proceeding. Yet impeachment is a separate
process that occurs in the House and the Senate, without the
interference or involvement of the courts. Parallel to the
ordinary criminal process, the Constitution vests the power of
impeachment and power to try all impeachments solely in the
House and Senate respectively. U.S. CONST. art. I, § 2, cl. 2,
§ 3, cl. 6. The Constitution carefully separates the criminal
process in the courts from the impeachment process in
Congress. See U.S. CONST. art. I, § 3, cl. 7 (“[T]he Party
convicted shall nevertheless be liable and subject to
Indictment, Trial, Judgment and Punishment, according to
Law.”); The Federalist No. 65, at 340 (Alexander Hamilton).
As the Supreme Court has explained, “the Judiciary, and the
Supreme Court in particular, were not chosen to have any role
in impeachments.” (Walter) Nixon, 506 U.S. at 234.
The text and structure of the Constitution’s provisions
regarding the impeachment power confirm the separation of the
courts from this process. The “risks from overlapping powers
reach their apogee in a presidential impeachment trial.”
(Walter) Nixon v. United States, 938 F.2d 239, 242–43 (D.C.
Cir. 1991), aff’d, 506 U.S. 224. Thus, courts should not
interfere with the exercise of the impeachment powers, and the
House does not have a positive constitutional right to assistance
from the other branches in the exercise of its sole power of
impeachment. See (Walter) Nixon, 506 U.S. at 231
(interpreting the word “sole” to exclude any judicial
“assistance or interference” in an impeachment proceeding
(citation omitted)). The House must look to its own powers or

Page 65 of 75

USCA Case #19-5288

Document #1832741
66a

Filed: 03/10/2020

36
those of the court of impeachments, the Senate, for compulsory
aid in an impeachment investigation.
History confirms that both Congress and the courts have
maintained the separation between impeachment and the
judicial process. In the only three previous presidential
impeachment investigations, as well as other impeachments,
the House has never resorted to the courts to compel materials
from the executive branch. As in Raines, “[i]t is evident from
several episodes in our history that in analogous confrontations
between one or both Houses of Congress and the Executive
Branch, no suit was brought on the basis of claimed injury to
official authority or power.” 521 U.S. at 826; see also McGahn,
2020 WL 1125837, at *6 (“Neither interbranch disputes (in
general) nor interbranch information disputes (in particular)
have traditionally been resolved by federal courts.”).
During the impeachment investigation of President Nixon,
the House Judiciary Committee recognized that seeking
judicial assistance would likely weaken the authority of the
House as well as exceed the judicial power of the courts. In its
impeachment report, the Committee held that “it would be
inappropriate to seek the aid of the courts to enforce its
subpoenas against the President” because it would undermine
“the constitutional provision vesting the power of
impeachment solely in the House of Representatives.” H.R.
Rep. No. 93-1305, at 210 (1974) (noting also the “express
denial by the Framers of the Constitution of any role for the
courts in the impeachment process”). The Committee was
concerned that judicial involvement would undermine its
powers because “the court would necessarily have to determine
whether the subpoenaed material was reasonably relevant to
the inquiry.” Id. at 212. The Committee also raised concerns
that the courts would not have “adequate means” to enforce a
congressional subpoena because the only viable remedy for the

Page 66 of 75

USCA Case #19-5288

Document #1832741
67a

Filed: 03/10/2020

37
President’s noncompliance would be impeachment, which
“would ultimately be adjudicated in the Senate.” Id. The House
agreed and, in line with this position, did not seek court orders
to obtain grand jury materials. Instead, it received most
Watergate grand jury materials by order of the President and
on the petition of the Watergate grand jury, without objection
from the executive branch. See Letter from Peter W. Rodino,
Jr., Chairman, House Judiciary Committee, to John J. Sirica,
U.S. District Judge (Mar. 8, 1974); In re Report &
Recommendation of June 5, 1972 Grand Jury Concerning
Transmission of Evidence to House of Representatives, 370 F.
Supp. at 1221.
Similarly, during the impeachment of President Clinton,
the House Judiciary Committee never resorted to the courts to
compel production from the executive branch and instead
relied on the addition of an article of impeachment alleging
insufficient responses from the President to numerous
interrogatories issued by the Committee. See generally H.R.
Rep. No. 105-830 (1998). Moreover, neither the Judiciary
Committee in the impeachment inquiry nor the Senate
Whitewater Committee resorted to the courts to receive grand
jury materials. See S. Rep. No. 104-191, at 9 (1995) (“[G]rand
jury secrecy restrictions forbid the Committee’s participation
in discussions over subpoenas to the White House.”). To the
extent the Judiciary Committee received grand jury materials,
it was not through a Rule 6(e)(3) application filed by the
Committee. Rather, a member of the executive branch, the
Independent Counsel, disclosed the materials to Congress
pursuant to the Ethics in Government Act, 28 U.S.C. § 595(c),
after receiving Rule 6(e) authorization from the Special
Division of this court. See H.R. Rep. No. 105-795, at 32 (1998).
The impeachment of Andrew Johnson also conforms to
this understanding. The “tedious job of taking testimony and

Page 67 of 75

USCA Case #19-5288

Document #1832741
68a

Filed: 03/10/2020

38
searching through documents” was conducted solely by the
House, with no mention of judicial involvement. Michael Les
Benedict, “The Impeachment of President Andrew Johnson,
1867–68” in Congress Investigates at 263–64; cf. Mississippi,
71 U.S. at 501 (noting it would be a “strange spectacle” for the
Court to attempt to “restrain by injunction the Senate of the
United States from sitting as a court of impeachment”).
These historical precedents further reinforce the
availability and effectiveness of legislative process to enforce
informational requests. “Congress (or one of its chambers) may
hold officers in contempt, withhold appropriations, refuse to
confirm the President’s nominees, harness public opinion,
delay or derail the President’s legislative agenda, or impeach
recalcitrant officers.” McGahn, 2020 WL 1125837, at *5. The
ultimate form of accountability for the President is an article of
impeachment. Impeachment is a power the House must
exercise pursuant to its own processes and standards, and selfhelp is always available.
Moreover, when sitting as a court of impeachment, the
Senate may issue the same compulsory process and orders as
any other court. It may issue warrants, summons, and
subpoenas, and even arrest and hold individuals who fail to
comply. Indeed, the Senate Rules provide that the Senate, not
the courts, makes determinations regarding relevancy and
compulsory process. See S. Res. 479, 99th Cong. (1986),
reprinted in Senate Manual § 176, 113th Cong. (2014).15

During the impeachment trial of President Clinton, Chief Justice
Rehnquist noted that a deposition could be taken only under the
Senate’s authority because “a deposition is an adjunct to a court
proceeding, and it is only from the court that the authority to compel
attendance of witnesses and administer oaths is derived.” Letter from
15

Page 68 of 75

USCA Case #19-5288

Document #1832741
69a

Filed: 03/10/2020

39
Although the Committee now seeks to reassign the
Senate’s authority to the judiciary, this court has observed that
the Article III courts must apply the same principles of comity
and abstention to the Senate sitting as “the constitutionallydesignated court of impeachment” as it would to any other
“coordinate federal court.” Hastings, 887 F.2d 332, 1989 WL
122685, at *1; see also id. (“[W]e have not found any case in
which the judiciary has issued injunctive or declaratory relief
intercepting ongoing proceedings of the legislative branch.”).
We should decline to issue compulsory process in an
impeachment trial committed to the “sole” discretion of the
Senate.
*

*

*

Congress has historically relied upon its own
constitutional powers to enforce subpoenas and informational
requests against the executive branch. See McGahn, 2020 WL
1125837, at *7 (“Principles and practice thus agree: The
Committee may not invoke the jurisdiction of the federal courts
to enforce its subpoena.”). “[P]olitical struggle and
compromise” is the Constitution’s chosen method to resolve
interbranch disputes. Barnes v. Kline, 759 F.2d 21, 55 (D.C.
Cir. 1984) (Bork, J., dissenting). With respect to grand jury
records in the possession of the executive branch, no less than
other disputes, the Committee must demonstrate Article III
standing. Here, the Committee can point to no statutory
entitlement to this information and the judicial relief it seeks is
contrary to historical practice and the separation of powers.
Accordingly, the Committee lacks standing to request a court
order compelling DOJ to disclose the grand jury materials.
William Rehnquist, Chief Justice of the United States, to Tom
Harkin, United States Senator (Jan. 25, 1999).

Page 69 of 75

USCA Case #19-5288

Document #1832741
70a

Filed: 03/10/2020

40
IV.
Fundamental principles of separation of powers and the
relation of the grand jury to the three branches necessarily lead
to the conclusion that the Committee cannot fight this
interbranch dispute through the courts. Although it is well
established that a court exercises the Article III judicial power
when issuing a compulsory order to the executive branch, the
fact that the Committee here seeks grand jury materials has
obscured the ordinary justiciability requirements. When
pursuing an impeachment investigation, the Committee may
petition for authorization of disclosure under the “judicial
proceeding” exception in Rule 6(e)(3). Nothing in the Rule,
however, allows the district court to compel the executive
branch to disclose grand jury materials to a party that lacks
standing. The district court’s supervisory power over the grand
jury cannot expand judicial authority over the executive
branch.
The majority refuses to consider the first and most
fundamental question presented in every case—namely
whether we have the power to decide it. Although the majority
and concurrence refer in the abstract to the supervisory power,
they cite not a single case in which a court has ordered the
executive branch to release grand jury materials to a party
without standing. Our duty to ensure that we have jurisdiction
cannot be brushed aside by the expedient agreement of the
executive branch and the House to support the Committee’s
standing. “[E]very federal appellate court has a special
obligation to satisfy itself not only of its own jurisdiction, but
also that of the lower courts in a cause under review, even
though the parties are prepared to concede it.” Steel Co., 523
U.S. at 94 (quotation marks omitted). Acquiescence by the
political branches cannot erase constitutional boundaries. See,
e.g., Free Enter. Fund. v. Pub. Co. Accounting Oversight Bd.,

Page 70 of 75

USCA Case #19-5288

Document #1832741
71a

Filed: 03/10/2020

41
561 U.S. 477, 497 (2010) (“[T]he separation of powers does
not depend on … whether ‘the encroached-upon branch
approves the encroachment.’” (quoting New York v. United
States, 505 U.S. 144, 182 (1992))); Clinton v. New York, 524
U.S. 417, 447 (1998) (support from both political branches for
the Line Item Veto Act could not override the “finely wrought
procedure commanded by the Constitution” (quotation marks
omitted)); INS v. Chadha, 462 U.S. 919, 942 n.13 (1983) (“The
assent of the Executive to a bill which contains a provision
contrary to the Constitution does not shield it from judicial
review.”).
In a similar vein, the courts should not defer to the political
branches with respect to protecting the integrity of the Article
III judicial power. Inevitably, there will be times when
institutional interests lead Congress or the Executive to seek
out the courts to resolve messy political matters. In this case,
the House repeatedly asserted that it should be treated as would
“every other litigant” seeking grand jury materials under Rule
6(e). Comm. Br. 51–52; see also Comm. Supp. Br. 12. The
House chose to press its standing in the third branch, rather than
rely on the full and awesome powers of the first.16 Similarly,
the Department of Justice here only selectively invokes Article
By contrast, during the Nixon impeachment, the House Judiciary
Committee resisted resort to the courts to enforce impeachment
related process because judicial involvement in impeachment
matters would be inappropriate, and moreover, would weaken
Congress as an institution. See H.R. Rep. No. 93-1305, at 210–12
(1974); see also Raoul Berger, Congressional Subpoenas to
Executive Officials, 75 COLUM. L. REV. 865, 893 (1975) (“[P]ossibly
the Committee was reluctant to surrender a jot of its paramountcy in
conducting an impeachment investigation; and it did have an
ultimate sanction—to add an article for contempt of the House by
refusal to comply with its subpoena. Presidential infringements on
the prerogatives of the House are impeachable.”).
16

Page 71 of 75

USCA Case #19-5288

Document #1832741
72a

Filed: 03/10/2020

42
III to press for its institutional self-interest. See DOJ Supp. Br.
3–6. The Constitution gives the Executive and Congress the
constitutional means and motives to pursue the interests of their
respective departments. In purely interbranch disputes,
however, those constitutional means do not include judicial
review.
Moreover, the grand jury context does not alter the
justiciability requirements of Article III. The role of the courts
in our system of separated powers is to preserve individual
rather than institutional rights. See Marbury, 5 U.S. (1 Cranch)
at 170 (“The province of the court is, solely, to decide on the
rights of individuals, not to enquire how the executive, or
executive officers, perform duties in which they have a
discretion.”); McGahn, 2020 WL 1125837, at *3 (“[T]he
Committee’s dispute with the Executive Branch is unfit for
judicial resolution because it has no bearing on the ‘rights of
individuals.’” (quoting Marbury, 5 U.S. (1 Cranch) at 170));
see also Antonin Scalia, The Doctrine of Standing as an
Essential Element of the Separation of Powers, 17 SUFFOLK U.
L. REV. 881, 884 (1983). The Article III judicial power does
not include the “amorphous general supervision of the
operations of government.” Raines, 521 U.S. at 829 (citation
and quotation marks omitted). Our Article III courts are
confined to the less flashy but nonetheless vital “species of
contest which is termed a lawsuit.” Barnes, 759 F.2d at 52
(Bork, J., dissenting) (quoting 1 A. De Tocqueville,
Democracy in America 106–07 (T. Bradley ed. 1945)); cf.
Spokeo, 136 S. Ct. at 1551 (Thomas, J., concurring) (“These
limitations [on standing] preserve separation of powers by
preventing the judiciary’s entanglement in disputes that are
primarily political in nature. This concern is generally absent
when a private plaintiff seeks to enforce only his personal
rights against another private party.”).

Page 72 of 75

USCA Case #19-5288

Document #1832741
73a

Filed: 03/10/2020

43
In our constitutional democracy, most decisions are left to
the people and their representatives. The courts play an
essential role in saying what the law is, but they are not allpurpose umpires, available to referee any dispute between the
other branches. Unless presented with a proper case or
controversy, the courts do not advise or review the acts of the
coordinate branches or the disputes that may arise between
them. As discussed above, these separation of powers concerns
are at their height in the impeachment context. The courts
should have no part of assisting or interfering with
impeachment proceedings. See (Walter) Nixon, 506 U.S. at
233–34. Institutional disputes between the executive branch
and Congress often pertain to political arrangements and are
fought under political standards, wholly outside the purview of
the courts.
Furthermore, maintaining careful control over
jurisdictional boundaries is one of the primary mechanisms of
self-defense for the judiciary, because it avoids entangling
unelected judges in the political sparring of the day. See
McGahn, 2020 WL 1125837, at *4 (“Interbranch disputes are
deeply political and often quite partisan…. By restricting the
role of the judiciary, Article III preserves the ‘public
confidence’ in the federal courts.” (quoting Valley Forge
Christian Coll., 454 U.S. at 474)). The political branches seek
judicial resolution of their interbranch dispute today, yet may
tomorrow find the courts an inconvenient interference. If courts
enter the business of resolving interbranch disputes, the branch
losing the judicial contest has every incentive to discredit the
motive and means employed by the judiciary—charges against
which the judiciary has few protections when it has decided a
case outside the boundaries of the judicial power. Moreover, a
judicial decision in these disputes may allow the political
branches to escape accountability for making their case to the
American people and instead deflect responsibility to the

Page 73 of 75

USCA Case #19-5288

Document #1832741
74a

Filed: 03/10/2020

44
courts. That was not the system designed by our Framers. If the
court picks sides in a political dispute, we not only compromise
the boundaries of our own power, but also weaken the political
accountability of the other branches.
Any doubt regarding the unsuitability of the courts for this
interbranch dispute should be put to rest in the circumstances
of this case. The Senate trial of President Trump concluded
more than a month before publication of this opinion. Even
when acting on an expedited basis, courts cannot move with the
alacrity and speed of the political process. And indeed, that
process has moved on without our decisions. The flurry of
supplemental filings recounting the litigating positions of the
President and the House in the impeachment trial, and arguing
that such positions should affect our decisionmaking,
demonstrates the practical impediments to judicial resolution
of these issues.17 In addition to the constitutional limits of the
judicial power, the very structure of the judiciary reinforces
that impeachments and related interbranch information
disputes are not the business of the courts.

See, e.g., Letter from Douglas N. Letter, General Counsel, U.S.
House of Representatives, to Mark Langer, Clerk of the Court, U.S.
Court of Appeals for the D.C. Circuit (Jan. 23, 2020) (“[O]ne of
President Trump’s defenses in the impeachment is that the House
should have gone to court to obtain the information he withheld.”);
Letter from Mark R. Freeman, Department of Justice, to Mark
Langer, Clerk of the Court, U.S. Court of Appeals for the D.C.
Circuit (Jan. 28, 2020) (“The extensive, ongoing debate in the Senate
over what evidence the Senate should or should not consider in the
trial underscores the oddity of the Committee’s view.”).
17

Page 74 of 75

USCA Case #19-5288

Document #1832741
75a

Filed: 03/10/2020

45
*

*

*

The grand jury context does not eliminate the limits on the
judicial power essential to the Constitution’s separation of
powers. Because I conclude that the House lacks standing to
seek compulsory process against the executive branch in this
context, I would vacate the part of the district court’s order
directing DOJ to disclose the grand jury materials. On the
question of authorization, in light of changed circumstances, I
would remand to the district court to evaluate in the first
instance whether the Committee can demonstrate that it
continues to have a “particularized need” for these grand jury
materials “preliminarily to” impeachment proceedings. For the
foregoing reasons, I respectfully dissent.

Page 75 of 75

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 1 of 75
76a
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

In re APPLICATION OF THE
COMMITTEE ON THE JUDICIARY, U.S.
HOUSE OF REPRESENTATIVES, FOR AN
ORDER AUTHORIZING THE RELEASE
OF CERTAIN GRAND JURY MATERIALS

Grand Jury Action No. 19-48 (BAH)
Chief Judge Beryl A. Howell

MEMORANDUM OPINION GRANTING THE APPLICATION OF THE COMMITTEE
ON THE JUDICIARY, U.S. HOUSE OF REPRESENTATIVES
Table of Contents

BACKGROUND ......................................................................................................................... 3
A. The Special Counsel’s Investigation ....................................................................................... 3
B. Release of the Mueller Report .............................................................................................. 13
C. The Instant Proceeding......................................................................................................... 16
II. LEGAL STANDARD ................................................................................................................ 18
III. DISCUSSION ........................................................................................................................... 19
A. Rule 6(e)’s “Judicial Proceeding” Requirement is Satisfied Because an Impeachment Trial is
Such a Proceeding ............................................................................................................... 21
1. The Term “Judicial Proceeding” in Rule 6(e) Has a Broad Meaning ..................................... 22
2. An Impeachment Trial is Judicial in Nature............................................................................ 26
3. Historical Practice Before Enactment of Rule 6(e) Informs Interpretation of that Rule ......... 34
4. Binding D.C. Circuit Precedent Forecloses Any Conclusion Other Than That an
Impeachment Trial is a “Judicial Proceeding” ........................................................................ 37
B. HJC’s Consideration of Articles of Impeachment is “Preliminarily To” an Impeachment Trial . 44
1. Governing Legal Principles Demonstrate That House Proceedings Can be “Preliminarily To”
a Senate Impeachment Trial .................................................................................................... 44
2. HJC’s Primary Purpose is to Determine Whether to Recommend Articles of Impeachment . 47
a. DOJ’s Proposed “Preliminarily To” Test is Contrary to Baggot ...................................... 47
b. No House “Impeachment Inquiry” Resolution is Required .............................................. 49
c. The Record of House and HJC Impeachment Activities Here Meets the “Preliminarily
To” Test ............................................................................................................................ 55
3. Requiring More Than the Current Showing by HJC, as DOJ Demands, Would Improperly
Intrude on Article I Powers Granted to House of Representatives.......................................... 58
4. DOJ’s Remaining Objections are Unpersuasive ..................................................................... 61
C. HJC Has a “Particularized Need” for the Requested Materials ................................................ 62
1. Disclosure is Necessary to Avoid Possible Injustice ............................................................... 64
2. The Need for Disclosure Outweighs the Need for Continued Secrecy ................................... 71
3. Scope of Disclosure Authorized .............................................................................................. 74
IV. CONCLUSION ......................................................................................................................... 74
I.

1

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 2 of 75
77a
In March 2019, Special Counsel Robert S. Mueller III ended his 22-month investigation
and issued a two-volume report summarizing his investigative findings and declining either to
exonerate the President from having committed a crime or to decide that he did. See generally
Special Counsel Robert S. Mueller, III, U.S. Dep’t of Justice, Report On The Investigation Into
Russian Interference In The 2016 Presidential Election (“Mueller Report”) (Mar. 2019), ECF
Nos. 20-8, 20-9. The Special Counsel explained that bringing federal criminal charges against
the President would “potentially preempt constitutional processes for addressing presidential
misconduct.” Id. at II-1. With this statement, the Special Counsel signaled his view that
Congress, as the federal branch of government tasked with presidential impeachment duty under
the U.S. Constitution, was the appropriate body to resume where the Special Counsel left off.
The Speaker of the House of Representatives has announced an official impeachment
inquiry, and the House Judiciary Committee (“HJC”), in exercising Congress’s “sole Power of
Impeachment,” U.S. CONST. art. I, § 2, cl. 5, is reviewing the evidence set out in the Mueller
Report. As part of this due diligence, HJC is gathering and assessing all relevant evidence, but
one critical subset of information is currently off limits to HJC: information in and underlying
the Mueller Report that was presented to a grand jury and withheld from Congress by the
Attorney General.
The Department of Justice (“DOJ”) claims that existing law bars disclosure to the
Congress of grand jury information. See DOJ’s Resp. to App. of HJC for an Order Authorizing
Release of Certain Grand Jury Materials (“DOJ Resp.”), ECF No. 20. DOJ is wrong. In
carrying out the weighty constitutional duty of determining whether impeachment of the
President is warranted, Congress need not redo the nearly two years of effort spent on the Special
Counsel’s investigation, nor risk being misled by witnesses, who may have provided information

2

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 3 of 75
78a
to the grand jury and the Special Counsel that varies from what they tell HJC. As explained in
more detail below, HJC’s application for an order authorizing the release to HJC of certain grand
jury materials related to the Special Counsel investigation is granted. See HJC’s App. for an
Order Authorizing the Release of Certain Grand Jury Materials (“HJC App.”), ECF No. 1.
I.

BACKGROUND
What follows begins with a brief review of the initiation of the Special Counsel’s

investigation, the key findings in the Mueller Report and the grand jury secrecy redactions
embedded therein, as well as the significant gaps in the Special Counsel’s investigation that
contributed to the Special Counsel assessment that “[t]he evidence we obtained about the
President’s actions and intent presents difficult issues that would need to be resolved if we were
making a traditional prosecutorial judgement.” Mueller Report at II-8.1 Next reviewed is
Congress’s response to the release of the public redacted version of the Mueller Report and
ensuing—and ultimately unsuccessful—negotiations with DOJ to obtain the full Report and
related investigative materials, leading HJC to file the instant application, pursuant to Federal
Rule of Criminal Procedure 6(e)(3)(E)(i).
A.

The Special Counsel’s Investigation

On May 17, 2017, then-Deputy Attorney General (“DAG”) Rod J. Rosenstein appointed
Robert S. Mueller III to serve as Special Counsel for DOJ “to investigate Russian interference
with the 2016 presidential election and related matters.” U.S. Dep’t of Justice, Office of the
Deputy Attorney General, Order No. 3915-2017, Appointment of Special Counsel to Investigate
Russian Interference with the 2016 Presidential Election and Related Matters (“Appointment

As noted, the Mueller Report is in two volumes, with each volume re-starting the page numbering. Thus,
citations to this report use a nomenclature indicating the page number in either Volume I or Volume II.

1

3

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 4 of 75
79a
Order”) (May 17, 2017) (capitalization altered).2 Prior to the Special Counsel’s appointment, the
Federal Bureau of Investigation (“FBI”) had already initiated “an investigation into whether
individuals associated with the Trump Campaign [had] coordinat[ed] with the Russian
government” to interfere in the 2016 presidential election. Mueller Report at I-1. The order
authorizing the Special Counsel’s appointment thus had the effect of transferring the ongoing
FBI investigation to his office. See Appointment Order ¶ b (authorizing the Special Counsel “to
conduct the investigation confirmed by then-FBI Director James B. Comey in testimony before
[Congress] on March 20, 2017”). The Special Counsel was also granted “jurisdiction to
investigate matters that arose directly from the FBI’s Russia investigation, including whether the
President had obstructed justice in connection with Russia-related investigations” and
“potentially obstructive acts related to the Special Counsel’s investigation itself.” Mueller
Report at II-1. Pursuant to this grant of authority—and upon receiving evidence “relating to
potential issues of obstruction of justice involving the President”—the Special Counsel
“determined that there was a sufficient factual and legal basis to further investigate . . . the
President.” Id. at II-12.
In compliance with the DOJ regulations authorizing his appointment, upon completion of
his investigation the Special Counsel issued a confidential report to the Attorney General
“explaining the prosecution or declination decisions [he] reached.” Id. at I-1 (quoting 28 C.F.R §
600.8(c)). That Report laid out the Special Counsel’s findings in two volumes, totaling 448
pages. Both HJC and DOJ point to the contents of the Report as highly relevant to resolving the

2
Then-Attorney General Jeff Sessions had recused himself “from any existing or future investigations of any
matters related in any way to the campaigns for President of the United States,” Press Release, U.S. Dep’t of Justice,
Attorney General Sessions Statement of Recusal (Mar. 2, 2017), making the Deputy Attorney General the “Acting
Attorney General, by operation of law” as to such matters, In re Grand Jury Investigation, 315 F. Supp. 3d 602, 621
(D.D.C. 2018), aff’d, 916 F.3d 1047 (D.C. Cir. 2019).

4

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 5 of 75
80a
current legal dispute. Indeed, DOJ submitted the public redacted version of the Mueller Report
as exhibits to support its arguments. See DOJ’s Resp., Exs. 8 (Volume I), 9 (Volume II), ECF
Nos. 20-8, 20-9. Therefore, a recounting of some of the key events chronicled in and
conclusions (or lack thereof) reached by the Special Counsel in the Mueller Report is in order.
Volume I of the Mueller Report “describe[s] the factual results of the Special Counsel’s
investigation of Russia’s interference in the 2016 presidential election.” Mueller Report at I-2.
The Special Counsel concluded that “[t]he Russian government interfered in the 2016
presidential election in sweeping and systematic fashion,” “principally through two operations.”
Id. at I-1. “First, a Russian entity carried out a social media campaign that favored presidential
candidate Donald J. Trump and disparaged presidential candidate Hillary Clinton. Second, a
Russian intelligence service conducted computer-intrusion operations against entities,
employees, and volunteers working on the Clinton Campaign and then released stolen
documents.” Id. Russia hacked and stole “hundreds of thousands of documents,” id. at I-4, from
the Democratic National Committee, the Democratic Campaign Committee, and the Clinton
Campaign, and then disseminated those documents through fictitious online personas and
through the website WikiLeaks in order to influence the outcome of the 2016 presidential
election. Id. at I-4, 38, 41, 48, 58.
Volume I of the Mueller Report also details evidence of “links between the Russian
government and individuals associated with the Trump [2016 Presidential] Campaign.” Id. at I2–3. According to the Special Counsel, “the [Trump] Campaign expected it would benefit
electorally from information stolen and released through Russian efforts,” and the links between
the Russian government and the Trump Campaign were “numerous.” Id. at I-1–2. For instance,
a meeting occurred on June 9, 2016 at Trump Tower in New York City, between a Russian

5

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 6 of 75
81a
lawyer and senior Trump Campaign officials Donald Trump Jr., Jared Kushner, and thencampaign manager Paul Manafort, triggered by information provided to those campaign officials
that the Russian lawyer would deliver “official documents and information that would
incriminate Hillary [Clinton].” Id. at I-6 (internal quotation marks omitted). Additionally, the
Mueller Report documents connections between Ukraine and Manafort, who had previously
“work[ed] for a pro-Russian regime in Ukraine.” Id. at I-129. Among other things, the Special
Counsel determined that “during the campaign” Manafort—through “Rick Gates, his deputy on
the Campaign”—“periodically sent” internal Trump Campaign “polling data” to Konstantin
Kilimnik, Manafort’s long-time business associate in Ukraine with alleged ties to Russian
intelligence, with the expectation that Kilimnik would “share that information with others in
Ukraine.” Id. The Mueller Report further recounts evidence suggesting that then-candidate
Trump may have received advance information about Russia’s interference activities, stating:
Manafort, for his part, told the Office that, shortly after WikiLeaks’s July 22
release, Manafort also spoke with candidate Trump [redacted]. Manafort also
[redacted] wanted to be kept apprised of any developments with WikiLeaks
and separately told Gates to keep in touch [redacted] about future WikiLeaks
releases.
According to Gates, by the late summer of 2016, the Trump campaign
was planning a press strategy, a communications campaign, and messaging
based on the possible release of Clinton emails by WikiLeaks. [Redacted]
while Trump and Gates were driving to LaGuardia Airport. [Redacted],
shortly after the call candidate Trump told Gates that more releases of
damaging information would be coming.
Id. at I-53–54 (footnotes omitted) (redactions in original, with citation in referenced footnote 206
redacted due to grand jury secrecy).

6

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 7 of 75
82a
The public version of Volume I contains over 240 redactions on the basis of grand jury
secrecy.3 These redactions occur in parts of the Mueller Report that include discussion of the
Trump Tower Meeting, then-candidate Trump’s discussion with associates about releases of
hacked documents, and Manafort’s contacts with Kilimnik. See id. at I-54 & n.206, 111–12,
117, 120, 136–37, 140, 143.
Volume II of the Mueller Report summarizes the “obstruction investigation,” which
“focused on a series of actions by the President that related to the Russian-interference
investigations, including the President’s conduct towards the law enforcement officials
overseeing the investigations and the witnesses to relevant events.” Id. at II-3 (capitalization
altered). The Special Counsel determined that “the President of the United States took a variety
of actions towards the ongoing [Russia-related investigations] . . . that raised questions about
whether he had obstructed justice.” Id. at II-1. For example, in the summer of 2017 after news
reports about the Trump Tower Meeting, President Trump “directed aides not to publicly
disclose the emails setting up the June 9 meeting” and “edited a press statement for Trump Jr.,”
eliminating the portion “that acknowledged that the meeting was with ‘an individual who
[Trump Jr.] was told might have information helpful to the campaign,’” even while President
Trump’s personal attorney “repeatedly denied the President had played any role” in Trump Jr.’s
statement. Id. at II-5 (alteration in original).
In another instance involving potential witness tampering, the Mueller Report examined
the events leading to former Trump Organization executive and attorney Michael Cohen
Redactions in the Mueller Report were not applied by the Special Counsel’s Office but “by Department of
Justice attorneys working closely together with attorneys from the Special Counsel’s Office, as well as with the
intelligence community, and prosecutors who are handling ongoing cases.” William P. Barr, Attorney General,
Department of Justice, Attorney General William P. Barr Delivers Remarks on the Release of the Report on the
Investigation into Russian Interference in the 2016 Presidential Election (Apr. 18, 2019),
https://www.justice.gov/opa/speech/attorney-general-william-p-barr-delivers-remarks-release-report-investigationrussian.
3

7

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 8 of 75
83a
providing false testimony to Congress, in 2017, about a deal to build a Trump Tower in Moscow,
Russia. Id. at II-6. While Cohen was preparing to give that false testimony the President’s
personal counsel told Cohen, according to Cohen, that “Cohen should ‘stay on message’ and not
contradict the President.” Id. Then, in April 2018, after Cohen became the subject of a criminal
investigation and the FBI had searched Cohen’s home and office, the President stated publicly
“that Cohen would not ‘flip’” and “contacted [Cohen] directly to tell him to ‘stay strong,’” at the
same time that President Trump’s personal counsel “discussed pardons” with Cohen. Id.
As DOJ points out, DOJ Resp. at 32 n.19, the public version of Volume II contains some,
but far fewer, redactions on the basis of grand jury secrecy than does the public version of
Volume I.4 Again, the Mueller Report recounts an incident when then-candidate Trump spoke to
associates indicating that he may have had advance knowledge of damaging leaks of documents
illegally obtained through hacks by the Russians, stating “shortly after WikiLeaks’s July 22,
2016 release of hacked documents, [Manafort] spoke to Trump [redacted]; Manafort recalled
that Trump responded that Manafort should [redacted] keep Trump updated. Deputy campaign

The reason for the fewer grand jury–related redactions in Volume II addressing “questions about whether
[the President] had obstructed justice,” Mueller Report at II-1, becomes clear upon analysis. The introduction to this
part of the Mueller Report provides assurances that “we conducted a thorough factual investigation in order to
preserve the evidence when memories were fresh and documentary materials were available.” Id. at II-2. As the
Mueller Report highlights, “a President does not have immunity after he leaves office,” and, quoting DOJ policy, the
Report further observes that “an immunity from prosecution for a sitting President would not preclude such
prosecution once the President’s term is over or he is otherwise removed from office by resignation or
impeachment.” Id. at II-1 & n.4 (quoting A Sitting President’s Amenability to Indictment and Criminal Prosecution,
24 Op. O.L.C. 222, 255 (2000) [hereinafter OLC Op.]). Yet, some individuals whose actions figure prominently in
incidents described in Volume II were never compelled to testify under oath before the grand jury to preserve their
testimony. For example, several witnesses, who simply declined to speak to the Special Counsel, as is their right,
were not pursued with the tools available to prosecutors to gather material evidence in a criminal investigation.
Certain consequences flow from these prosecutorial choices—other than the obvious fact that the grand jury was
given no opportunity to consider this evidence—namely: the testimony of these individuals is not formally preserved
but also any statements or documentary evidence that was obtained from these individuals is not protected by grand
jury secrecy. See In re Application of the Committee on the Judiciary, No. 19-gj-48, 2019 WL 5268929, at *1 (Oct.
17, 2019) (ordering DOJ to unseal improperly redacted portion of declaration pertaining to “identities of individuals
who did not testify before the grand jury”); DOJ’s’ Notice of Compliance with Ord. of Oct. 17, 2019 (“DOJ
Notice”), Ex. 10, Decl. of Associate Deputy Attorney General (“ADAG”) Bradley Weinsheimer ¶ 4 (“Revised
ADAG Decl.”), ECF No. 44-1 (revealing that “Don McGahn did not testify before the grand jury” and “Donald
Trump, Jr. also did not testify before the grand jury”).
4

8

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 9 of 75
84a
manager Rick Gates said that . . . Manafort instructed Gates [redacted] status updates on
upcoming releases. Around the same time, Gates was with Trump on a trip to an airport
[redacted], and shortly after the call ended, Trump told Gates that more releases of damaging
information would be coming.” Id. at II-18 (footnotes omitted) (redactions in original, with
citation in footnote 27 redacted due to grand jury secrecy). In addition, a discussion related to
the Trump Tower Meeting contains two grand jury redactions: “On July 12, 2017, the Special
Counsel’s Office [redacted] Trump Jr. [redacted] related to the June 9 meeting and those who
attended the June 9 meeting.” Id. at II-105 (redactions in original).
The Mueller Report acknowledges investigative “gaps” that were sufficiently significant
that the Special Counsel could not “rule out the possibility that the unavailable information
would shed additional light on (or cast in a new light) the events described in the report.” Id. at
I-10. Six “identified gaps” were that: (1) “[s]ome individuals invoked their Fifth Amendment
right against compelled self-incrimination and were not, in the Office’s judgment, appropriate
candidates for grants of immunity”; (2) “[s]ome of the information obtained . . . was
presumptively covered by legal privilege and was screened from investigators”; (3) “other
witnesses and information—such as information known to attorneys or individuals claiming to
be members of the media”—were not pursued “in light of internal Department of Justice
policies”; (4) “practical limits” prevented the gathering of information and questioning of
witnesses abroad; (5) “[e]ven when individuals testified or agreed to be interviewed, they
sometimes provided information that was false or incomplete”; and (6) “some of the individuals
we interviewed or whose conduct we investigated—including some associated with the Trump
Campaign—deleted relevant communications or communicated during the relevant period using
applications that feature encryption or that do not provide for long-term retention of data or

9

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 10 of 75
85a
communications records.” Id. Consequently, the Mueller Report cautions that “[a] statement
that the investigation did not establish particular facts does not mean there was no evidence of
those facts.” Id. at I-2.
The Report acknowledges that these gaps adversely affected the investigation and, in
some instances, precluded the Special Counsel from reaching any conclusion about whether
criminal conduct occurred. For example, evidence related to the President’s knowledge about his
personal attorney’s involvement in the preparation of Cohen’s false testimony to Congress was
not pursued. The Mueller Report states that “[t]he President’s personal counsel declined to
provide us with his account of his conversations with Cohen,” and “we did not seek to obtain the
contents of any . . . communications” between President Trump and his attorney during that time
period. Id. at II-154. “The absence of evidence about the President and his counsel’s
conversations about the drafting of Cohen’s statement precludes us from assessing what, if any,
role the President played.” Id. In another example, the Special Counsel examined the
circumstances of a meeting held, during the transition, on January 11, 2017, on the Seychelles
Islands between Kirill Dmitriev, the chief executive officer of Russia’s sovereign wealth fund,
and Erik Prince, a businessman with close ties to Trump Campaign associates, including senior
Trump advisor Steve Bannon. See id. at I-7, 148. Prince said he discussed the meeting with
Bannon in January 2017, but Bannon denied this, and “[t]he conflicting accounts . . . could not
be independently clarified . . . because neither [Prince nor Bannon] was able to produce any of
the [text] messages they exchanged in the time period surrounding the Seychelles meeting.” Id.
at I-156. “Prince’s phone contained no text messages prior to March 2017” and “Bannon’s
devices similarly contained no messages in the relevant time period,” and neither Prince nor

10

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 11 of 75
86a
Bannon could account for the absent messages. Id.; see also id. at I-153–55 (extensive grand
jury redactions).5
Some areas of the report describing such gaps contain redactions of grand jury material.
For example, in describing the Trump Tower Meeting, the Mueller Report states: “The Office
spoke to every participant [at the Trump Tower Meeting] except [Natalia] Veselnitskaya and
Trump, Jr., the latter of whom declined to be voluntarily interviewed by the Office,” with the
remainder of the sentence redacted for grand jury secrecy. Id. at I-117. The Special Counsel
declined to pursue charges related to this meeting in part because “the Office did not obtain
admissible evidence likely to meet the government’s burden to prove beyond a reasonable doubt
that these individuals acted ‘willfully.’” Id. at I-186.6
The Mueller Report also reveals the Special Counsel’s unsuccessful effort to speak
directly with the President: “We also sought a voluntary interview with the President. After
more than a year of discussion, the President declined to be interviewed,” which statement is
followed by two lines redacted for references to grand jury material. Id. at II-13. Although “the
President did agree to answer written questions on certain Russia-related topics, and he provided
us with answers,” the President refused “to provide written answers to questions on obstruction
topics or questions on events during the transition.” Id. The Special Counsel acknowledged
“that we had the authority and legal justification to issue a grand jury subpoena to obtain the

Both Prince and Bannon testified before congressional committees. See Testimony of Erik Prince Before
the H. Permanent Select Comm. on Intelligence, 115th Cong. (Nov. 30, 2017),
https://docs.house.gov/meetings/IG/IG00/20171130/106661/HHRG-115-IG00-Transcript-20171130.pdf; H.
PERMANENT SELECT COMM. ON INTELLIGENCE, 115TH CONG., SCOPE OF INVESTIGATION, MINORITY VIEWS at 11
(MARCH 26, 2018), https://perma.cc/D9HE-AFUH (reporting on Steve Bannon’s testimony).
6
Another example involves a July 2016 trip to Moscow by Carter Page, then a Trump Campaign official,
who gave a speech in Moscow and represented in emails to other Campaign officials that he also spoke with Russian
government officials. Mueller Report at I-96, I-98, I-101. Yet, “[t]he Office was unable to obtain additional
evidence or testimony about who Page may have met or communicated with in Moscow; thus, Page’s activities in
Russia . . . were not fully explained.” Id. at I-101. This same paragraph reporting this gap in the evidence contains
redacted references to grand jury material. See id.
5

11

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 12 of 75
87a
President’s testimony,” but “chose not to do so.” Id.; see also Mueller Report App’x C
(describing efforts to interview the President in greater detail). When the Special Counsel
testified before Congress on July 24, 2019, he acknowledged that the President’s written
responses to questions posed by the Special Counsel’s Office were “generally” not only
“inadequate and incomplete,” but also “showed that he wasn’t always being truthful.” HJC
App., Ex. W, Former Special Counsel Robert S. Mueller, III on the Investigation into Russian
Interference in the 2016 Presidential Election: Hearing before the H. Permanent Select Comm.
on Intelligence, 116th Cong. 83 (July 24, 2019), ECF No. 1-24.
The Special Counsel’s investigation “did not establish that members of the Trump
Campaign conspired or coordinated with the Russian government in its election interference
activities.” Mueller Report at I-2. Nor did the Special Counsel “make a traditional prosecutorial
judgment” or otherwise “draw ultimate conclusions about the President’s conduct.” Id. at II-8.
At the same time, the Special Counsel stated that “if we had confidence after a thorough
investigation of the facts that the President clearly did not commit obstruction of justice, we
would so state.” Id. at II-2. “[W]hile this report does not conclude that the President committed
a crime, it also does not exonerate him.” Id.; see also id. at II-8, II-182 (reiterating that Report
“does not exonerate” President). “Given the role of the Special Counsel as an attorney in the
Department of Justice and the framework of the Special Counsel regulations,” the Special
Counsel “accepted” the DOJ Office of Legal Counsel’s (“OLC”) legal conclusion that “‘the
indictment or criminal prosecution of a sitting President would impermissibly undermine the
capacity of the executive branch to perform its constitutionally assigned functions’ in violation
of ‘the constitutional separation of powers.’” Id. at II-1 (citation omitted) (quoting OLC Op. at

12

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 13 of 75
88a
222, 260). This OLC legal conclusion has never been adopted, sanctioned, or in any way
approved by a court.
At the same time, impeachment factored into this analysis, as the Special Counsel also
concluded “that Congress may apply the obstruction laws to the President’s corrupt exercise of
the powers of office [which] accords with our constitutional system of checks and balances and
the principle that no person is above the law.” Id. at II-8.
B.

Release of the Mueller Report

On March 22, 2019, Attorney General (“AG”) William Barr, as required by 28 C.F.R. §
600.9(a)(3), notified the Chairmen and Ranking Members of the United States House and Senate
Judiciary Committees, via a one-page letter, that the Special Counsel had completed his
investigation. DOJ Resp., Ex. 1, Letter from William P. Barr, Attorney Gen., Dep’t of Justice, to
Lindsey Graham, Chairman, S. Comm. on the Judiciary, et al. (Mar. 22, 2019), ECF No. 20-1.
AG Barr stated that he “intend[ed] to consult with Deputy Attorney General Rosenstein and
Special Counsel Mueller to determine what other information from the report [could] be released
to Congress and the public consistent with the law,” and that he “remain[ed] committed to as
much transparency as possible.” Id. Two days later, on March 24, 2019, AG Barr sent a second,
four-page letter to the Chairmen and Ranking Members of the United States House and Senate
Judiciary Committees, advising them “of the principal conclusions reached by Special Counsel
Robert S. Mueller III,” and reiterating his “intent . . . to release as much of the Special Counsel’s
report as [possible] consistent with applicable law,” noting that he first needed to identify
information “subject to Federal Rule of Criminal Procedure 6(e),” as well as “information that
could impact other ongoing matters.” DOJ Resp., Ex. 2, Letter from William P. Barr, Attorney

13

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 14 of 75
89a
Gen., Dep’t of Justice, to Lindsey Graham, Chairman, S. Comm. on the Judiciary, et al. 1, 4
(Mar. 24, 2019), ECF No. 20-2.7
The next day, March 25, 2019, the chairpersons of six House committees (“House
Committee Chairpersons”)—including HJC Chairman Jerrold Nadler—responded to AG Barr in
a three-page letter. See HJC App., Ex. C, Letter from Jerrold Nadler, Chairman, H. Comm. on
the Judiciary, et al., to William P. Barr, Attorney Gen., Dep’t of Justice (Mar. 25, 2019), ECF
No. 1-4. Highlighting that each of their committees was “engaged in oversight activities that go
directly to the President’s conduct, his attempts to interfere with federal and congressional
investigations, his relationships and communications with the Russian government and other
foreign powers, and/or other alleged instances of misconduct,” the House Committee
Chairpersons “formally request[ed]” that AG Barr “release the Special Counsel’s full report to
Congress” and “begin transmitting the underlying evidence and materials to the relevant
committees.” Id. at 1. This information, they explained, was necessary “to perform their duties
under the Constitution,” such as their duty to “make an independent assessment of the evidence
regarding obstruction of justice.” Id. at 1, 2.8

In his summary of the Mueller Report’s “principal conclusions,” AG Barr stated that “[t]he Special
Counsel’s investigation did not find that the Trump campaign or anyone associated with it conspired or coordinated
with Russia in its efforts to influence the 2016 U.S. presidential election,” Letter from William P. Barr to Lindsey
Graham, et al., supra, at 2 (Mar. 24, 2019), and that “[t]he Special Counsel . . . did not draw a conclusion—one way
or the other—as to” whether the “actions by the President . . . that the Special Counsel investigated” “constituted
obstruction,” id. at 3. AG Barr determined that “[t]he Special Counsel’s decision to describe the facts of his
obstruction investigation without reaching any legal conclusions” left it to him as the Attorney General “to
determine whether the conduct described in the report constitutes a crime,” and he “concluded that the evidence
developed during the Special Counsel’s investigation is not sufficient to establish that the President committed an
obstruction-of-justice offense.” Id.
8
On February 22, 2019—before the Mueller Report was submitted to AG Barr but when media reporting
suggested that the Special Counsel investigation was nearing its end—the House Committee Chairpersons had
submitted a similar request to AG Barr, noting that “because the Department has taken the position that a sitting
President is immune from indictment and prosecution, Congress could be the only institution currently situated to
act on evidence of the President’s misconduct.” HJC App., Ex. B, Letter from Jerrold Nadler, Chairman, H. Comm.
on the Judiciary, et al., to William P. Barr, Attorney Gen., Dep’t of Justice 2 (Feb. 22, 2019), ECF No. 1-3 (footnote
omitted).
7

14

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 15 of 75
90a
Four days later, on March 29, 2019, AG Barr responded to both the House Committee
Chairpersons’ letter and a letter sent by Senate Judiciary Committee (“SJC”) Chairman Lindsey
Graham. See DOJ Resp., Ex. 3, Letter from William P. Barr, Attorney Gen., Dep’t of Justice, to
Lindsey Graham, Chairman, S. Comm. on the Judiciary, and Jerrold Nadler, Chairman, H.
Comm. on the Judiciary (Mar. 29, 2019), ECF No. 20-3. AG Barr reaffirmed that he was
preparing the Report for release, again noting that redactions would be required to protect
material that was subject to grand jury secrecy under Rule 6(e) and that could compromise
sensitive sources and methods, as well as to protect information that could pose harm to other
ongoing matters or was related to the privacy and reputations of third parties. Id. at 1.
The House Committee Chairpersons objected to AG Barr’s proposed redactions. See
HJC App., Ex. D, Letter from Jerrold Nadler, Chairman, H. Comm. on the Judiciary, et al., to
William P. Barr, Attorney Gen, Dep’t of Justice (Apr. 1, 2019), ECF No. 1-5. They observed
that “[t]he allegations at the center of Special Counsel Mueller’s investigation strike at the core
of our democracy,” such that “Congress urgently needs his full, unredacted report and its
underlying evidence in order to fulfill its constitutional role.” Id. at 2; see also id. App’x at 1
(stating that Congress has an “independent duty to investigate misconduct by the President”). As
to grand jury material, the House Committee Chairpersons proposed that DOJ “seek leave from
the district court to produce those materials to Congress—as it has done in analogous situations
in the past,” id. at 2, explaining that the material was needed because “[HJC] is engaged in an
ongoing investigation of whether the President has undermined the rule of law, including by
compromising the integrity of the Justice Department,” id. App’x at 2.
On April 18, 2019, AG Barr released the Mueller Report in redacted form to the
Congress and the public. See DOJ Resp., Ex. 4, Letter from William P. Barr, Attorney Gen.,

15

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 16 of 75
91a
Dep’t of Justice, to Lindsey Graham, Chairman, S. Comm. on the Judiciary, et al. (Apr. 18,
2019), ECF No. 20-4. AG Barr also promised to “make available” to SJC Chairman Graham,
HJC Ranking Member Dianne Feinstein, HJC Chairman Nadler, and HJC Ranking Member
Collins “a version of the report with all redactions removed except those relating to grand-jury
information.” Id. at 4.
Not satisfied with the redacted version of the Mueller Report, the next day HJC served a
subpoena on AG Barr requiring the production of three classes of documents: (1) “[t]he complete
and unredacted version of the [Mueller Report],” including attachments; (2) “[a]ll documents
referenced in the Report”; and (3) “[a]ll documents obtained and investigative materials created
by the Special Counsel’s office.” HJC App., Ex. G, Subpoena by Authority of the H. of
Representatives to William P. Barr, Attorney Gen., Dep’t of Justice 3 (Apr. 19, 2019), ECF No.
1-8.
DOJ has granted HJC access to “the entirety of Volume II, with only grand jury
redactions” and did “the same with regard to Volume I” for “the Chairman and Ranking Member
from [HJC].” DOJ Resp. at 6 n.2. DOJ has not, however, allowed HJC to review the portions of
the Mueller Report redacted pursuant to Rule 6(e). See, e.g., HJC App., Ex. K, Letter from
Stephen E. Boyd, Assistant Attorney Gen., Dep’t of Justice, to Jerrold Nadler, Chairman, H.
Comm. on the Judiciary 4 (May 1, 2019), ECF No. 1-12 (stating that “Rule 6(e) contains no
exception that would permit the Department to provide grand-jury information to the Committee
in connection with its oversight role”).
C.

The Instant Proceeding

On July 26, 2019, HJC submitted the instant application for an order pursuant to Federal
Rule of Criminal Procedure 6(e) authorizing the release to HJC of certain grand jury materials

16

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 17 of 75
92a
related to the Special Counsel’s investigation. HJC App. HJC requests the release to it of three
categories of material:
1. all portions of [the Mueller Report] that were redacted pursuant to Federal

Rule of Criminal Procedure 6(e);

2. any underlying transcripts or exhibits referenced in the portions of the

Mueller Report that were redacted pursuant to Rule 6(e); and

3. transcripts of any underlying grand jury testimony and any grand jury

exhibits that relate directly to (A) President Trump’s knowledge of efforts
by Russia to interfere in the 2016 U.S. Presidential election; (B) President
Trump’s knowledge of any direct or indirect links or contacts between
individuals associated with his Presidential campaign and Russia,
including with respect to Russia’s election interference efforts; (C)
President Trump’s knowledge of any potential criminal acts by him or any
members of his administration, his campaign, his personal associates, or
anyone associated with his administration or campaign; or (D) actions
taken by former White House Counsel Donald F. McGahn II during the
campaign, the transition, or McGahn’s period of service as White House
Counsel.”

Id. at 1–2.
After entry of a scheduling order in accord with the dates proposed by the parties, see
Min. Ord. (July 31, 2019), DOJ filed its response to HJC’s application on September 13, 2019,
maintaining that Rule 6(e) prohibits disclosure of the requested material to HJC, see DOJ Resp.,
and HJC filed its reply on September 30, 2019, see HJC’s Reply in Support of its App. for an
Order Authorizing the Release of Certain Grand Jury Materials (“HJC Reply”), ECF No. 33.9
Following a hearing on October 8, 2019, the parties provided supplemental submissions to

On August 30, 2019, the Constitutional Accountability Center submitted an amicus brief in support of
HJC’s application, see Br. of Constitutional Accountability Ctr. as Amicus Curiae in Support of HJC, ECF No. 16-1,
and, on October 3, 2019, Representative Doug Collins, HJC’s Ranking Member, submitted an amicus brief urging
denial of HJC’s application, see Mem. Amicus Curiae of Ranking Member Doug Collins in Support of Denial
(“Collins Mem.”), ECF No. 35.
9

17

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 18 of 75
93a
address additional issues not covered by the initial briefing. See Min. Ord. (October 8, 2019).10
This matter is now ripe for resolution.
II.

LEGAL STANDARD
Under Rule 6(e) of the Federal Rules of Criminal Procedure, disclosure of “a matter

occurring before the grand jury” is generally prohibited. FED. R. CRIM. P. 6(e)(2)(B). While
witnesses are expressly exempted from any “obligation of secrecy,” id. 6(e)(2)(A), the Rule
provides a list of seven categories of persons privy to grand jury proceedings who must keep
secret “[i]nformation . . . presented to the grand jury,” In re Sealed Case No. 99-3091 (Office of
Indep. Counsel Contempt Proceeding), 192 F.3d 995, 1002 (D.C. Cir. 1999) (per curiam),
including grand jurors, interpreters, court reporters, operators of recording devices, persons who
transcribe recorded testimony, attorneys for the government, and certain other persons to whom
authorized disclosure is made, FED. R. CRIM. P. 6(e)(2)(B)(i)–(vii).11
Rule 6(e) also sets out exceptions to grand jury secrecy, some of which allow disclosure
without any judicial involvement and others of which require either judicial notice or a court
order. See FED. R. CRIM. P. 6(e)(3)(A)–(E).12 The D.C. Circuit recently held, in McKeever v.
As part of this supplemental briefing, DOJ was directed to provide its reasoning for redacting from public
view, as grand jury material, portions of a declaration submitted by DOJ in support of its position that HJC’s
application should be denied. See Min. Order (Oct. 8, 2019). This Court determined that the declaration had been
improperly redacted and ordered DOJ to correct its error. In re Application of the Committee on the Judiciary, 2019
WL 5268929. DOJ complied with that order on October 20, 2019. See DOJ Notice.
11
The definition of “a matter occurring before the grand jury” can also encompass information “that would
‘tend to reveal some secret aspect of the grand jury’s investigation, including” the “strategy” or future “direction of
the investigation,’” Bartko v. U.S. Dep’t of Justice, 898 F.3d 51, 73 (D.C. Cir. 2018) (quoting Hodge v. FBI, 703
F.3d 575, 580 (D.C. Cir. 2013)), but the D.C. Circuit has “cautioned . . . about ‘the problematic nature of applying
so broad a definition,’” see In re Sealed Case No. 99-3091, 192 F.3d at 1001 (quoting In re Sealed Case No. 983077, 151 F.3d 1059, 1071 n.12 (D.C. Cir. 1998) (per curiam)).
12
For instance, under Rules 6(e)(3)(A)(ii) and 6(e)(3)(D), the government may disclose grand jury material in
certain circumstances without a court order but must provide notice of disclosure to the court that impaneled the
grand jury. See FED. R. CRIM. P. 6(e)(3)(B), (D)(ii). In March 2016, this Court instituted a system for docketing
such notices received in this District, and since that time the government has submitted 783 notice letters. See In re
Grand Jury Disclosures, 16-gj-1 (D.D.C. 2016) (184 notices); In re Grand Jury Disclosures, 17-gj-1 (D.D.C. 2017)
(83 notices); In re Grand Jury Disclosures, 18-gj-1 (D.D.C. 2018) (244 notices); In re Grand Jury Disclosures, 19gj-1 (D.D.C. 2019) (272 notices). This number undercounts the actual number of disclosures, given that a single
notice often advises that grand jury information has been shared with multiple persons and entities. Among these
10

18

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 19 of 75
94a
Barr, 920 F.3d 842 (D.C. Cir. 2019), reh’g denied, Order, No. 17-5149 (D.C. Cir. July 22, 2019),
docketing petition for cert., No. 19-307 (U.S. Sept. 5, 2019), that the “text of the Rule” prevents
disclosure of a “‘matter appearing [sic] before the grand jury’” “‘unless these rules provide
otherwise.’” Id. at 848 (quoting incorrectly FED. R. CRIM. P. 6(e)(2)(B)).13 In the D.C. Circuit’s
binding view, “deviations from the detailed list of exceptions in Rule 6(e) are not permitted,” id.
at 846, and thus a “district court has no authority outside Rule 6(e) to disclose grand jury
matter,” id. at 850.14
III.

DISCUSSION
HJC is “not requesting the entire grand jury record” of the Special Counsel’s

investigation. HJC Reply at 24.15 Instead, HJC seeks only disclosure of the grand jury

notices were sixteen instances when grand jury information was revealed to foreign governments. DOJ has
represented that “[n]o grand jury information collected from the Mueller investigation and protected from disclosure
was shared with any foreign government pursuant to Rule 6(e)(3)(D).” DOJ’s Supplemental Submission in Resp. to
Min. Ord. of Oct. 8, 2019 (“DOJ Second Supp.”) at 2, ECF No. 40.
13
The D.C. Circuit’s narrow textual reading of Rule 6(e) is based on the subsection in the Rule that secrecy is
required “[u]nless these rules provide otherwise.” FED. R. CRIM. P. 6(e)(2)(B) (emphasis added). Yet, this
subsection is difficult to reconcile with other statutory authorities that either require or permit disclosure of grand
jury matter in civil forfeiture, financial regulatory, special–grand jury, and criminal defense contexts. See, e.g., 18
U.S.C. § 3322(a) (allowing disclosure of grand jury information to “an attorney for the government . . . for use in
connection with any civil forfeiture provision of federal law”); id. §§ 3322(a), (b)(1)(A) (authorizing disclosure of
grand jury information to “an attorney for the government for use in enforcing section 951 of the Financial
Institutions Reform, Recovery and Enforcement Act of 1989” and to federal and state financial institution regulatory
agencies “for use in relation to any matter within the jurisdiction of such regulatory agency” when the relevant grand
jury was investigating “a banking law violation”); id. §§ 3333(a), (b) (permitting special grand juries to provide
reports that the impaneling court may make public); id. §§ 3500(b), (e)(3) (requiring disclosure to criminal
defendant of certain grand jury testimony of trial witnesses).
14
The D.C. Circuit in McKeever rejected the view articulated by this Court and several Circuit Courts of
Appeals that courts have inherent authority to disclose grand jury material. See, e.g., In re Application to Unseal
Dockets Related to the Independent Counsel’s 1998 Investigation of President Clinton, 308 F. Supp. 3d 314, 324
(D.D.C. 2018) (Howell, C.J.), appeal docketed, No. 18-5142 (D.C. Cir. May 17, 2018); In re Petition of Kutler, 800
F. Supp. 2d 42, 47 (D.D.C. 2011) (Lamberth, C.J.); see also Carlson v. United States, 837 F.3d 753, 766–67 (7th
Cir. 2016); In re Craig, 131 F.3d 99, 103 (2d Cir. 1997); Pitch v. United States, 915 F.3d 704, 707 (11th Cir. 2019),
rehearing en banc ordered and opinion vacated, 925 F.3d 1224 (11th Cir. 2019). HJC acknowledges this,
conceding that “McKeever currently forecloses the Committee from prevailing before this Court on [an inherentauthority] argument,” but nonetheless raises inherent authority as a basis for disclosure to “preserve[] its argument”
“[i]n the event McKeever is subject to further review.” HJC App. at 40.
15
The entire grand jury record would be extensive since the Special Counsel’s investigation involved the
execution of “nearly 500 search-and-seizure warrants,” issuance of “more than 230 orders for communications
records under 18 U.S.C. § 2703(d),” “almost 50 orders authorizing use of pen registers,” “13 requests to foreign
governments pursuant to Mutual Legal Assistance Treaties,” and “more than 2,800 subpoenas under the auspices of

19

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 20 of 75
95a
information referenced in or underlying the Mueller Report as well as grand jury information
collected by the Special Counsel relating to four categories of information pursuant to Rule
6(e)’s exception for disclosure “preliminarily to or in connection with a judicial proceeding.”
HJC App. at 26 (internal quotation marks omitted) (quoting FED. R. CRIM. P. 6(e)(3)(E)(i)).
Disclosure of grand jury information is proper under this exception when three requirements are
satisfied. The person seeking disclosure must first identify a relevant “judicial proceeding”
within the meaning of Rule 6(e)(3)(E)(i); then, second, establish that the requested disclosure is
“preliminarily to” or “in connection with” that proceeding; and, finally, show a “particularized
need” for the requested grand jury materials. See United States v. Sells Eng’g, Inc., 463 U.S.
418, 443 (1983) (“Rule 6(e)(3)([E])(i) simply authorizes a court to order disclosure
‘preliminarily to or in connection with a judicial proceeding.’ . . . We have consistently
construed the Rule, however, to require a strong showing of particularized need for grand jury
materials before any disclosure will be permitted.”); United States v. Baggot, 463 U.S. 476, 480
(1983) (explaining that the “preliminarily to or in connection with a judicial proceeding” and the
“particularized need” requirements “are independent prerequisites to ([E])(i) disclosure” (internal
quotation marks omitted)).
As discussed more fully below, HJC has identified the requisite “judicial proceeding” to
be a possible Senate impeachment trial, which is an exercise of judicial power the Constitution
assigned to the Senate. See U.S. CONST. art. I, § 3, cl. 6. HJC has demonstrated that its current
investigation is “preliminarily to” a Senate impeachment trial, as measured—per binding
Supreme Court and D.C. Circuit precedent—by the “primary purpose” of HJC’s requested
disclosure to determine whether to recommend articles of impeachment against the President.
a grand jury sitting in the District of Columbia,” and interviews of “approximately 500 witnesses,” “almost 80” of
whom “testified before a grand jury.” Mueller Report at I-13.

20

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 21 of 75
96a
This purpose has only been confirmed by developments occurring since HJC initially submitted
its application. Finally, HJC has further shown a “particularized need” for the requested grand
jury materials that outweighs any interest in continued secrecy. See Douglas Oil Co. of Ca. v.
Petrol Stops Nw., 441 U.S. 211, 222–23 (1979). The need for continued secrecy is reduced,
given that the Special Counsel’s grand jury investigation has ended, and is easily outweighed by
HJC’s compelling need for the grand jury material referenced and cited in the Mueller Report to
conduct a fulsome inquiry, based on all relevant facts, into potentially impeachable conduct by
the President.
The three requirements for disclosure under Rule 6(e)(3)(E)(i) are addressed seriatim.
A.

Rule 6(e)’s “Judicial Proceeding” Requirement is Satisfied Because an
Impeachment Trial is Such a Proceeding

HJC posits that an impeachment trial before the Senate is a “judicial proceeding,” and
that Rule 6(e)’s “judicial proceeding” requirement is thus satisfied. HJC App. at 28.16 DOJ, for
its part, rejects the proposition that any congressional proceeding may qualify as a “judicial
proceeding.” DOJ Resp. at 13 (“The plain meaning of ‘judicial proceeding’ does not include
congressional proceedings.”) (capitalization altered). This dispute thus presents the threshold
issue of whether an impeachment trial in the Senate is a “judicial proceeding” under Rule 6(e).
Consideration of this issue requires an understanding of (1) what the drafters of Rule 6(e) meant

An impeachment inquiry in the House may itself constitute a judicial proceeding. See, e.g., Marshall v.
Gordon, 243 U.S. 521, 547 (1917) (characterizing instances when a “committee contemplat[es] impeachment” as
times that congressional power is “transformed into judicial authority”); Kilbourn v. Thompson, 103 U.S. (13 Otto)
168, 191 (1880) (explaining that the House “exercises the judicial power . . . of preferring articles of
impeachment”); Trump v. Mazars USA, LLP, No. 19-5142, 2019 WL 5089748, at *27 (D.C. Cir. Oct. 11, 2019)
(Rao, J., dissenting) (explaining that the House’s “power to investigate pursuant to impeachment . . . has always
been understood as a limited judicial power”). HJC’s primary contention, however, is not that a House
impeachment inquiry is a judicial proceeding, but that HJC’s current inquiry satisfies Rule 6(e) because that inquiry
is “‘preliminar[y] to’ an impeachment trial.” HJC App. at 29 (alteration in original). As explained infra in Part
III.B., HJC’s “preliminarily to” argument succeeds, and, consequently, whether a House impeachment inquiry
constitutes a “judicial proceeding” within the meaning of Rule 6(e) need not be addressed.
16

21

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 22 of 75
97a
by “judicial proceeding,” and (2) the precise nature of an impeachment trial. Both considerations
are informed by history and, contrary to DOJ’s position, point to the same conclusion: an
impeachment trial is, in fact, a “judicial proceeding” under Rule 6(e), as binding D.C. Circuit
precedent correctly dictates.
1.

The Term “Judicial Proceeding” in Rule 6(e) Has a Broad Meaning

In the Rule 6(e) context, “[t]he term judicial proceeding has been given a broad
interpretation by the courts.” In re Sealed Motion, 880 F.2d 1367, 1379 (D.C. Cir. 1989) (per
curiam). The D.C. Circuit has indicated that “judicial proceeding” might “include[] every
proceeding of a judicial nature before a competent court or before a tribunal or officer clothed
with judicial or quasi judicial powers.” Id. at 1380 (quoting Jones v. City of Greensboro, 277
S.E.2d 562, 571 (N.C. 1981), overruled in part on other grounds by Fowler v. Valencourt, 435
S.E.2d 530 (N.C. 1993)); see also In re North, 16 F.3d 1234, 1244 (D.C. Cir. 1994) (quoting In
re Sealed Motion, 880 F.2d at 1380)); Haldeman v. Sirica, 501 F.2d 714, 717 (D.C. Cir. 1974)
(en banc) (MacKinnon, J, concurring in part and dissenting in part) (describing Rule 6(e) judicial
proceeding as one “in which due process of law will be available”); In re Grand Jury
Investigation of Uranium Indus. (In re Uranium Grand Jury), No. 78-mc-0173, 1979 WL 1661,
at *6 (D.D.C. Aug. 21, 1979) (Bryant, C.J.) (noting that the “judicial proceeding” exception
authorizes disclosure of grand jury materials to a “wide variety of official bodies”).17

DOJ relies on the definition first articulated by Judge Learned Hand in Doe v. Rosenberry, 255 F.2d 118
(2d Cir. 1958). See DOJ Resp. at 14–15. That definition provides: “[T]he term ‘judicial proceeding’ includes any
proceeding determinable by a court, having for its object the compliance of any person, subject to judicial control,
with standards imposed upon his conduct in the public interest, even though such compliance is enforced without the
procedure applicable to the punishment of crime.” Doe, 255 F.2d at 120. DOJ’s reliance on this definition is
puzzling since courts—including the D.C. Circuit—have consistently recognized that Judge Hand gave “judicial
proceeding” “a broad interpretation,” In re Sealed Motion, 880 F.2d at 1379, and judges of this Court have already
twice recognized that Judge Hand’s definition encompasses an impeachment trial, see In re Report &
Recommendation of June 5, 1972 Grand Jury, 370 F. Supp. 1219, 1228–30 (D.D.C. 1974) (citing Doe); In re
Uranium Grand Jury, 1979 WL 1661, at *5–7 (citing Doe) (explaining that a Senate impeachment trial “presided
over by the Chief Justice of the United States” is “very much a judicial proceeding,” id. at *7).
17

22

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 23 of 75
98a
In keeping with the term’s “broad meaning,” disclosure of grand jury materials has been
judicially authorized under the “judicial proceeding” exception in an array of judicial and quasijudicial contexts. Courts, for instance, have determined that attorney disciplinary proceedings
are “judicial proceedings” because such a proceeding is “designed in the public interest to
preserve the good name and uprightness of the bar, made up, as it is, of attorneys who are public
officers.” Doe v. Rosenberry, 255 F.2d 118, 120 (2d Cir. 1958); see also, e.g., In re J. Ray
McDermott & Co., 622 F.2d 166, 170 (5th Cir. 1980). Similarly, courts have permitted
disclosure in connection with internal police disciplinary proceedings under the “judicial
proceeding” exception. See, e.g., In re Bullock, 103 F. Supp. 639, 641, 643 (D.D.C. 1952). The
D.C. Circuit’s decisions are in accord. The Circuit has held that the following proceedings are
eligible for disclosure under Rule 6(e): (1) “disciplinary proceedings of lawyers” conducted by
“bar committees,” United States v. Bates, 627 F.2d 349, 351 (D.C. Cir. 1980) (per curiam), (2)
grand jury investigations themselves, In re Grand Jury, 490 F.3d 978, 986 (D.C. Cir. 2007) (per
curiam), and (3) proceedings pursuant to the now-expired Independent Counsel Act, 28 U.S.C. §
591 et seq. (1987), to determine what portions of an independent counsel report are appropriate
for release, see, e.g., In re Sealed Motion, 880 F.2d at 1380. Additionally, the D.C. Circuit has
even indicated that parole hearings might qualify. See In re Sealed Motion, 880 F.2d at 1380
n.16 (citing United States v. Shillitani, 345 F.2d 290, 293 (2d Cir. 1965), vacated on other
grounds, 384 U.S. 364 (1966)).
As these examples illustrate, the term “judicial proceeding” in Rule 6(e) does not refer
exclusively to proceedings overseen by courts exercising the “judicial Power of the United
States” referred to in Article III of the Constitution. U.S. CONST. art. III, § 1. Plainly,
proceedings in state courts are “judicial proceedings” eligible for disclosure of grand jury

23

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 24 of 75
99a
information. See, e.g., United States v. Colonial Chevrolet Corp., 629 F.2d 943, 947 & n.9 (4th
Cir. 1980) (noting that the court “may authorize disclosure under the circumstances detailed in
Rule 6(e)(3); in fact it has done so in many cases in support of proceedings in both federal and
state judicial, and even in state administrative, proceedings”) (citing Doe, 255 F.2d 118; In re
Disclosure of Testimony, Etc., 580 F.2d 281 (8th Cir. 1978) (authorizing disclosure of federal
grand jury material to municipality investigating judicial misconduct); In re 1979 Grand Jury
Proceedings, 479 F. Supp. 93 (E.D.N.Y. 1979) (authorizing disclosure of federal grand jury
material regarding obstruction by municipal employees to municipality)); In re Petition for
Disclosure of Evidence Before Oct., 1959 Grand Jury, 184 F. Supp. 38, 41 (E.D. Va. 1960)
(citing Doe, 255 F.2d 118) (“We cannot agree with the United States that this phrase refers only
to a Federal proceeding.”).
Moreover, at the federal level, “the judicial power of the United States is not limited to
the judicial power defined under Article III.” Freytag v. Comm’r of Internal Revenue, 501 U.S.
868, 889 (1991) (citing Am. Ins. Co. v. Canter, 26 U.S. (1 Pet.) 511, 546 (1828)). The United
States Tax Court, for example, “is not a part of the Article III Judicial Branch,” and “its judges
do not exercise the ‘judicial Power of the United States’ under Article III,” Kuretski v. Comm’r
of Internal Revenue, 755 F.3d 929, 940 (D.C. Cir. 2014). Nevertheless, the Tax Court “exercises
a portion of the judicial power of the United States,” Freytag, 501 U.S. at 891, and that judicial
power has, in turn, been deemed sufficient to make Tax Court proceedings “judicial
proceedings” under Rule 6(e), see In re Grand Jury Subpoenas Duces Tecum, 904 F.2d 466, 468
(8th Cir. 1990) (“[T]he tax court redetermination hearing satisfies the judicial proceeding
requirement.”); Patton v. Comm’r of Internal Revenue, 799 F.2d 166, 172 (5th Cir. 1986)
(“Clearly a tax court petition for redetermination is a ‘judicial proceeding’ within the meaning of

24

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 25 of 75
100a
Rule 6(e)(3)([E])(i).”); United States v. Anderson, No. 05-cr-0066, 2008 WL 1744705, at *2
(D.D.C. Apr. 16, 2008) (ordering that grand jury materials be shared pursuant to Rule
6(e)(e)(E)(i) in connection with a “law suit . . . pending before the United States Tax Court”); see
also, e.g., In re Grand Jury Proceedings, 62 F.3d 1175, 1180 (9th Cir. 1995) (indicating that
disclosure in connection with tax court litigation would be permissible under Rule 6(e) “upon an
adequate showing” of need).18 Accordingly, while judicial power of some kind may be
necessary to make a proceeding “judicial” under Rule 6(e), the exercise of Article III judicial
power is not required.
Notwithstanding the weight of these precedents, DOJ maintains that an impeachment trial
cannot be a “judicial proceeding” under Rule 6(e) because the plain and ordinary meaning of the
term refers to “legal proceedings governed by law that take place in a judicial forum before a
judge or a magistrate.” DOJ Resp. at 2; see also id. at 13 (“By its plain terms, the phrase
‘judicial proceeding’ means a matter that transpires in court before a neutral judge according to
generalized legal rules.”).19 This plain-meaning argument ignores the broad interpretation given
to the term “judicial proceeding” as used in Rule 6(e), see, e.g., In re Sealed Motion, 880 F.2d at

Even the Supreme Court, in Baggot, recognized that Tax Court proceedings are “judicial proceedings”
under Rule 6(e). Although purporting not to address “the knotty question of what, if any, sorts of proceedings other
than garden-variety civil actions or criminal prosecutions might qualify as judicial proceedings under ([E])(i),” 463
U.S. at 479 n.2, the Court advised that the Seventh Circuit “correctly held” that “the IRS may seek ([E])(i)
disclosure” when a “taxpayer ha[s] clearly expressed its intention to seek redetermination of [a claimed tax]
deficiency in the Tax Court” and “the Government’s primary purpose is . . . to defend the Tax Court litigation,” id.
at 483.
19
DOJ also cites to the use of “judicial proceeding” in two other subsections of Rule 6(e)—(e)(3)(F) and
(e)(3)(G)—as generally referring to court proceedings, DOJ Resp. at 17, but this argument relies on one of the least
probative statutory-interpretation presumptions. Although “[o]ne ordinarily assumes ‘that identical words used in
different parts of the same act are intended to have the same meaning,’” “the presumption of consistent usage
‘readily yields’ to context, and a statutory term . . . ‘may take on distinct characters from association with distinct
statutory objects calling for different implementation strategies.’” Util. Air Regulatory Grp. v. EPA, 573 U.S. 302,
319–20 (2014) (internal quotation marks omitted) (quoting Envtl. Def. v. Duke Energy Corp., 549 U.S. 561, 574
(2007)). Moreover, as HJC explains, subsection (e)(3)(F) may in fact cover a Senate impeachment trial, and as to
subsection (e)(3)(G), significant textual differences distinguish this subsection from (e)(3)(E)(i). See HJC Reply at
12–13. In any event, historical practice and binding precedent guide the proper construction of Rule 6(e)(3)(E)(i),
no matter the use of the term “judicial proceeding” in other parts of the criminal procedure rules.
18

25

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 26 of 75
101a
1379, and fails to grapple with the judicial nature of an impeachment trial, see infra Part III.A.2.
In any event, applying DOJ’s plain-meaning construction and imposing a requirement that a
“judge” preside to qualify as a “judicial proceeding” would not remove an impeachment trial
from Rule 6(e)’s ambit since the Chief Justice of the Supreme Court presides over any Senate
impeachment trial of the President. U.S. CONST. art. I, § 3, cl. 6.20 DOJ dismisses the Chief
Justice’s role in impeachment trials as “purely administrative, akin to a Parliamentarian,” whose
decisions can be overridden by a vote of the Senate. DOJ Resp. at 16. Even if true up to a point,
the fact remains that the Senate may grant the Chief Justice as significant a role as it sees fit.
In sum, “judicial proceeding,” as used in Rule 6(e), is a term with a broad meaning that
includes far more than just the prototypical judicial proceeding before an Article III judge.
2.

An Impeachment Trial is Judicial in Nature

DOJ flatly states that no congressional proceeding can constitute a Rule 6(e) “judicial
proceeding” because “[t]he Constitution carefully separates congressional impeachment
proceedings from criminal judicial proceedings.” DOJ Resp. at 15. This stance, in service of the
obvious goal of blocking Congress from accessing grand jury material for any purpose,
overlooks that an impeachment trial is an exercise of judicial power provided outside Article III
and delegated to Congress in Article I.21 Contrary to DOJ’s position—and as historical practice,
the Federalist Papers, the text of the Constitution, and Supreme Court precedent all make clear—
impeachment trials are judicial in nature and constitute judicial proceedings.

DOJ observes that impeachment trials of officials other than the President are presided over by “the Vice
President or whichever Senator is presiding at that time,” rather than by the Chief Justice. DOJ Resp. at 16. This
constitutional quirk is irrelevant here since the instant petition concerns the possible impeachment of the President.
21
Although Representative Collins, like DOJ, supports denial of HJC’s application, he “agrees with [HJC]
that an impeachment inquiry . . . fall[s] under Federal Rule of Criminal Procedure 6(e)’s judicial proceeding
exception because” an impeachment inquiry is “preliminary to a trial in the U.S. Senate.” Collins Mem. at 1.
20

26

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 27 of 75
102a
“The institution of impeachment is essentially a growth deep rooted in the ashes of the
past.” Wrisley Brown, The Impeachment of the Federal Judiciary, 26 HARV. L. REV. 684, 685
(1913). It was “born of the parliamentary usage of England,” id., where “the barons reserved to
Parliament the right of finally reviewing the judgments’ [sic] of all the other courts of
judicature.” Id. “[T]he assembled parliament . . . represent[ed] in that respect the judicial
authority of the king,” and “[w]hile this body enacted laws, it also rendered judgments in matters
of private right.” Kilbourn v. Thompson, 103 U.S. (13 Otto) 168, 183 (1880); see also Brown,
supra, at 685. (explaining that “the Parliament [was] the high court of the realm in fact as well
as in name”). “Upon the separation of the Lords and Commons into two separate bodies . . .
called the House of Lords and the House of Commons, the judicial function of reviewing by
appeal the decisions of the courts of Westminster Hall passed to the House of Lords.” Kilbourn,
103 U.S. (13 Otto) at 183–84. “To the Commons,” however, “was left the power of
impeachment, and, perhaps, others of a judicial character.” Id. at 184. “And during the
memorable epoch preluding the dawn of American independence,” the English practice of
impeachment, “though seldom put into application, was still in the flower of its usefulness.”
Brown, supra, at 687.
During the drafting of the Constitution, this English history informed how the Framers
approached impeachment, and examination of pertinent Federalist Papers confirms that they
viewed the impeachment power as judicial. See THE FEDERALIST NO. 65, at 397 (Alexander
Hamilton) (Clinton Rossiter ed., 1961) (explaining that impeachment in the United States was
“borrowed” from the “model” “[i]n Great Britain”). Alexander Hamilton’s writings in Federalist
Nos. 65 and 66 are illustrative. The preceding Federalist Nos. 62, 63, and 64 had discussed most
of the powers that the new Constitution granted to the Senate. See THE FEDERALIST NOS. 62–63

27

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 28 of 75
103a
(probably James Madison), NO. 64 (John Jay). The only “remaining powers” to be discussed
were those “comprised in [the Senate’s] participation with the executive in the appointment to
offices, and in [the Senate’s] judicial character,” and Hamilton accordingly used Federalist Nos.
65 and 66 to “conclude” the discussion of the Senate “with a view of the judicial character of the
Senate” “as a court for the trial of impeachments.” THE FEDERALIST NO. 65, supra, at 396
(Alexander Hamilton).
As Hamilton’s thinking on the subject of impeachment demonstrates, his choice of the
words “judicial” and “court for the trial of impeachments” was purposeful. See Nixon v. United
States, 938 F.2d 239, 260 (D.C. Cir. 1991) (Randolph, J., concurring) (“The inference that the
framers intended impeachment trials to be roughly akin to criminal trials is reinforced by
seemingly unrefuted statements made by Alexander Hamilton during the ratification debates.”),
aff’d, 506 U.S. 224 (1993).22 For instance, Hamilton described the appointment of officers—
which is an executive function—and impeachment, as powers given to the Senate “in a distinct
capacity” from all of the Senate’s other powers. THE FEDERALIST NO. 65, supra, at 396. By
citing those two powers in particular and separating them from all others bestowed on the Senate,
he thus conveyed that those powers were, unlike those that came before, not legislative.
Additionally, when Hamilton considered potential alternative “tribunal[s],” id. at 398, that might
be granted the power of trying impeachments, he considered the primary alternatives to be

Indeed, Hamilton’s discussion of the Senate’s impeachment power in Federalist Nos. 65 and 66, uses such
judicial terms repeatedly and consistently. Hamilton referred to the “court,” the “court of impeachments,” and the
“court for the trial of impeachments” a total of seventeen times. THE FEDERALIST NOS. 65–66, supra, at 396–407
(Alexander Hamilton). Moreover, when referring to impeachment, Hamilton also used the following additional
terms associated with the judicial nature of the proceeding: “jurisdiction” once; “offense(s)” or “offender” five
times; “prosecution” or “prosecutors” three times; “accused,” “accusers,” “accusation,” or “accusing” nine times;
“case(s)” five times; “decision,” “decide,” or “deciding” eight times; “innocence” or “innocent” three times; “guilt”
or “guilty” five times; “inquest,” “inquisitors,” or “inquiry” four times; “tribunal” twice; “judges” or “judging” ten
times; “sentence” or “sentenced,” including “sentence of the law,” five times; “party” once; “punishment” or
“punish” seven times; “conviction” once; “trial” or “try” four times, not counting instances of “courts for the trial of
impeachments”; “verdict(s)” twice; “liable” once; and “charges” once. Id.

22

28

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 29 of 75
104a
assignment of the power directly to the Supreme Court alone, id., or assignment to the “Supreme
Court with the Senate,” id. at 399, underscoring the judicial nature of the impeachment-trial
power.
Most importantly, when Hamilton addressed the objection that making the Senate the
“court of impeachments” “confound[ed] legislative and judiciary authorities in the same body,”
he accepted the premise that granting the Senate the power to try impeachments produced an
“intermixture” of “legislative and judiciary authorities.” THE FEDERALIST NO. 66, supra, at 401;
see also THE FEDERALIST NO. 81, supra, at 482 (Alexander Hamilton) (noting that there are
“men who object to the Senate as a court of impeachments, on the ground of an improper
intermixture of powers”). Such “partial intermixture,” he argued, is “not only proper but
necessary to the mutual defense of the several members of the government against each other.”
THE FEDERALIST NO. 66, supra, at 401–02. He pointed out that many states at the time combined
legislative and judicial functions: the New York constitution made the New York Senate,
“together with the chancellor and judges of the Supreme Court, not only a court of
impeachments, but the highest judicatory in the State, in all causes, civil and criminal,” id. at
402; in New Jersey, “the final judiciary authority [was] in a branch of the legislature,” id. at
402 n.*; and “[i]n New Hampshire, Massachusetts, Pennsylvania, and South Carolina, one
branch of the legislature [was] the court for the trial of impeachments,” id. These Federalist
Papers leave no doubt that the power to try impeachments was, in Hamilton’s view, inherently
judicial. See Nixon, 938 F.2d at 261 (Randolph, J., concurring) (“From all of [Hamilton’s]
statements, it can be reasonably inferred that the framers intended that the Senate would
approach its duty of trying impeachments with the solemnity and impartiality befitting judicial
action . . . .”).

29

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 30 of 75
105a
Hamilton was not the only Founder who conceived of the impeachment power as
inherently judicial. Notably, James Madison shared Hamilton’s view. In Federalist No. 38,
Madison, like Hamilton, noted that a principle objection to the Constitution was “the trial of
impeachments by the Senate, . . . when this power so evidently belonged to the judiciary
department.” THE FEDERALIST NO. 38, supra, at 236 (James Madison). Then, in Federalist No.
47, Madison defended this mixing of powers. In the British system, Madison pointed out, “the
legislative, executive, and judiciary departments are by no means totally separate and distinct
from each other” because, inter alia, “[o]ne branch of the legislative department . . . is the sole
depositary of judicial power in cases of impeachment.” THE FEDERALIST NO. 47, supra, at 302
(James Madison) (spelling irregularity in original). Such mixing, he pointed out, occurred in the
states as well, such as in New Hampshire, where “[t]he Senate, which is a branch of the
legislative department, is also a judicial tribunal for the trial of impeachments,” and in
Massachusetts, where “the Senate, which is a part of the legislature, is a court of impeachment,”
notwithstanding a declaration in the state’s constitution “‘that the legislative department shall
never exercise the . . . judicial powers.’” Id. at 304–05 (citing also to the “court for the trial of
impeachments” in New York “consist[ing] of one branch of the legislature and the principal
members of the judiciary department,” id. at 305, and to the “court of impeachments” in
Delaware, “form[ed]” by “one branch of the [legislative department],” id. at 306)).
Hamilton and Madison’s view is confirmed by the text of the Constitution. By making
the Senate the “court of impeachments,” id. at 306; THE FEDERALIST NO. 65, supra, at 398
(Alexander Hamilton), the Framers tasked the Senate with a judicial assignment. Article I uses
judicial terms to refer to impeachment trials in three separate instances in the sixth clause of its
third section, stating that the Senate is granted “the sole Power to try all Impeachments”; “[w]hen

30

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 31 of 75
106a
the President of the United States is tried, the Chief Justice shall preside”; “[a]nd no person shall
be convicted without the Concurrence of two thirds of the Members present.” U.S. CONST. art. I,
§ 3, cl. 6 (emphases added). The next clause continues the theme: “Judgment in Cases of
Impeachment shall not extend further than to removal from Office, and disqualification to hold
and enjoy any Office . . . : but the Party convicted shall nevertheless be liable and subject to
[criminal prosecution].” Id. cl. 7 (emphases added). Article II, meanwhile, prevents the
President’s power to pardon from extending to “Cases of Impeachment,” id. art. II, § 2, cl. 1
(emphasis added), and allows for removal of the President “on Impeachment for, and Conviction
of, Treason, Bribery, or other high Crimes and Misdemeanors.” Id. § 4 (emphases added).
Finally, even Article III—despite being the article devoted to the “judicial” branch—reveals that
when it comes to impeachment, the Senate takes on a judicial character, for Article III requires
that “[t]he Trial of all Crimes, except in Cases of Impeachment, shall be by Jury.” Id. art. III, §
2, cl. 3 (emphases added).
These words employed in the Constitution to describe the Senate’s role—“trial,”
“convict,” “judgment,” “case,” “crime,” and “misdemeanor”—are inherently judicial. Any
layperson asked whether a constitutionally prescribed “trial” of a “case” in order to reach a
“judgment” as to whether a person should be “convicted” of a “crime” or “misdemeanor,” is
judicial in character, would invariably answer yes—and rightly so. Cf. Mazars, 2019 WL
5089748, at *32 (Rao, J., dissenting) (“Article I makes clear that in this [impeachment] role, the
Senate acts as a court trying impeachable offenses and renders judgment . . . .”); id. at *50
(“Senate trials of impeachment are an exercise of judicial power . . . .”).
Black’s Law Dictionary confirms this intuition. “Trial” means “[a] formal judicial
examination of evidence and determination of legal claims in an adversary proceeding.” Trial,

31

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 32 of 75
107a
BLACK’S LAW DICTIONARY (11th ed. 2019) [hereinafter BLACK’S]. “Convict” means “[t]o prove
or officially announce (a criminal defendant) to be guilty of a crime after proceedings in a law
court; specif., to find (a person) guilty of a criminal offense upon a criminal trial, a plea of guilty,
or a plea of nolo contendere (no contest).” Convict, BLACK’S. “Judgment” can mean either
“mental faculty” or “[a] court’s final determination of the rights and obligations of the parties in
a case” (or, in English law, “[a]n opinion delivered by a member of the appellate committee of
the House of Lords; a Law Lord’s judicial opinion”), Judgment, BLACK’S—and in the context of
other words like “trial” and “convict,” the noscitur a sociis canon counsels against adopting the
first definition, see Yates v. United States, 135 S. Ct. 1074, 1085 (2015) (plurality) (explaining
that noscitur a sociis means that “a word is known by the company it keeps”). “Case” means, as
relevant here, “[a] civil or criminal proceeding, action, suit, or controversy at law or in equity” or
“[a]n instance, occurrence, or situation”—again, noscitur a sociis pushes strongly in favor of
relying on the first definition here. Finally, “crime” means “[a]n act that the law makes
punishable; the breach of a legal duty treated as the subject-matter of a criminal proceeding,”
Crime, BLACK’S, and “misdemeanor” means “[a] crime that is less serious than a felony and is
usu. punishable by fine, penalty, forfeiture, or confinement (usu. for a brief term) in a place other
than prison (such as a county jail).” Misdemeanor, BLACK’S.23 As these dictionary definitions
demonstrate, at every turn the Constitution uses words that mark the judicial nature of the
Senate’s power to try impeachments.
Not surprisingly, therefore, the Supreme Court has confirmed, on at least three separate
occasions, that the Senate’s power to try impeachments is judicial. First, in Hayburn’s Case, 2

The variation “high crime” similarly means “[a] crime that is very serious, though not necessarily a
felony,” Crime, BLACK’S, and “high misdemeanor” historically meant in English law “[a] crime that ranked just
below treason in seriousness,” Misdemeanor, BLACK’S.

23

32

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 33 of 75
108a
U.S. (2 Dall.) 408 (1792), the Court quoted a letter from “[t]he circuit court for the district of
North Carolina (consisting of Iredell, Justice, and Sitgreaves, District Judge)” observing that “no
judicial power of any kind appears to be vested [in the legislature], but the important one relative
to impeachments.” Id. at 410 n.* (capitalization altered). Second, in Kilbourn, the Court
explained that “[t]he Senate . . . exercises the judicial power of trying impeachments.” 103 U.S.
(13 Otto) at 191. Third, in Marshall v. Gordon, 243 U.S. 521 (1917), the Court noted that
congressional contempt power can be “transformed into judicial authority” when a “committee
contemplat[es] impeachment.” Id. at 547.
As the foregoing demonstrates, impeachment trials are judicial in nature, notwithstanding
the Founders’ decision to make the Senate the “court of impeachments.” As Chief Justice
Rehnquist stated, in considering a Senator’s objection to House Managers’ “referring to the
Senate sitting as triers in a trial of the impeachment of the President of the United States,” 145
Cong. Rec. S279 (statement of Sen. Harkin), “the objection . . . is well taken, that the Senate is
not simply a jury; it is a court in this case,” id. (statement of Chief Justice Rehnquist).
“Therefore,” Chief Justice Rehnquist continued, “counsel should refrain from referring to the
Senators as jurors.” Id. The views of the Senators participating in the last impeachment trial of a
sitting President confirm their understanding of their judicial role. See id. at S1584 (statement of
Sen. Leahy) (noting that when “Senate is the court,” “Senators are not merely serving as petit
jurors” but “have a greater role and a greater responsibility in this trial”); id. at S1599 (statement
of Sen. Stevens) (noting that “an impeachment trial is no ordinary proceeding” and that Senators
“sit as judge and jury—rulers on law and triers of fact”); id. at S1602 (statement of Sen.
Lieberman) (noting that impeachment “is unique in that it is a hybrid of the legislative and the
judicial, the political and the legal” (quoting Senate Rules and Precedents Applicable to

33

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 34 of 75
109a
Impeachment Trials: Executive Session Hearing Before the S. Comm. on Rules and
Administration, 93rd Cong. 193 (1974) (statement of Sen. Mansfield)); id. at S1618 (statement of
Sen. Crapo) (“As each Senator took the oath to provide impartial justice, . . . [n]o longer was the
Senate a legislative body, it was a court of impeachment. A unique court, to be sure, not
identical to traditional civil and criminal courts, but a court nonetheless.”).
This further supports the conclusion that an impeachment trial constitutes “a judicial
proceeding” under Rule 6(e)(3)(E)(i).24
3.

Historical Practice Before Enactment of Rule 6(e) Informs Interpretation of
that Rule

Historical practice confirms that, contrary to DOJ’s position, Rule 6(e) does not bar
disclosure of grand jury information to Congress. Indeed, grand jury investigations have
prompted and informed congressional investigations, and Rule 6(e) was meant to codify this
practice.
Several examples illustrate that Congress was afforded access to grand jury material prior
to the enactment of Rule 6(e) in 1946. In 1902, a House committee investigated allegations of
election fraud in St. Louis, Missouri, based on “a report of a grand jury which sat in St. Louis”

This analysis disposes of DOJ’s argument that an impeachment trial is not judicial in nature because
impeachment proceedings “are political.” DOJ Resp. at 16. While the House “has substantial discretion to define
and pursue charges of impeachment,” Mazars, 2019 WL 5089748, at *28 (Rao, J., dissenting), the Constitution
nevertheless “limits the scope of impeachable offenses,” id. at *50 (citing U.S. CONST. art. II, § 4); see id. at *32
(“[I]mpeachment addresses a public official’s wrongdoing—treason, bribery, and high crimes or misdemeanors—
while problems of general maladministration are left to the political process.”); see also 3 Lewis Deschler,
Deschler’s Precedents of the House of Representatives Ch. 14 App’x [hereinafter Deschler] (“The impeachment of
President Andrew Johnson . . . rested on allegations that he had exceeded the power of his office and had failed to
respect the prerogatives of Congress.”). Thus Hamilton, for instance, viewed an impeachment trial’s character as
judicial even while he viewed impeachment offenses as “of a nature which may with peculiar propriety be
denominated POLITICAL.” THE FEDERALIST NO. 65 (emphasis in original). Further, while Members of the U.S.
Senate are politically accountable, this accountability merely ensures that Senators properly exercise their judicial
power to try impeachments. See MICHAEL J. GERHARDT, THE FEDERAL IMPEACHMENT PROCESS: A
CONSTITUTIONAL AND HISTORICAL ANALYSIS 110 (1996) (“[M]embers of Congress seeking reelection have a
political incentive to avoid any abuse of the impeachment power. . . . [T]he cumbersome nature of the impeachment
process makes it difficult for a faction guided by base personal or partisan motives to impeach and remove someone
from office.”).
24

34

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 35 of 75
110a
that a city police board in the district apparently had assisted with the election fraud. 2 Asher C.
Hinds, Hinds’ Precedents of the House of Representatives Ch. 40 § 1123 [hereinafter Hinds].25
Twenty years later, in 1924, the Senate launched an investigation of a Senator who had been
indicted by a grand jury. 6 Cannon Ch. 188 § 399. Seeking to ensure that the congressional
investigation had access to all information relevant to the allegations, the chairman of the
investigating committee “sen[t] a telegram to the presiding judge . . . asking for the minutes of
the grand jury proceedings, the names of the witnesses, and the documentary evidence which had
gone before the grand jury,” and subsequently received what he requested. Id. (indicating that
“reply to the telegram” helped the committee compile its list of witnesses, and that “[n]o
evidence [was] left out of the [Senate committee] hearings”).
Again, in 1924, in response to a grand jury report from the Northern District of Illinois
implicating two unnamed Members of the House in a matter involving the payment of money,
the House directed the Attorney General to submit to it “the names of the two [Members] and the
nature of the charges made against them.” Id. § 402. The Attorney General objected to the
request, but only insofar as the request would lead to “two tribunals attempting to act upon the
same facts and to hear the same witnesses at the same time,” which would “result in confusion
and embarrassment and . . . defeat the ends of justice.” Id. Accordingly, the Attorney General

Even earlier, in 1811, the House received a “copy of a presentment against [territorial judge] Harry
Toulmin, . . . made by the grand jury of Baldwin County, specifying charges against the said judge, which” “set in
motion” a House “inquiry” “looking to the impeachment” of Judge Toulmin. 3 Hinds Ch. 79 § 2488. Also, in 1921
a Senate committee confronted another allegation of election fraud, and because the committee’s investigation postdated a grand jury inquiry, the Senate committee had access to “everything before the grand jury which was deemed
at all relevant,” because the material had been introduced at trial to HJC. 6 Clarence Cannon, Cannon’s Precedents
of the House of Representatives Ch. 159 § 74 [hereinafter Cannon]. In these instances, the grand jury information
was presumably no longer secret, but Chief Judge Sirica nevertheless deemed the 1811 Judge Toulmin “precedent”
to be “persuasive” when he ordered disclosure of the Watergate grand jury report. See In re Report &
Recommendation of June 6, 1972 Grand Jury (In re 1972 Grand Jury Report), 370 F. Supp. 1219, 1230 (D.D.C.
1974) (Sirica, C.J.) (“If indeed [Rule 6(e)] merely codifies existing practice, there is convincing precedent to
demonstrate that common-law practice permits the disclosure here contemplated.”).
25

35

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 36 of 75
111a
assured the House that if, “acting within its constitutional power (under Article I) to punish its
Members for disorderly behavior or to expel such Member, [the House] request[ed] that all the
evidence now in the possession of anyone connected with the Department of Justice . . . be
turned over to [it],” he would “direct all such evidence, statements, and information obtainable to
be immediately turned over to [the House] or to such committee as may be designated by the
House.” Id.
In 1946, Rule 6(e) was enacted to codify current practice and not “to create new law.” In
re 1972 Grand Jury Report, 370 F. Supp. at 1229. As the Advisory Committee Notes explain,
Rule 6(e) “continues the traditional practice of secrecy on the part of members of the grand jury,
except when the court permits a disclosure.” FED. R. CRIM. P. 6(e) advisory committee’s note 1
(1944 adoption) (emphasis added); see also, e.g., Sells Eng’g, Inc., 463 U.S. at 425 (noting that
Rule 6(e) “codifie[d] the traditional rule of grand jury secrecy”); Haldeman, 501 F.2d at 716
(MacKinnon, J, concurring in part and dissenting in part) (observing that Rule 6(e) “is a
codification of long-standing decisions that hold to the ‘indispensable secrecy of grand jury
proceedings . . . except where there is a compelling necessity’”) (omission in original) (quoting
United States v. Procter & Gamble Co., 356 U.S. 677, 683 (1958))).26 The practice, albeit fairly
rare, of sharing grand jury information with Congress at the time of Rule 6(e)’s enactment lends
support to the conclusion that this rule, particularly the “judicial proceedings” exception, is
correctly construed to include impeachment trials.
This conclusion is bolstered by the fact that these historical examples share a common
thread: allegations of election fraud and punishment of Members of Congress. In these

“In the absence of a clear legislative mandate, the Advisory Committee Notes [to the Federal Rules of
Criminal Procedure] provide a reliable source of insight into the meaning of a rule, especially when, as here, the rule
was enacted precisely as the Advisory Committee proposed.” United States v. Vonn, 535 U.S. 55, 64 n.6 (2002).

26

36

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 37 of 75
112a
situations, as with cases of impeachment, Congress is acting more in a judicial rather than a
legislative capacity. As the Supreme Court explained in Kilbourn, when the House “punish[es]
its own members and determin[es] their election,” the House “partake[s]” in some “degree” of
the “character” of a “court.” 103 U.S. (13 Otto) at 189; see also id. at 190 (“Each House is by
the Constitution made the judge of the election and qualification of its members. In deciding on
these it has an undoubted right to examine witnesses and inspect papers, subject to the usual
rights of witnesses in such cases; and it may be that a witness would be subject to like
punishment at the hands of the body engaged in trying a contested election, for refusing to
testify, that he would if the case were pending before a court of judicature.” (emphases added)).
Further, the Supreme Court has stated that the Senate has “certain powers, which are not
legislative, but judicial, in character,” and that “[a]mong these is the power to judge of the
elections, returns, and qualifications of its own members.” Barry v. United States ex rel.
Cunningham, 279 U.S. 597, 613 (1929) (citing U.S. CONST. art. I, § 5, cl. 1).
4.

Binding D.C. Circuit Precedent Forecloses Any Conclusion Other Than That
an Impeachment Trial is a “Judicial Proceeding”

The D.C. Circuit has already expressly concluded at least twice—in Haldeman v. Sirica
and McKeever v. Barr—that an impeachment trial is a “judicial proceeding” under Rule 6(e), and
these decisions bind this Court. See also In re Sealed Motion, 880 F.2d at 1380 n.16 (quoting
approvingly a District of Kansas decision noting that Haldeman decided “disclosure of grand
jury material to [a] House Committee considering impeachment” was made preliminarily to or in
connection with a judicial proceeding (quoting United States v. Tager, 506 F. Supp. 707, 719 (D.
Kan. 1979)).
Forty-five years ago, Chief Judge John Joseph Sirica ordered that the Watergate grand
jury’s report on the President’s conduct (“Watergate Roadmap”) be sent to HJC, which was then
37

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 38 of 75
113a
engaged in an impeachment-related investigation of President Richard Nixon. See In re 1972
Grand Jury Report, 370 F. Supp. 1219. In ordering that disclosure, Chief Judge Sirica
confronted the same issue currently pending in this case: Is an impeachment trial a “judicial
proceeding” within the meaning of Rule 6(e)? See id. at 1227. Chief Judge Sirica answered,
emphatically, yes. “[I]t should not be forgotten,” he explained, “that we deal in a matter of the
most critical moment to the Nation, an impeachment investigation involving the President of the
United States.” Id. at 1230. “Certainly Rule 6(e) [could not] be said to mandate” the
withholding of such a report from HJC. Id.
In Haldeman v. Sirica, the D.C. Circuit, sitting en banc, reviewed Chief Judge Sirica’s
decision. Two defendants facing charges arising from the same grand jury investigation filed
petitions for writs of prohibition or mandamus, asserting that the release of the grand jury’s
Watergate Roadmap to HJC would adversely affect their right to a fair trial. Haldeman, 501
F.2d at 714–15. Notably, by contrast to its position in the instant case, DOJ filed a memorandum
before the D.C. Circuit supporting Chief Judge Sirica’s decision to release the grand jury report
to HJC. Id. at 714.
The D.C. Circuit agreed with Chief Judge Sirica, DOJ, and the grand jury, and thus
allowed the disclosure of grand jury materials to HJC to occur. In so doing, the Circuit rejected
the petitioners’ argument that “the discretion ordinarily reposed in a trial court to make such
disclosure of grand jury proceedings as he deems in the public interest is, by the terms of Rule
6(e) of the Federal Rules of Criminal Procedure, limited to circumstances incidental to judicial
proceedings and that impeachment does not fall into that category.” Id. at 715. The Circuit
determined that Rule 6(e) presented no obstacle to the disclosure that Chief Judge Sirica had
ordered: “Judge Sirica has dealt at length with this contention . . . in his filed opinion. We are in

38

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 39 of 75
114a
general agreement with his handling of these matters, and we feel no necessity to expand his
discussion.” Id.
One judge—Judge MacKinnon—wrote separately in Haldeman, agreeing that Rule 6(e)’s
judicial proceeding exception authorized the disclosure. See id. at 717 (MacKinnon, J.,
concurring in part and dissenting in part). In fact, he pointed out that “[a]t oral argument the
prosecutor represented that this disclosure of the grand jury material to the House Judiciary
Committee and eventually possibly to the House and Senate is being made ‘preliminarily to
(and) in connection with a judicial proceeding,’ and explained that his “concurrence in the
release of the grand jury material ha[d] taken this representation into consideration.” Id.
(quoting FED. R. CRIM. P. 6(e)). For Judge MacKinnon, the problem with Chief Judge Sirica’s
decision was that it had not gone far enough in disclosing grand jury material to HJC. See id. at
716 (“I would . . . permit the House Judiciary Committee . . . to have access not only to the
limited testimony accompanying the report and index but to the entire grand jury proceedings
under supervision of the court . . . .”).
Haldeman has stood the test of time. Earlier this year, in fact, the D.C. Circuit turned
back to Haldeman in McKeever. The primary issue in McKeever was whether courts possess
inherent authority to disclose grand jury materials, and the Circuit answered that question in the
negative. 920 F.3d at 850. The McKeever dissent, though, argued that the majority’s decision
conflicted with Haldeman. On the dissent’s reading, Chief Judge Sirica’s decision had been an
exercise of inherent authority, and Haldeman, in turn, “affirmed [Chief Judge Sirica’s]
understanding that a district court retains discretion to release grand jury materials outside the
Rule 6(e) exceptions.” Id. at 855 (Srinivasan, J., dissenting).27 In response, the McKeever
DOJ relies on a footnote from a prior decision of this Court, see DOJ Resp. at 14–15 (quoting In re
Application to Unseal Dockets Related to the Independent Counsel’s 1998 Investigation of President Clinton, 308 F.
27

39

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 40 of 75
115a
majority acknowledged “ambigu[ity]” in Haldeman’s reasoning, but the majority opted to
“read[] the case to cohere, rather than conflict, with the Supreme Court and D.C. Circuit
precedents” that formed the basis for the McKeever holding. Id. at 847 n.3 (majority opinion).
Accordingly, the Circuit “read Haldeman as did Judge MacKinnon in his separate opinion
concurring in part, as fitting within the Rule 6 exception for ‘judicial proceedings.’” Id.
Together, Haldeman and McKeever hold that an impeachment trial is a “judicial
proceeding” under Rule 6(e), and these decisions bind this Court. See Save Our Cumberland
Mountains, Inc. v. Hodel, 826 F.2d 43, 54 (D.C. Cir. 1987) (Ginsburg, Ruth B., J., concurring)
(explaining that D.C. Circuit law is binding “unless and until overturned by the court en banc or
by Higher Authority”), vacated in part on reh’g on other grounds, 857 F.2d 1516 (D.C. Cir.
1988) (en banc). These decisions alone require ruling in HJC’s favor on the threshold
requirement that an impeachment trial is a “judicial proceeding” within the meaning of Rule
6(e). Indeed, in addition to Chief Judge Sirica and the Haldeman Court, every other court to
have considered releasing grand jury material to Congress in connection with an impeachment
investigation has authorized such disclosure. See Order, In Re: Grand Jury Investigation of U.S.
Dist. Judge G. Thomas Porteous, Jr., No. 2:09-mc-04346-CVSG (E.D. La. Aug. 6, 2009),
summarily aff’d sub nom. In Re Grand Jury Proceeding, No. 09-30737 (5th Cir. Nov. 12, 2009);
In re Grand Jury Proceedings of Grand Jury No. 81-1 (Miami), 669 F. Supp. 1072 (S.D. Fla.
1987), aff’d sub nom. In re Request for Access to Grand Jury Materials (Hastings), 833 F.2d
1438 (11th Cir. 1987).28
Supp. 3d at 318 n.4), for a plain reading of the term “judicial proceeding” as precluding application to a
congressional proceeding, but the cited decision read Haldeman, like Judge Srinivasan, as “allow[ing] for district
court disclosures beyond Rule 6(e)’s exceptions,” Mckeever, 920 F.3d at 853 (Srinivasan, J., dissenting). The
Mckeever panel majority read Haldeman differently to include impeachment proceedings within the “judicial
proceeding” exception, and that reading now controls.
28
DOJ describes as “telling[]” that “rulemakers did not include the possibility that a congressional proceeding
could constitute a judicial proceeding, even though” the 1983 amendments to Rule 6(e)(3)(E)(i) “post-dated

40

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 41 of 75
116a
DOJ strains to distinguish Haldeman and McKeever with arguments that are simply
unpersuasive. As to Haldeman, DOJ focuses on the procedural posture, claiming that “[t]he only
issue decided in that case was whether the petitioners had shown that the district court’s order
was a ‘clear abuse of discretion or usurpation of judicial power’ from which the petitioners had a
clear and indisputable right to relief,” and thus “it is unsurprising that the D.C Circuit was able to
deny the petition without engaging in any ‘meaningful analysis of Rule 6(e)’s terms.’” DOJ
Resp. at 3 (first quoting Bankers Life & Cas. Co. v. Holland, 346 U.S. 379, 383 (1952); then
quoting McKeever, 920 F.3d at 855 (Srinivasan, J., dissenting)); see Hr’g Tr. at 87:24–88:1
(“That page-and-a-half decision talked about the standard of review being the extraordinary writ
of mandamus seven times in the opinion . . . .”). DOJ misreads Haldeman. When discussing
Rule 6(e), the mandamus standard is not mentioned, although this standard comes up repeatedly
in other parts of the opinion. Instead, after explaining that Chief Judge Sirica had “dealt at
length” with whether an impeachment trial is a judicial proceeding, the Haldeman Court
expressed “general agreement with his handling of these matters.” 501 F.2d at 715. This
“agreement” was so strong, in fact, that the Haldeman majority felt “no necessity to expand
[Chief Judge Sirica’s] discussion,” id., “thereby subscrib[ing] to Chief Judge Sirica’s rationale
for his disclosure order,” McKeever, 920 F.3d at 854 (Srinivasan, J., dissenting) (describing
Haldeman as having “ratified” Chief Judge Sirica’s decision).29 Notably, despite the affirming

Haldeman.” DOJ Resp. at 18 n.12. If any inference can be gleaned from leaving the judicial proceeding exception
unchanged, however, the correct inference is that Congress “adopted the earlier judicial construction of th[e]
phrase,” Helsinn Healthcare S.A. v. Teva Pharm. USA, Inc., 139 S. Ct. 628, 633–34 (2019), namely: that disclosure
of grand jury material to Congress for an impeachment investigation was already authorized by this exception.
29
DOJ characterizes the Haldeman majority’s “general agreement” with Chief Judge Sirica’s reasoning as
indicating merely that the majority believed any error in Chief Judge Sirica’s analysis did not merit reversal in light
of the deferential standard of review, DOJ Resp. at 21 (internal quotation marks omitted) (quoting Haldeman, 501
F.2d at 715), but appellate courts are not coy about acknowledging when decisions turn on standards of review, see,
e.g., Pallet Cos. v. NLRB, 634 Fed. App’x 800, 801 (D.C. Cir. 2015) (per curiam) (“Particularly in light of our
deferential standard of review, we have no basis to disturb that credibility judgment.”); Judgment, Giron v.
McFadden, 442 Fed. App’x 574, 575 (D.C. Cir. 2011) (“Particularly in light of the deferential standard of review,

41

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 42 of 75
117a
language in Haldeman, DOJ has gone so far as to say here that Rule 6(e) did not in fact authorize
the disclosure of the grand jury’s Watergate Roadmap, which Chief Judge Sirica ordered
disclosed to HJC during the impeachment investigation of President Nixon. See Hearing Tr. at
89:21–90:2.
DOJ also discounts McKeever’s analysis of Haldeman as mere dicta, contending that
McKeever “did not rule on the meaning of the term ‘judicial proceeding,’” because “it was
undisputed that the historical grand jury information at issue fell entirely outside Rule 6(e).”
DOJ Resp. at 2. Again, DOJ is wrong. McKeever’s interpretation of Haldeman was “‘reasoning
essential’ to the Court’s holding.” Apprendi v. New Jersey, 530 U.S. 466, 488 n.14 (2000)
(quoting id. at 536 (O’Connor, J., dissenting)). Haldeman after all, was an en banc decision. If
Haldeman had been decided on inherent authority grounds, the McKeever panel would have had
no choice but to apply that precedent faithfully. The McKeever panel recognized as much;
indeed, this argument was the sole subject of the dissent. See 920 F.3d at 847 n.3 (“[O]ur
dissenting colleague cite[s] Haldeman . . . as stepping outside the strict bounds of Rule 6(e).”);
id. at 853–55 (Srinivasan, J., dissenting). Thus, when the McKeever majority “read Haldeman as
did Judge MacKinnon in his separate opinion concurring in part, as fitting within the Rule 6
exception for ‘judicial proceedings,” id. at 847 n.3 (majority opinion), the majority made that
interpretation the binding law in this Circuit.30

we hold that the District Court did not abuse its discretion . . . .”), rather than straightforward approval of the
decision below. The Haldeman Court did the latter.
30
When queried about reconciling DOJ’s current position with its historical support of providing grand jury
materials to Congress for use in impeachment inquiries, DOJ responded that its position has “evolved.” Hr’g Tr. at
85:24. No matter how glibly presented, however, an “evolved” legal position may be estopped. “[W]here a party
assumes a certain position in a legal proceeding, and succeeds in maintaining that position, he may not thereafter,
simply because his interests have changed, assume a contrary position . . . .” New Hampshire v. Maine, 532 U.S.
742, 749 (2001) (alteration in original) (internal quotation mark omitted) (quoting Davis v. Wakelee, 156 U.S. 680,
689 (1895)). This rule also applies when a party, including a governmental entity, makes “a claim in a legal
proceeding that is inconsistent with a claim taken by that party in a previous proceeding.” Id. at 749 (internal
quotation mark omitted), see also id. at 755–56 (applying estoppel to a state government). Here, DOJ has changed

42

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 43 of 75
118a
Most troubling, DOJ’s proposed reading of “judicial proceeding” raises constitutional
concerns. DOJ policy is that a sitting President cannot be indicted, OLC Op., which policy
prompted the Special Counsel to abstain from “mak[ing] a traditional prosecutorial judgment” or
otherwise “draw[ing] ultimate conclusions about the President’s conduct.” Mueller Report at II8. This leaves the House as the only federal body that can act on allegations of presidential
misconduct. Yet, under DOJ’s reading of Rule 6(e), the Executive Branch would be empowered
to wall off any evidence of presidential misconduct from the House by placing that evidence
before a grand jury. Rule 6(e) must not be read to impede the House from exercising its “sole
Power of Impeachment.” U.S. CONST. art. I, § 2, cl. 5; cf. Trump v. Comm. on Oversight and
Reform of U.S. House of Representatives, 380 F. Supp. 3d 76, 95 (D.D.C. 2019) (“It is simply
not fathomable that a Constitution that grants Congress the power to remove a President for
reasons including criminal behavior would deny Congress the power to investigate him for
unlawful conduct . . . .”), aff’d sub nom. Trump v. Mazars USA, LLP, No. 19-5142, 2019 WL
5089748 (D.C. Cir. 2019).
*

*

*

its longstanding position regarding whether impeachment trials are “judicial proceedings” and whether Haldeman so
held. In Haldeman itself, the special prosecutor argued for disclosure of the grand jury materials and “represented
that this disclosure of the grand jury material to the House Judiciary Committee and eventually possibly to the
House and Senate [was] being made ‘preliminarily to (and) in connection with a judicial proceeding.’” Haldeman,
501 F.2d at 717 (MacKinnon, J. concurring in part and dissenting in part) (quoting FED. R. CRIM. P. 6(e)). Similarly,
when grand jury material was released to HJC during the impeachments of Judges Hastings and Porteous, DOJ
raised no objections. See Hastings, 833 F.2d at 1441–42 (“[T]he Department of Justice has stated that it has ‘no
objection’ to this disclosure to the Committee.”); Order, In Re: Grand Jury Investigation of U.S. Dist. Judge G.
Thomas Porteous, Jr., No. 2:09-mc-04346-CVSG, at 2 (“DOJ does not oppose the request.”). Most importantly, in
McKeever itself DOJ successfully argued—just last year—that the D.C. Circuit has “treated Haldeman as standing
only for the proposition that an impeachment proceeding may qualify as a ‘judicial proceeding’ for purposes of Rule
6(e),” see Brief for Appellee at 37, McKeever, 920 F.3d 842 (No. 17-1549), and the D.C. Circuit agreed, see
McKeever, 920 F.3d at 847 n.3. DOJ’s position has had a speedy evolution indeed. Nevertheless, since DOJ’s
reading of Haldeman and McKeever fails on the merits, further consideration of whether DOJ’s new position is
estopped is unnecessary.

43

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 44 of 75
119a
As the foregoing analysis shows, a Senate impeachment trial is a “judicial proceeding”
within the meaning of Rule 6(e). Quod erat demonstrandum.
B.

HJC’s Consideration of Articles of Impeachment is “Preliminarily
To” an Impeachment Trial

Rule 6(e)(3)(E)(i)’s authorization of disclosure “preliminarily to or in connection with a
judicial proceeding” is “an affirmative limitation on the availability of court-ordered disclosure
of grand jury materials.” Baggot, 463 U.S. at 480. Thus, “[i]f the primary purpose of disclosure
is not to assist in preparation or conduct of a judicial proceeding, disclosure under ([E])(i) is not
permitted.” Id. For HJC’s current impeachment-related proceedings to qualify as “preliminarily
to . . . a judicial proceeding” and disclosure to be permissible, HJC must be engaged in an
investigation that is “related fairly directly to” an “anticipated” impeachment trial. Id. As
explained in more detail below, the “primary purpose,” id., of HJC’s investigation is to
determine whether to recommend articles of impeachment and HJC therefore satisfies this
prerequisite for disclosure.
1.

Governing Legal Principles Demonstrate That House Proceedings Can be
“Preliminarily To” a Senate Impeachment Trial

The Supreme Court has addressed the issue of how to apply Rule 6(e)’s “preliminarily
to” requirement only once, in Baggot. There, the Court addressed two situations—one that met
the “preliminarily to” requirement, and one that did not. First, the Supreme Court considered an
Internal Revenue Service (“IRS”) “audit of civil tax liability,” the purpose of which was “not to
prepare for or conduct litigation, but to assess the amount of tax liability through administrative
channels.” Id. This failed the “preliminarily to” test because, even “[a]ssuming arguendo that
this audit will inevitably disclose a deficiency,” “[t]he IRS’s decision is largely self-executing, in
the sense that it has independent legal force of its own, without requiring prior validation or
enforcement by a court.” Id. at 481. By contrast, the Court discussed a second situation where
44

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 45 of 75
120a
“the IRS had closed its audit and issued a notice of deficiency, and the taxpayer had clearly
expressed its intention to seek redetermination of the deficiency in the Tax Court.” Id. at 483. In
that second situation, the Supreme Court explained the Seventh Circuit “correctly held . . . that
the IRS may seek [Rule 6(e)(3)(E)(i)] disclosure” because “[i]n such a case, the Government’s
primary purpose is plainly to use the materials sought to defend the Tax Court litigation, rather
than to conduct the administrative inquiry that preceded it.” Id. (citing In re Grand Jury
Proceedings (Miller Brewing Co.), 687 F.2d 1079 (7th Cir. 1982)).
Between these two situations, a myriad of alternative circumstances is possible. The
Supreme Court abstained, however, in footnote 6, from defining precisely “the level of
likelihood of litigation that must exist before an administrative action is preliminary to
litigation.” Id. at 482 n.6. In so doing, the Court acknowledged, in practical terms, how
investigations evolve to reach the point of contemplating litigation, stating:
[a]s a general matter, many an investigation, begun to determine
whether there has been a violation of law, reaches a tentative
affirmative conclusion on that question; at that point, the focus of
the investigation commonly shifts to ascertaining the scope and
details of the violation and building a case in support of any
necessary enforcement action.
Id. (emphasis in original). Given these practical realities, the Court declined to specify “how
firm the agency’s decision to litigate must be before its investigation can be characterized as
‘preliminar[y] to a judicial proceeding,’” id. (alteration in original), noting that in the case before
it, the Court was confronted with a “clear” case of the “IRS’s proposed use” being to “assess[]
taxes rather than to prepare for or to conduct litigation,” id. at 483.
The D.C. Circuit similarly has had limited opportunity to consider application of the
“preliminarily to” requirement in Rule 6(e). Post-Baggot, the D.C. Circuit has made clear that “a
party requesting grand jury material must demonstrate that his ‘primary purpose’ for acquiring
45

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 46 of 75
121a
the material is preliminary to or in connection with a judicial proceeding.” In re Sealed Motion,
880 F.2d at 1379 n.15.31 As suggested by Baggot’s footnote 6, the D.C. Circuit has further
indicated that an investigation can be “preliminarily to” a judicial proceeding even though no
litigation is actually pending but may only be “possible.” In re Grand Jury, 490 F.3d at 986
(holding that grand jury investigation satisfies the “preliminarily to” test as “preliminary to a
possible criminal trial”).
DOJ actually makes little effort to dispute that if an impeachment trial is a judicial
proceeding, the House’s consideration of articles of impeachment is “preliminary to” that
proceeding at least in some circumstances. DOJ Resp. at 26, n.15; see id. at 24–30. DOJ is wise
not to waste much energy on that argument. To the extent the House’s role in the impeachment
context is to investigate misconduct by the President and ascertain whether that conduct amounts
to an impeachable offense warranting removal from office, the House performs a function
somewhat akin to a grand jury. See In re 1972 Grand Jury Report, 370 F. Supp. at 1230 (stating
that House “acts simply as [a] grand jury.”); 3 Hinds Ch. 72 § 2343 (“The analogy between the
function of the House in this matter [referring to 1804 impeachment of Justice Samuel Chase]
and that of a grand jury was correct and forcible.”); id. Ch. 54 § 1729 (explaining in the context
of an 1818 “inquiry into the conduct of clerks in the Executive Departments” “that the House
was in the relation of a grand jury, to the nation, and that it was the duty of the House to examine
into the conduct of public officers”); id. Ch. 79 § 2505 (explaining in 1873 during the
impeachment of Judge Delahay that “[t]he Senate is a perpetual court of impeachment, and in

At least two other circuits have reached the same conclusion. See Patton v. C.I.R., 799 F.2d 166, 172 (5th
Cir. 1986) (“In Baggot, the Supreme Court observed that Rule [6(e)(3)(E)(i)] ‘contemplates only uses related fairly
directly to some identifiable litigation, pending or anticipated,’ as measured by the ‘primary purpose of the
disclosure.’” (quoting Baggot, 463 U.S. at 480)); In re Barker, 741 F.2d 250, 254 (9th Cir. 1984) (“Under Baggot,
the proper inquiry is whether the primary purpose of the disclosure is to assist in the preparation or conduct of
judicial proceedings.”).

31

46

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 47 of 75
122a
presenting these articles we act only as a grand jury”); Mazars, 2019 WL 5089748, at *32 (Rao,
J., dissenting) (“In the context of an impeachment inquiry, the House serves as a kind of grand
jury, investigating public officials for misconduct.”); cf. Jefferson’s Manual of Parliamentary
Procedure § 615a (“Jefferson’s Manual”) (“[The English House of Commons] have been
generally and more justly considered, as is before stated, as the grand jury.”).32
Accordingly, just as a grand jury investigation is “preliminary to a possible criminal
trial,” In re Grand Jury, 490 F.3d at 986, a House impeachment inquiry occurs preliminarily to a
possible Senate impeachment trial.
2.

HJC’s Primary Purpose is to Determine Whether to Recommend Articles of
Impeachment

HJC’s investigation is in fact “preliminarily to” an impeachment trial because its primary
purpose is to determine whether to recommend articles of impeachment. Before detailing how
the record of House and HJC impeachment activities verifies this primary purpose, DOJ’s and
Representative Collins’ proposed criteria for meeting the “preliminarily to” test are considered
and, due to their critical shortcomings, rejected.
a.

DOJ’s Proposed “Preliminarily To” Test is Contrary to Baggot

Despite the clarity with which the Supreme Court “decline[d],” Baggot, 463 U.S. at 482
n.6, to draw the line when an investigation becomes “preliminarily to . . . a judicial proceeding,”
DOJ relies heavily on Baggot to contend that HJC’s inquiry fails to cross that line. See DOJ
Resp. at 24–25. In this vein, DOJ construes Baggot as requiring HJC to show that its

The grand jury analogy is not perfect. See 145 Cong. Rec. S1586 (1999) (statement of Sen. Leahy) (noting
that the analogy between the House and a grand jury is “loose” (quoting Background and History of Impeachment:
Hearing Before the Subcomm. On the Constitution of the HJC, 105th Cong., XX S. Doc. 106-3 at 228 (statement of
Laurence H. Tribe) (1998)). When the House decides whether to impeach, it functions as more than a “mere
‘accuser.’” Id. “The House’s constitutional responsibility for charging the President should not be misinterpreted to
justify applying only a grand jury’s ‘probable cause’ standard of proof.” Id. at S1587. Rather, “House Members
who vote to impeach should also be convinced th[e] President has so abused the public trust and so threatens the
public that he should be removed.” Id.
32

47

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 48 of 75
123a
investigation “must lead to referral of articles of impeachment to the floor of the House,” id. at
25, and further that “referral of articles of impeachment ‘must’ lead to a Senate trial,” id. Short
of those dual showings of action in the House and in the Senate, DOJ posits that HJC’s
investigation amounts only to “[a] nonlitigative function,” id. at 27 (quoting Baggot, 463 U.S. at
483), with only a “tenuous” connection to an impeachment trial, id. at 25, which is “entirely
hypothetical rather than ‘likely to emerge,’” id. at 29 (quoting Baggot, 463 U.S. at 480)).
The line-drawing suggested by DOJ—requiring dual showings of the House’s intention
to pass articles of impeachment plus a guaranteed Senate impeachment trial—ignores first the
Supreme Court’s expressed appreciation that, even in the midst of an investigation, the focus can
shift to “building a case” and then qualify as preliminarily to “any necessary enforcement
action.” Baggot, 463 U.S. at 482 n.6. Nor is DOJ’s requirement of a guarantee of a Senate
impeachment trial grounded in Baggot. Baggot made clear that the requisite judicial proceeding
need not be subject to initiation by the party seeking disclosure or pending at the time of the
requested grand jury disclosure; the proceeding need only be “anticipated,” id. at 480, or
“possible,” In re Grand Jury, 490 F.3d at 986; see Baggot, 463 U.S. at 482–83 (“We also do not
hold that . . . a private party who anticipates a suit . . . may never obtain ([E])(i) disclosure of
grand jury materials any time the initiative for litigating lies elsewhere. Nor do we hold that
such a party must always await the actual commencement of litigation before obtaining
disclosure.”). Thus, DOJ’s proposed criteria to demonstrate a “primary purpose” for an
impeachment inquiry are rejected.
DOJ also reasons that HJC’s proceedings here are not “preliminarily to” impeachment
because “the Committee’s actions thus far . . . at most amount to an exploratory inquiry where

48

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 49 of 75
124a
impeachment is one of many possible outcomes.” DOJ Resp. at 24.33 Even if DOJ were correct
that only some congressional committee investigations are “preliminarily to” an impeachment
trial, see In re Uranium Grand Jury, 1979 WL 1661, at *7 (determining that Rule 6(e) is not
satisfied where a House committee “makes a somewhat vague assertion that one of the reasons it
needs to examine the transcripts is that it might result in its recommendation to the House
Judiciary Committee that impeachment proceedings be initiated”), DOJ is wrong in this instance,
as detailed infra in Part III.B.2.C.
b.

No House “Impeachment Inquiry” Resolution is Required

Relatedly, Representative Collins asserts that HJC’s investigation cannot be
“preliminarily to” an impeachment trial until the full House passes a resolution authorizing a
“formal impeachment proceeding.” Collins Mem. at 1. DOJ equivocates on this proposed bright
line test to meet the “preliminarily to” requirement, Hr’g Tr. at 69:10–11, but seems to indicate
that the House must go at least that far, see DOJ Resp. at 28. Like all bright-line rules, this
“House resolution” test is appealing in terms of being easy to apply. Yet, the reasoning
supporting this proposed test is fatally flawed. The precedential support cited for the “House
resolution” test is cherry-picked and incomplete, and more significantly, this test has no textual
support in the U.S. Constitution, the governing rules of the House, or Rule 6(e), as interpreted in
binding decisions.

Some of DOJ’s arguments regarding whether HJC meets the “preliminarily to” test have been mooted due
to developments in the possible impeachment of President Trump since the pending application was filed. DOJ, for
instance, initially argued that statements by the Speaker and the House Majority Leader showed that “the House
Democratic caucus was ‘not even close’ to an ‘impeachment inquiry.’” DOJ Resp. at 27 (quoting Rep. Nancy Pelosi
(D-CA) Continues Resisting Impeachment Inquiry, CNN (June 11, 2019), http://transcripts.cnn.com/TRANSCRI
PTS/1906/11/cnr.04html). That may have been true in June, but not now, after the Speaker herself announced in
September that the full House is “moving forward with an official impeachment inquiry.” Pelosi Remarks
Announcing Impeachment Inquiry (Sept. 24, 2019), https://perma.cc/6EQM-34PT [hereinafter Pelosi Tr.].
33

49

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 50 of 75
125a
Turning first to the arguments that stem from precedent, DOJ and Representative Collins
state that the “impeachments of Presidents Clinton and Andrew Johnson were investigated in
multiple phases with each phase authorized by the House’s adoption of resolutions.” DOJ Resp.
at 28; see also Collins Mem. at 9–12 (stating that for presidential impeachments, including the
likely impeachment of President Nixon had he not resigned, “the full House voted to authorize
impeachment proceedings”). Even were this statement accurate, which it is not, the manner in
which the House has chosen to conduct impeachment inquiries encompasses more than past
Presidents and no sound legal or constitutional reason has been presented to distinguish the
House’s exercise of impeachment authority for a President from the exercise of such authority
more generally.34
Indisputably, the House has initiated impeachment inquiries of federal judges without a
House resolution “authorizing” the inquiry. See, e.g., H.R. Rep. No. 101-36, at 13–16 (1988)
(describing proceedings with respect to Judge Walter Nixon leading up to HJC’s
recommendation of articles of impeachment, with no mention of an authorizing resolution); H.
R. Res. 320, 100th Cong. (as passed by the House Dec. 2, 1987) (authorizing taking of affidavits
and depositions during the impeachment investigation of Judge Hastings, without any formal
House resolution for an “impeachment inquiry”); H.R. Rep. No. 99-688, at 3–7 (1986)
(describing proceedings with respect to Judge Harry Claiborne leading up to HJC’s

DOJ and Representative Collins offer only one argument for distinguishing presidential and judicial
impeachments: that the House “has delegated initial investigatory authority for impeachment to the U.S. Judicial
Conference through the passage of the Judicial Conduct and Disability Act of 1980.” Collins Mem. at 10 n.12
(citing 28 U.S.C. § 355(b)); see also Hr’g Tr. at 83:21–84:23 (DOJ) (raising similar argument). Yet, during the
investigations of Judge Porteous and Judge Hastings, HJC did not rely on the Judicial Conference to furnish relevant
grand jury material but instead petitioned for and received relevant grand jury material directly from the courts
supervising the grand jury investigations of the judges at issue. See Hastings, 833 F.2d 1438; Order, In Re: Grand
Jury Investigation of U.S. Dist. Judge G. Thomas Porteous, Jr., No. 2:09-mc-04346-CVSG. Moreover, the
impeachment investigation of Justice Douglas, which went forward without a House Resolution, occurred in 1970,
before the Judicial Conduct and Disability Act of 1980 was adopted. See Final Report on Associate Justice William
O. Douglas, Special Subcomm. on H.R. Res. 920 of the House Comm. on the Judiciary, 91st Cong. (1970).
34

50

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 51 of 75
126a
recommendation of articles of impeachment, with no mention of an authorizing resolution); 3
Deschler Ch. 14 § 5 (“In the case of Justice Douglas, the Committee on the Judiciary authorized
a special subcommittee to investigate the charges, without the adoption by the House of a
resolution specifically authorizing an investigation.”). Furthermore, federal judges have been
impeached by the House without a House resolution “authorizing” an inquiry. See H.R. Res. 87,
101st Cong. (1989) (impeaching Judge Nixon); H.R. Res. 499 100th Cong. (1988) (impeaching
Judge Hastings); H.R. Res. 461, 99th Cong. (1986) (impeaching Judge Claiborne). In the course
of an impeachment proceeding against a federal judge, the House has also obtained grand jury
material to assist in an impeachment inquiry that was not “authorized” by a specific House
impeachment resolution. See Hastings, 833 F.2d at 1439 (releasing Hastings grand jury
information to HJC).
Even in cases of presidential impeachment, a House resolution has never, in fact, been
required to begin an impeachment inquiry. In the case of President Johnson, a resolution
“authoriz[ing]” HJC “to inquire into the official conduct of Andrew Johnson” was passed after
HJC “was already considering the subject.” 3 Hinds Ch. 75 § 2400. In the case of President
Nixon, HJC started its investigation well before the House passed a resolution authorizing an
impeachment inquiry. See 3 Deschler Ch. 14, § 15 (Parliamentarian’s Note) (noting that even
before “the adoption of” the Nixon impeachment-inquiry resolution, “House Resolution 803,”
HJC “had been conducting an investigation into the charges of impeachment against President
Nixon,” such as by “hir[ing] special counsel for the impeachment inquiry”).35 In the case of
President Clinton, the D.C. Circuit authorized the disclosure of grand jury materials to Congress

DOJ and Representative Collins both agree that the events leading up to President Nixon’s resignation are
relevant historical precedent for the purpose of the current inquiry, even though President Nixon left office before he
could be impeached. See Hr’g Tr. at 71:13–19 (DOJ); Collins Mem. at 9–10.

35

51

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 52 of 75
127a
on July 7, 1998, see HJC App., Ex. Q, Order, In re Madison Guaranty Savings & Loan Assoc.,
Div. No. 94-1 (D.C. Cir. Spec. Div. July 7, 1998) (per curiam), ECF No. 1-18, even though no
impeachment resolution had yet been adopted and was not adopted by the House until four
months later, see H. R. Res. 525, 105th Cong. (1998) (authorizing, on October 8, 1998, HJC to
“investigate fully and completely whether sufficient grounds exist for the House of
Representatives to exercise its constitutional power to impeach” President Clinton).36
While close scrutiny of the historical record undercuts that justification for the “House
resolution” test proposed by Representative Collins, the more significant flaw with this proposal
is as follows: while this test may address political legitimacy concerns, which are best resolved
in the political arena, no governing law requires this test—not the Constitution, not House Rules,
and not Rule 6(e), and so imposing this test would be an impermissible intrusion on the House’s
constitutional authority both to “determine the rules of its proceedings” under the Rulemaking
Clause, U.S. CONST., Art. I, § 5, cl. 2, and to exercise “the sole power of Impeachment” under
the Impeachment Clause, id. § 2, cl. 5. This Court “ha[s] no authority to impose,” by judicial
order, a particular structure on House proceedings. Mazars, 2019 WL 5089748, at *24. In
Mazars, for example, the D.C. Circuit rejected the position that enforcement of a House
Oversight and Reform Committee subpoena of a third-party’s records related to President Trump
and his business associates was inappropriate until the “full House” granted the Committee
“express authority to subpoena the President for his personal financial records.” Id. at *24
(internal quotation marks omitted). Citing the Constitution’s Rulemaking Clause, the D.C.

36
DOJ dismisses the example of the House’s impeachment of President Clinton, contending that the thenoperative Independent Counsel Act provided independent authorization for disclosure of grand jury material to
Congress. DOJ Resp. at 22–23. Putting aside whether DOJ correctly reads the now-lapsed independent counsel
statute, this contention only confirms that full House impeachment resolutions have not been a necessary predicate
for HJC to commence an impeachment investigation and obtain access to grand jury material to assist in that
investigation.

52

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 53 of 75
128a
Circuit explained that “unless and until Congress adopts a rule that offends the Constitution, the
courts get no vote in how each chamber chooses to run its internal affairs.” Id.; see also Barker
v. Conroy, 921 F.3d 1118, 1130 (D.C. Cir. 2019) (noting that “‘making the Rules . . . [is] a power
that the Rulemaking Clause reserves to each House alone’” (quoting United States v.
Rostenkowski, 59 F.3d 1291, 1306–07 (D.C. Cir. 1995)). This Court likewise lacks authority to
require the House to pass a resolution tasking a committee with conducting an impeachment
inquiry.
Representative Collins shifts gears with an alternative challenge to HJC’s petition,
contending that, even if no House rule prohibits HJC from beginning an impeachment
investigation without a House resolution, the House has not “delegate[d] such authority to the
Committee,” and HJC has no powers except those expressly granted to it. Collins Mem. at 6.
Pressing this point, he argues that the House has thus far delegated only “legislative and
oversight authority to the Committee,” not “impeachment authority,” id. at 5, and, further, that
the Speaker of the House may not “unilaterally delegate to the Committee the House’s
impeachment power,” id. at 13–14. These contentions are, at worst, red herrings and, at best,
incorrect.
At the outset, the distinction drawn by Representative Collins between Congress’s
“legislative and oversight authority” and Congress’s “impeachment authority,” is not so rigid as
he makes out. Nothing “in the Constitution or case law . . . compels Congress to abandon its
legislative role at the first scent of potential illegality and confine itself exclusively to the
impeachment process.” Mazars, 2019 WL 5089748, at *18.37 In any event, the House has

The distinction between Congress’ legislative and impeachment authority, even if otherwise sound, has
questionable relevance to the Rule 6(e) analysis. The “preliminarily to” requirement depends on the “primary
purpose” disclosure would serve, not the source of authority Congress acts under.

37

53

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 54 of 75
129a
sufficiently delegated to HJC the authority to conduct an impeachment inquiry in at least two
ways. Jefferson’s Manual—which under House Rule XXI “‘govern[s] the House in all cases to
which [it is] applicable and in which [it is] not inconsistent with the Rules and orders of the
House’”—provides that impeachment can be “set[] . . . in motion” by “a resolution introduced by
a Member and referred to a committee” as well as “facts developed and reported by an
investigating committee of the House.” Jefferson’s Manual § 603.38 Additionally, the full
House has authorized, in Resolution 430, HJC to bring this suit and simultaneously granted HJC
“any and all necessary authority under Article I of the Constitution.” H.R. Res. 430, 116th
Cong. (as passed by House June 11, 2019) (emphases added).39
As to Representative Collins’ last point regarding the Speaker’s statement, HJC never
claims that the Speaker possesses the power to authorize an impeachment inquiry solely by
saying so. Rather, HJC points to the Speaker’s statement as evidence of the primary purpose of
HJC’s investigation. The Speaker’s statement is, in fact, highly probative evidence on that
score.40 Even DOJ does not dispute that statements made by the House Speaker may be

Jefferson’s Manual is one of the “fundamental source material[s] for parliamentary procedure used in the
House of Representatives.” Thomas J. Wickham, Constitution, Jefferson’s Manual, and Rules of the House
Representatives of the United States One Hundred Fifteenth Congress at v (2017).
39
Challenge to a specific committee action on grounds that HJC’s authority was in doubt would be
unreviewable. “[U]nless and until Congress adopts a rule that offends the Constitution,” judicial review of House
rules is inappropriate. Mazars, 2019 WL 5089748, at *24. Here, neither DOJ nor Representative Collins complains
that HJC’s actions or authorizing House rules suffer from a “constitutional infirmity.” Vander Jagt v. O’Neill, 699
F.2d 1166, 1173 (D.C. Cir. 1983). That distinguishes this case from Tobin v. United States, 306 F.2d 270 (D.C. Cir.
1962), which Representative Collins heavily relies on; there the House resolution at issue raised “serious and
difficult” constitutional issues. Id. at 275; see also Mazars, 2019 WL 5089748, at *24 (similarly distinguishing
Tobin).
40
Citing Speaker Pelosi’s September 2019 statement, Representative Collins also argues that HJC’s
investigation is not “preliminarily to” a Senate impeachment trial because the “impeachment inquiry” announced by
the Speaker will “be handled by three other committees and focus ‘narrowly on the Ukraine matter’” rather than on
allegations in the Mueller Report. Collins Mem. at 14 (quoting Rachael Blade and Mike DeBonis, Democrats Count
on Schiff to Deliver Focused Impeachment Inquiry of Trump, WASH. POST (Sept. 29, 2019), https://www.washington
post.com/politics/pelosi-turns-to-schiff-to-lead-house-democrats-impeachment-inquiry-of-trump/2019/09/
28/ed6c4608-e149-11e9-8dc8-498eabc129a0_story.html). This argument is misguided, first, because Speaker
Pelosi made clear that “six [c]ommittees”—including HJC—would “proceed with their investigations under that
umbrella of impeachment inquiry,” Pelosi Tr., and thus HJC plainly remains engaged. Second, the current focus on
President Trump’s interactions with the foreign leader of Ukraine is pertinent, not to the “preliminarily to”
38

54

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 55 of 75
130a
probative in evaluating the “primary purpose” of HJC inquiries, as DOJ too has relied on the
Speaker’s statements in its arguments about satisfaction of the “preliminarily to” requirement.
See DOJ Resp. at 3, 26–27.
c.

The Record of House and HJC Impeachment Activities Here Meets the
“Preliminarily To” Test

Having dispatched DOJ’s and Representative Collins’ unsupported criteria for meeting
the “preliminarily to” test, examination of the record before the Court is essential to assess
whether HJC has satisfied the actual inquiry: Baggot’s “primary purpose” test. As HJC explains,
the purpose of HJC’s investigation and the requested disclosure is “to determine whether to
recommend articles of impeachment,” HJC App. at 3, and the record evidence supports that
claim. Determining whether to recommend articles of impeachment may not have been the
primary purpose of HJC’s investigation initially, but that is of no moment. “Congress’s decision
whether, and if so how,” to act “will necessarily depend on what information it discovers in the
course of an investigation, and its preferred path forward may shift as members educate
themselves on the relevant facts and circumstances.” Mazars, 2019 WL 5089748, at *13. While
HJC is “pursuing a legitimate legislative objective [it] may . . . choose to move from legislative
investigation to impeachment,” id. at *18, and that is precisely what occurred here, as a review of
the record evidence in chronological order demonstrates.
The beginnings of HJC’s current investigation trace to January 3, 2019, when a resolution
calling for President Trump’s impeachment was introduced, see H.R. Res. 13, 116th Cong.
(2019), and, in keeping with standard practice, then referred to HJC for consideration, 165 Cong.
Rec. H201, H211 (daily ed. Jan. 3, 2019) (referring H.R. Res. 13 to HJC). This resolution

requirement, but to the issue of whether HJC has shown a “particularized need” for the redacted grand jury materials
in the Mueller Report. As to the “preliminarily to” requirement, the Ukrainian developments simply underscore that
the investigations currently proceeding in the House may lead to a Senate impeachment trial.

55

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 56 of 75
131a
remains under review before HJC. See All Actions H.Res.13 — 116th Congress (2019-2020),
https://www.congress.gov/bill/116th-congress/house-resolution/13/all-actions.
HJC turned to the subject of impeachment in earnest after the release of the Mueller
Report. On June 6, 2019, HJC issued a report that accompanied a resolution recommending that
AG Barr be held in contempt of Congress for failing to comply with a subpoena for production
of the unredacted Mueller Report and underlying materials. See H.R. Rep. No. 116-105 (2019)
(“Contempt Report”). That Contempt Report explained that among the “purposes” of HJC’s
“investigation into the alleged obstruction of justice, public corruption, and other abuses of
power by President Donald Trump” was to “consider[] whether any of the conduct described in
the Special Counsel’s Report warrants the Committee in taking any further steps under
Congress’ Article I powers,” “includ[ing] whether to approve articles of impeachment with
respect to the President.” Id. at 13.
Significantly, on June 11, 2019, the full House voted to ensure HJC possessed the
authority needed to continue this investigation. The House approved, by a vote of 229 to 191, a
resolution allowing HJC “to petition for disclosure of information” related to the Mueller
Report—i.e., to bring the instant action. H.R. Res. 430, 116th Cong. (2019). House Resolution
430 expressly authorized HJC to bring a petition pursuant to Rule 6(e)’s “‘preliminarily to . . . a
judicial proceeding’” exception, id. (omission in original) (quoting FED. R. CRIM. P.
6(e)(3)(E)(i)), and, as noted above, granted HJC, in connection with that authorization, “any and
all necessary authority under Article I of the Constitution,” id. (emphases added).
By July, HJC’s investigation had become focused on the impeachment power, as
expressed in a July 11, 2019 memorandum issued by HJC Chairman Nadler explaining that HJC
is “determin[ing] whether the Committee should recommend articles of impeachment against the

56

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 57 of 75
132a
President or any other Article I remedies, and if so, in what form.” HJC App., Ex. A, Jerrold
Nadler, Chairman, H. Comm. on the Judiciary, Memorandum Re: Hearing on “Lessons from the
Mueller Report, Part III: ‘Constitutional Processes for Addressing Presidential Misconduct’” at
3 (July 11, 2019), ECF No. 1-2. At a hearing held the next day, Chairman Nadler further stated
that HJC’s “responsibility” was “to determine whether to recommend articles of impeachment
against the President,” noting that “articles of impeachment are under consideration as part of the
Committee’s investigation.” HJC App., Ex. T, Lessons from the Mueller Report, Part III:
“Constitutional Processes for Addressing Presidential Misconduct”: Hearing Before the H.
Comm. on the Judiciary at 4 (July 12, 2019), ECF No. 1-21 (capitalization altered). On
September 12, 2019, HJC adopted a resolution confirming that the purpose of its investigation is
“to determine whether to recommend articles of impeachment with respect to President Donald J.
Trump.” DOJ Resp., Ex. 11, Comm. on the Judiciary, Resolution for Investigative Procedures at
4 (Sept. 12, 2019), ECF No. 20-11.
Finally, on September 24, 2019, House Speaker Nancy Pelosi announced that the full
House is “moving forward with an official impeachment inquiry.” Pelosi Tr. “For the past
several months,” Speaker Pelosi explained, the House had been “investigating in our Committees
and litigating in the courts so the House can gather all of the relevant facts and consider whether
to exercise its full Article I powers, including a constitutional power of the utmost gravity,
approval of articles of impeachment.” Id. Thus, Speaker Pelosi “direct[ed]” the “six
Committees”—including HJC—to “proceed with their investigations under that umbrella of
impeachment inquiry” going forward. Id.
These indicia of HJC’s purpose sufficiently demonstrate that the primary purpose of the
investigation for which the grand jury disclosure is sought is to determine whether to recommend

57

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 58 of 75
133a
articles of impeachment against President Trump. Cf. Mazars, 2019 WL 5089748, at *10–11
(looking to statements a committee chairman made in a memorandum to his colleagues to assess
the purpose of a congressional investigation); see Jefferson’s Manual § 603 at 319 (stating that
“[i]n the House various events have been credited with setting an impeachment in motion,” such
as “charges made on the floor on the responsibility of a Member or Delegate,” “a resolution
introduced by a Member and referred to a committee,” “charges transmitted . . . from a grand
jury,” and “facts developed and reported by an investigating committee of the House”); 3
Deschler Ch. 14 § 5 (“In the majority of cases, impeachment proceedings in the House have been
initiated either by introducing resolutions of impeachment by placing them in the hopper, or by
offering charges on the floor of the House under a question of constitutional privilege. Where
such resolutions have directly impeached federal civil officers, they have been conferred by the
Speaker to the Committee on the Judiciary, which has jurisdiction over federal judges and
presidential succession . . . .”); Charles W. Johnson et al., House Practice: A Guide to the Rules,
Precedents, and Practice of the House, Ch. 27 § 6, at 602 (2017) (confirming same).
Formulating a firm line on when, in the impeachment context, activities within the House
meet the “preliminarily to” requirement to qualify for disclosure of grand jury material need not
be drawn here, since this case is clear. Collectively, the record shows an evolving and deliberate
investigation by HJC that has become focused on determining whether to impeach the President
and thus has crossed the “preliminarily to” threshold.
3.

Requiring More Than the Current Showing by HJC, as DOJ Demands,
Would Improperly Intrude on Article I Powers Granted to House of
Representatives

DOJ urges this Court to second-guess a co-equal branch of government and find that the
steps taken by the House fall short of showing a primary purpose of undertaking an impeachment
inquiry that would meet the “preliminarily to” requirement in Rule 6(e)(3)(E)(i). In so doing,
58

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 59 of 75
134a
DOJ again invites an impermissible intrusion on the House’s constitutional authority under the
Rulemaking and Impeachment Clauses. These Article I grants of exclusive authority require a
degree of deference to the House’s position that the House and HJC are currently engaged in an
investigation with the primary purpose of assessing whether to adopt articles of impeachment.
See Vander Jagt, 699 F.2d at 1173 (concluding that the Rulemaking Clause “means that neither
we nor the Executive Branch may tell Congress what rules it must adopt”); Mazars, 2019 WL
5089748, at *24 (“[U]nless and until Congress adopts a rule that offends the Constitution, the
courts get no vote in how each chamber chooses to run its internal affairs.”); Nixon v. United
States, 506 U.S. 224, 238 (1993) (concluding that judicial review of Senate impeachment trial
procedures would be inconsistent with the text and structure of the Constitution).
At the same time, HJC has argued that complete and absolute deference is due to the
House and HJC not only in structuring but also in articulating the purpose of the current inquiry.
Hearing Tr. at 25:23–26:4; see also HJC App. at 30–31. HJC’s position goes too far, at least as
to judicial review of HJC’s “primary purpose.” Rule 6(e), and the Supreme Court’s cases
interpreting it, grant this Court authority, and indeed a responsibility, to verify that HJC seeks
disclosure of the grand jury material for use in an inquiry whose core aim is assessing possible
articles of impeachment. The preceding review of the factual record and finding about HJC’s
“primary purpose” fulfill that responsibility of judicial review without intruding on the House’s
ability to write its own rules or to exercise its power of impeachment. See Morgan v. United
States, 801 F.2d 445, 449 (D.C. Cir. 1986) (Scalia, J.) (noting that “no absolute prohibition of
judicial review” of House Rules exists).41

41
Although neither the Supreme Court nor the D.C. Circuit has considered the justiciability of, or the degree
of deference due in, cases implicating the House’s “sole power of Impeachment,” U.S. CONST., Art. I, § 2, cl. 5,
verifying that the factual record supports HJC’s assertion about its “primary purpose” does not require direct judicial
review of any actions by the House taken pursuant to the impeachment power.

59

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 60 of 75
135a
Additionally, DOJ’s position that no disclosure of grand jury information to a House
impeachment inquiry is permitted under Rule 6(e), see DOJ Resp. at 13–19, would completely
bar access to relevant grand jury materials. Such a blanket bar would have concrete
repercussions on limiting the House’s access to investigative materials and thereby
impermissibly impede the House’s ability to exercise its constitutional power of impeachment.
The House, through the committees tasked with conducting an impeachment investigation, must
develop a factual record supporting at least a good-faith basis for believing that the President has
engaged in conduct meeting the constitutional requirement of a “high crime” or “misdemeanor”
before voting in favor of articles of impeachment targeting such conduct. Cf. Kaley v. United
States, 571 U.S. 320, 328 (2014) (noting that to issue an indictment, a grand jury must find
probable cause to believe a defendant committed the charged offense); Dep’t of Justice, Justice
Manual § 9-27.220 (explaining that before commencing or recommending federal prosecution
against an individual, a federal prosecutor must “believe[] that the person’s conduct constitutes a
federal offense, and that the admissible evidence will probably be sufficient to obtain and sustain
a conviction”). Indeed, even a lawyer in a civil proceeding must “certif[y] that to the best of the
[lawyer’s] knowledge, information, and belief, formed after an inquiry reasonable under the
circumstances,” the “factual contentions” presented to the court “have evidentiary support.”
FED. R. CIV. P. 11(b).
Blocking access to evidence collected by a grand jury relevant to an impeachment
inquiry, as DOJ urges, undermines the House’s ability to carry out its constitutional
responsibility with due diligence. On the other hand, interpreting Rule 6(e) in a manner
compatible with this constitutional responsibility avoids this conundrum, and ensures HJC has

60

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 61 of 75
136a
access to the pertinent information before making an impeachment recommendation to the full
House.
4.

DOJ’s Remaining Objections are Unpersuasive

DOJ’s remaining arguments are easily dispatched. DOJ asserts that “the full House in the
current Congress has already voted overwhelmingly against impeachment,” DOJ Resp. at 25
(emphasis added), because House Resolution 498, which called for an impeachment inquiry
based on “President Trump’s racist comments,” H.R. Res. 498, 116th Cong. (2019), was
“defeated 332-95,” DOJ Resp. at 25. Yet, the fact that House Resolution 498 was tabled, see All
Actions, H.Res.498 — 116th Congress (2019-2020), https://www.congress.gov/bill/116thcongress/house-resolution/498/all-actions?actionsSearchResultViewType=compact, has little
relevance here since that resolution has nothing to do with the concerns of the current
impeachment inquiry, which is focused on the President’s possible criminal conduct described in
the Mueller Report and in connection with Ukraine.
Next, DOJ claims that HJC’s “primary purpose” is to decide among different possible
actions to “pursue in response to the Mueller Report,” such as “various legislative proposals,
Constitutional amendments, and a Congressional referral to the Department of Justice for
prosecution or civil enforcement.” DOJ Resp. at 26. DOJ is correct that deciding whether to
recommend articles of impeachment may not always have been—and still may not be—the only
purpose of HJC’s current investigation, but that is to be expected. “As the Supreme Court has
explained, ‘[t]he very nature of the investigative function—like any research—is that it takes the
searchers up some “blind alleys” and into nonproductive enterprises.’” Mazars, 2019 WL
5089748, at *21 (alteration in original) (quoting Eastland v. U.S. Servicemen’s Fund, 421 U.S.
491, 509 (1975)). Here, HJC began, appropriately, with a broad inquiry, but focused on
impeachment as the investigation progressed. This new focus does not necessitate that HJC
61

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 62 of 75
137a
forgo its other aims. See Mazars, 2019 WL 5089748, at *18. HJC’s investigation to determine
whether to impeach President Nixon, for example, contributed not only to President Nixon’s
resignation, but also to significant legislative reforms. See, e.g., Tax Analysts v. IRS, 117 F.3d
607, 611 (D.C. Cir. 1997) (Internal Revenue Code provision restricting public release of
individual tax returns); United States v. Rose, 28 F.3d 181, 183 (D.C. Cir. 1994) (Ethics in
Government Act of 1978).
Finally, DOJ cautions that if introduction of articles of impeachment by a single Member
of Congress were sufficient to render an HJC investigation “preliminarily to” an impeachment
trial, grand jury information would become “politicized.” Hr’g Tr. at 70:6; see also DOJ Resp.
at 28. That hypothetical situation is far removed from this case, where HJC is months into its
investigation and both the Speaker of the House and HJC have confirmed that the current
investigation’s purpose is to determine whether to recommend articles of impeachment against
President Trump. Besides, this “slippery slope” may be less precipitous than DOJ suggests, for a
congressional committee seeking to obtain grand jury information based solely on a single
Member’s introduction of articles of impeachment would have an uphill battle demonstrating a
“particularized need” for the materials.
*

*

*

In sum, HJC has presented sufficient evidence that its investigation has the primary
purpose of determining whether to recommend articles impeachment and thus has satisfied Rule
6(e)’s “preliminarily to . . . a judicial proceeding” requirement.
C.

HJC Has a “Particularized Need” for the Requested Materials

Finally, to meet the last “independent prerequisite[] to ([E])(i) disclosure,” HJC needs to
“show particularized need for access to” the requested grand jury materials, Baggot, 463 U.S. at

62

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 63 of 75
138a
480; In re Sealed Case, 801 F.2d 1379, 1381 (D.C. Cir. 1986). As stated earlier, those materials
fall into three categories. First, HCJ asks for “all portions of the Mueller Report that were
redacted pursuant to Rule 6(e).” HJC App. at 25. Second, HJC wants the material underlying
those redactions—that is, the portions of the grand jury “transcripts or exhibits” cited in the
Report. Id. Third, HJC requests “transcripts of any underlying grand jury testimony and any
grand jury exhibits that relate directly to” President Trump’s knowledge of several topics as well
as to actions taken by former White House counsel Donald F. McGahn II during his service to
first-candidate and then-President Trump. Id.42
The “particularized need” standard requires a showing that (1) the requested materials are
“needed to avoid a possible injustice in another judicial proceeding; (2) the need for disclosure is
greater than the need for continued secrecy; and (3) the request is structured to cover only
material so needed.” In re Sealed Case, 801 F.2d at 1381 (internal quotation marks omitted); see
also Baggot, 463 U.S. at 480 n.4 (citing Douglas Oil, 441 U.S. at 222). The balancing aspect of
the test means that “as the considerations justifying secrecy become less relevant, a party
asserting a need for grand jury [material] will have a lesser burden.” Douglas Oil, 441 U.S. at
223.
Ultimately, determinations of “particularized need” are committed to the “considered
discretion of the district court.” Douglas Oil, 441 U.S. at 228; see also In re Sealed Case, 801
F.2d at 1381 (recognizing the “substantial discretion of the district court”). That discretion “to

To repeat, the topics in the third category of requested grand jury materials are: (A) “President Trump’s
knowledge of efforts by Russia to interfere in the 2016 U.S. Presidential election;” (B) his “knowledge of any direct
or indirect links or contacts between individuals associated with his Presidential campaign and Russia, including
with respect to Russia’s election interference efforts;” (C) his “knowledge of any potential criminal acts by him or
any members of his administration, his campaign, his personal associates, or anyone associated with his
administration or campaign;” and (D) “actions taken by McGahn during the campaign, the transition, or McGahn’s
period of service as White House Counsel.” HJC App. at 25. Material is related directly to President Trump’s
knowledge, HJC says, if it reflects “what witnesses saw or heard President Trump do.” Hr’g Tr. at 7:5–7:6.
42

63

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 64 of 75
139a
determine the proper response to requests for disclosure,” Douglas Oil, 441 U.S. at 228, extends
to structuring the “time,” “manner,” and “other conditions” of any release of material, FED. R.
CRIM. P. 6(e)(3)(E); see also Douglas Oil, 441 U.S. at 223 (acknowledging the possibility of
“protective limitations” on the release of the material). HJC has proposed that the Court use this
authority to “direct a focused and staged disclosure,” starting with categories one and two of the
requested grand jury information and, following HJC’s review of that material, moving to
category three. HJC Reply at 25; see also Hr’g Tr. at 35:1–35:11.
Adopting that proposal, to which DOJ has not objected, the Court finds that HJC has
demonstrated a “particularized need” for the material in the first and second categories. DOJ
must promptly produce to HJC the grand jury material redacted from and cited in the Mueller
Report. HJC may file further requests articulating its “particularized need” for any grand jury
material in category three.
1.

Disclosure is Necessary to Avoid Possible Injustice

HJC asserts that it needs the material to conduct a fair impeachment investigation based
on all relevant facts. See HJC App. at 34. In authorizing disclosure of grand jury material for
use in impeachment investigations of judges and of a President, courts have found this “interest
in conducting a full and fair impeachment inquiry” to be sufficiently particularized. Hastings,
833 F.2d at 1442; Order, In Re: Grand Jury Investigation of U.S. Dist. Judge G. Thomas
Porteous, Jr., No. 2:09-mc-04346-CVSG, at 3; In re 1972 Grand Jury Report, 370 F. Supp. at
1230 (applying the predecessor to the “particularized need” standard). Chief Judge Sirica, in
releasing the Watergate Roadmap to HJC, remarked that “[i]t would be difficult to conceive of a

64

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 65 of 75
140a
more compelling need than that of this country for an unswervingly fair inquiry based on all the
pertinent information.” In re 1972 Grand Jury Report, 370 F. Supp. at 1230.43
Impeachment based on anything less than all relevant evidence would compromise the
public’s faith in the process. See Hastings, 833 F.2d at 1445 (“Public confidence in a procedure
as political and public as impeachment is an important consideration justifying disclosure.”).
Further, as already discussed, denying HJC evidence relevant to an impeachment inquiry could
pose constitutional problems. See supra Parts III.B.3; see also Hastings, 833 F.2d at 1445
(concluding that denying the House the full record available, including the grand jury material,
for use in impeachment would “clearly violate separation of powers principles”). These
principles may, on their own, justify disclosure. See Hastings, 833 F.2d at 1442; Order, In Re:
Grand Jury Investigation of U.S. Dist. Judge G. Thomas Porteous, Jr., No. 2:09-mc-04346CVSG, at 3; In re 1972 Grand Jury Report, 370 F. Supp. at 1230. Features of the House’s
investigation and of the Mueller Report make HJC’s need for the grand jury materials referenced
and cited in the Report especially particularized and compelling.
First, several “portions of the Mueller Report” are of particular interest to HJC, including
the Trump Tower Meeting, Carter Page’s trip to Moscow, Paul Manafort’s sharing of internal
polling data with a Russian business associate, and the Seychelles meeting, as well as
information about what candidate Trump knew in advance about Wikileaks’ dissemination in
July 2016 of stolen emails from democratic political organizations and the Clinton Campaign.

At the time, DOJ similarly recognized that “[t]he ‘need’ for the House to be able to make its profoundly
important judgment on the basis of all available information is as compelling as any that could be conceived.” HJC
App., Ex. P, Mem. for the U.S. on behalf of the Grand Jury, In re 1972 Grand Jury Report, 370 F. Supp. 1219 (Mar.
5, 1974), ECF No. 1-17. DOJ now attempts to distinguish In re 1972 Grand Jury Report on the ground that the
grand jury itself initiated the request to disclose the Watergate Roadmap to Congress, DOJ Resp. at 35, but Rule 6(e)
does not give different treatment to disclosures by grand jurors, see FED. R. CRIM. P. 6(e)(2)(B)(i), and so,
unsurprisingly, the grand jury’s involvement featured not at all in the relevant portions of Chief Judge Sirica’s
analysis, see In re 1972 Grand Jury Report, 370 F. Supp. at 1229–31.
43

65

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 66 of 75
141a
See HJC App. at 35–36. Rule 6(e) material was redacted from the descriptions of each of these
events in the Mueller Report and access to this redacted information is necessary to complete the
full story for HJC. In some instances, without access to the redacted material, HJC cannot
understand what the Special Counsel already found about key events. For example, what
appears to be a citation to grand jury material supports the investigative finding that thencandidate Trump asked Manafort for continued updates about WikiLeaks’s plans to release
hacked documents. See Mueller Report at II-18 n.27.
Second, numerous individuals have already testified before or given interviews with HJC
or other House committees about the events noted above that are central to the impeachment
inquiry and also described in the Mueller Report.44 These witnesses include Donald Trump, Jr.,
Carter Page, Erik Prince, Steve Bannon, and Corey Lewandowski.45 Of concern is that another
witness who spoke to both the Special Counsel and to Congress, Michael Cohen, has already
been convicted of making false statements to Congress, Mueller Report at I-195–96, and two
other individuals have been convicted of making false statements to the FBI in connection with
the Special Counsel’s investigation, see id. at I-192 (Papadopoulos); id. at I-194 (Flynn). The
record thus suggests that the grand jury material referenced or cited in the Mueller Report may
be helpful in shedding light on inconsistencies or even falsities in the testimony of witnesses
called in the House’s impeachment inquiry. See HJC App. at 37 (seeking the materials “to

In particular, the activities of the House Permanent Select Committee on Intelligence (“HPSCI”) are
relevant here because HJC’s protocols for handling the grand jury information, discussed infra, state that the
information will be shared with Members of HPSCI. See HJC App., Ex. X, Jerrold Nadler, Chairman, HJC, [HJC]
Procedures for Handling Grand Jury Information (“GJ Handling Protocols”) ¶ 11, ECF No. 1-25. With HJC, HPSCI
is one of the six committees conducting the impeachment inquiry. See Pelosi Tr.
45
See DOJ Resp. at 34 & n.23 (noting testimony by Trump Jr., Page, Bannon, and Prince and citing Minority
Views, HPSCI Report, https://intelligence.house.gov/uploadedfiles/20180411_-_final__hpsci_minority_views_on_majority_report.pdf); Thursday: House Judiciary to Consider Procedures Regarding
Whether to Recommend Impeachment, COMM. ON THE JUDICIARY (Sept. 9, 2019),
https://judiciary.house.gov/news/press-releases/thursday-house-judiciary-consider-procedures-regarding-whetherrecommend (Lewandowski).
44

66

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 67 of 75
142a
refresh or challenge th[e] testimony” of witnesses before Congress and “to corroborate [witness]
veracity”); see also Hr’g Tr. at 40:5–41:17 (HJC) (confirming that the grand jury material would
be used to impeach or corroborate witnesses).46 Disclosure is thus necessary here to prevent
witnesses from misleading the House during its investigative factfinding. See supra Part III.B.3
(discussing the House’s factfinding role). As DOJ acknowledges, disclosure of grand jury
information “when necessary to avoid misleading a trier of fact” is a paradigmatic showing of
“particularized need.” DOJ Resp. at 18–19 (recognizing that requests under the “judicial
proceedings exception typically arose” in this situation and quoting Douglas Oil); Douglas Oil,
441 U.S. at 222 n.12 (“The typical showing of particularized need arises when a litigant seeks to
use ‘the grand jury transcript at the trial to impeach a witness, to refresh his recollection, to test
his credibility and the like.’” (quoting Procter & Gamble Co., 356 U.S. at 683)).
Third, HJC needs the requested material not only to investigate fully but also to reach a
final determination about conduct by the President described in the Mueller Report. See HJC
App. at 34 (requesting the material “to assess the meaning and implications of the Mueller
Report”).47 Given that the Special Counsel stopped short of a “traditional prosecutorial
judgment” or any “ultimate conclusions about the President’s conduct,” Mueller Report at II-8,
in part to avoid “preempt[ing] constitutional processes for addressing presidential misconduct,”
id. at II-1; see also id. at 2 (“[W]hile this report does not conclude that the President committed a
crime, it also does not exonerate him.”), “the House alone can hold the President accountable for
the conduct described,” HJC Reply at 19. HJC cannot fairly and diligently carry out this
responsibility without the grand jury material referenced and cited in the Mueller Report. Put

46
In identifying this need, HJC’s application focused on the example of Don McGahn, see HJC App. at 37,
but DOJ has now confirmed that McGahn did not testify before the grand jury, see Revised ADAG Decl. ¶ 4.
47
As HJC confirmed at the hearing, the recent revelations related to Ukraine have not displaced HJC’s focus
on investigating the conduct described in the Mueller Report. See Hr’g Tr. at 30:25–32:22.

67

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 68 of 75
143a
another way, HJC requires the grand jury material to evaluate the bases for the conclusions
reached by the Special Counsel.
Critically, for example, the Mueller Report states: “The evidence we obtained about the
President’s actions and intent presents difficult issues that prevent us from conclusively
determining that no criminal conduct occurred.” Mueller Report at II-2. The grand jury material
relied on in Volume II is indispensable to interpreting the Special Counsel’s evaluation of this
evidence and to assessing the implications of any “difficult issues” for HJC’s inquiry into
obstruction of justice. The same is true of the material redacted from Appendix C, which details
the Special Counsel’s unsuccessful efforts to interview the President directly, the Special
Counsel’s choice not to issue a grand jury subpoena for the President’s testimony, and related
information redacted for grand jury secrecy. See Mueller Report App’x C-1–C-2.
Complete information about the evidence the Special Counsel gathered, from whom, and
in what setting is indispensable to HJC. The recent revelation that two individuals who figured
prominently in events examined in the Mueller Report—Don McGahn and Donald Trump, Jr. —
were not compelled to testify before the grand jury illustrates this point. See Revised ADAG
Decl. ¶ 4. The choice not to compel their testimony may indicate, for example, that the Special
Counsel intended to leave aggressive investigation of certain potential criminal conduct, such as
obstruction of justice by the President, to Congress. That intention should inform HJC’s
investigation of those same issues. The grand jury material redacted from and cited in the Report
may provide other significant insights into the Special Counsel’s use of, or decisions not to use,
the grand jury. Those insights may be essential to HJC’s decisions about witnesses who should
be questioned and about investigatory routes left unpursued by the Special Counsel that should
be pursued by HJC prior to a final determination about impeachment.

68

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 69 of 75
144a
Similarly, disclosure is necessary to assist HJC in filling, or assessing the need to fill,
acknowledged evidentiary “gaps” in the Special Counsel’s investigation. See supra Part I.A.
The Report detailed or alluded to investigative choices by the Special Counsel about immunity,
about privilege, about pursuit of hard-to-get evidence, and other matters. As described earlier,
these choices had an impact on the quantity and quality of evidence gathered about events of
interest to HJC, including the Trump Tower Meeting, Carter Page’s trip to Moscow, Erik
Prince’s Seychelles meeting, and potential tampering of Michael Cohen’s testimony to Congress.
See supra Part I.A. The Special Counsel helpfully documented those impacts, identifying critical
factual disputes his investigation left unresolved and pointing to potential criminal violations that
went uncharged due at least in part to gaps in evidence. See supra Part I.A. HJC thus needs the
grand jury material redacted from and cited in the Report to pursue evidence that the Special
Counsel did not gather and to resolve questions—including the ultimate question whether the
President committed an impeachable offense—that the Special Counsel simply left unanswered.
In a last gasp effort to deny HJC access to the requested grand jury information, DOJ
argues that HJC cannot show “particularized need” because other sources, such as the public
version of the Mueller Report, the other categories of material redacted from the Mueller Report,
congressional testimony, and FBI Form 302 interview reports (“FBI-302s”), can supply the
requisite information. See DOJ Resp. at 31–34. As the preceding discussion makes abundantly
clear, this argument gets the basic relationship between HJC’s and the Special Counsel’s
investigations backwards: the overlap between these investigations enhances, rather than detracts
from, HJC’s showing of “particularized need.” Cf. In re Grand Jury Proceedings GJ-76-4 &
GJ-75-3, 800 F.2d 1293, 1302 (4th Cir. 1986) (explaining that “particularized need’ standard

69

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 70 of 75
145a
requires more than relatedness but that “[o]bviously, the materials must be ‘rationally related’ for
otherwise there would be no reason at all to disclose”).
Furthermore, the sources DOJ identifies cannot substitute for the requested grand jury
materials. To insure most effectively against being misled, HJC must have access to all essential
pieces of testimony by witnesses, including testimony given under oath to the grand jury.
Additionally, for purposes of assessing and following up on the Mueller Report’s conclusions,
the full Report is needed: the grand jury material may offer unique insights, insights not
contained in the rest of the Report, congressional testimony, or FBI-302 reports.
Finally, DOJ claims that “[a] finding of ‘particularized need’ is especially inappropriate”
because HJC “has not yet exhausted its available discovery tools”—namely, waiting for DOJ to
fulfill its promised production of FBI interview reports and using congressional subpoenas. DOJ
Resp. at 32–33 (citing In re Grand Jury 89-4-72, 932 F.2d 481, 488 (6th Cir. 1991)). In
particular, DOJ cites an agreement reached with HJC this summer for DOJ to provide to HJC the
thirty-three FBI-302 reports cited in Volume II of the Report, contending that this agreement
must preclude a finding of “particularized need.” See DOJ Resp. at 32. These arguments smack
of farce. The reality is that DOJ and the White House have been openly stonewalling the
House’s efforts to get information by subpoena and by agreement, and the White House has
flatly stated that the Administration will not cooperate with congressional requests for
information. See Letter from Pat A. Cipollone, Counsel to the President, to Representative
Nancy Pelosi, Speaker of the House, et al. (Oct. 8, 2019) at 2.
Regarding DOJ’s production of FBI-302s, “the bottom line,” as HJC put it, is that some
302s have so far been produced by DOJ but not “the ones of most interest.” HJC Resp. to DOJ

70

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 71 of 75
146a
Second Supp. at 4, ECF No. 41.48 Although DOJ at first “anticipate[d] making the remaining
FBI-302s available,” DOJ First Supp. at 3, DOJ now says it “may need to amend the . . .
agreement” because of a letter the White House sent to congressional leadership on October 8,
see DOJ Second Supp., Second Decl. of ADAG Bradley Weinsheimer (“Second ADAG Decl.”)
¶ 6, stating that “President Trump and his Administration reject [the House’s] baseless,
unconstitutional efforts to overturn the democratic process” and “cannot participate in [the
House’s] partisan and unconstitutional inquiry,” Letter from Pat A. Cipollone, Counsel to the
President, to Representative Nancy Pelosi, Speaker of the House, et al. (Oct. 8, 2019) at 2. The
letter’s announced refusal to cooperate extends to congressional subpoenas, which the President
himself had already vowed to “fight[].” Remarks by President Trump Before Marine One
Departure, WHITE HOUSE (Apr. 24, 2019), https://www.whitehouse.gov/briefingsstatements/remarks-president-trump-marine-one-departure-39/ (“Well, we’re fighting all the
subpoenas.”).
The White House’s stated policy of non-cooperation with the impeachment inquiry
weighs heavily in favor of disclosure. Congress’s need to access grand jury material relevant to
potential impeachable conduct by a President is heightened when the Executive Branch willfully
obstructs channels for accessing other relevant evidence.
2.

The Need for Disclosure Outweighs the Need for Continued Secrecy

Any “considerations justifying” continued grand jury “secrecy bec[a]me less relevant”
once the Special Counsel’s investigation, and attendant grand jury work, concluded. Douglas
Oil, 441 U.S. at 223. Once a grand jury has ended, interests in preventing flight by those who
might be indicted and in protecting sitting jurors and witnesses disappear, or lessen considerably.

DOJ has produced redacted FBI-302s for only seventeen of the thirty-three individuals promised. DOJ’s
Supplemental Submission Regarding Accommodation Process (“DOJ First Supp.”) at 3, ECF No. 37.

48

71

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 72 of 75
147a
See id. at 222 (recognizing that “the interests in grand jury secrecy” are “reduced” once “the
grand jury has ended its activities”); Butterworth v. Smith, 494 U.S. 624, 632–33 (1990)
(identifying these as the considerations that no longer apply “[w]hen an investigation ends”); In
re 1972 Grand Jury Report, 370 F. Supp. at 1229; 1 Charles Alan Wright & Arthur R. Miller,
Federal Practice and Procedure § 106 (4th ed. 2019).
Once a grand jury has ended, the primary purpose of secrecy is safeguarding future grand
juries’ ability to obtain “frank and full testimony.” Douglas Oil, 441 U.S. at 222. Any risk of
damage to this interest is slim here, for two reasons. First, as DOJ itself emphasizes in arguing
that HJC cannot establish a need for the material, categories one and two of HJC’s request are
relatively “limited.” DOJ Resp. at 6; see also id. at 31 (calling the redactions “minimal”);
Revised ADAG Decl. ¶ 3. Disclosure of “limited” information, including excerpts of grand jury
transcripts, to HJC is unlikely to deter potential future grand jury witnesses. Second, disclosure
is to the House, not to the public, and “less risk of . . . leakage or improper use” of grand jury
material is present when disclosure is made to “government movants.” Sells Eng’g, Inc., 463
U.S. at 445; Hastings, 833 F.2d at 1441 (considering factors “peculiar to the [HJC] as a
government movant”). Here, HJC guarantees that “a high degree of ‘continued secrecy’ could in
fact be maintained” under already-adopted Grand Jury Handling Procedures calling for storage
of the material in a secure location and restriction of access to Members of HJC and HPSCI. See
HJC App. at 38 (citing GJ Handling Protocols); see also In re 1972 Grand Jury Report, 370 F.
Supp. at 1230 (observing that the relevant standard “might well justify even a public disclosure”
but that there is “certainly ample basis for disclosure to a body” that “has taken elaborate
precautions to insure against unnecessary and inappropriate disclosure of these materials”). DOJ
discounts these procedures as “entirely illusory” because they can be altered “on a simple

72

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 73 of 75
148a
majority vote” by HJC, DOJ Resp. at 36, but offers “no basis on which to assume that the
Committee’s use of the [material] will be injudicious or that it will disregard” or change these
procedures, In re 1972 Grand Jury Report, 370 F. Supp. at 1230. Such an assumption would be
inappropriate. See supra Part II.B.3 (discussing deference due to Congress in this matter).
Certainly, a continued interest in protecting from “public ridicule” individuals
investigated but not indicted by the grand jury persists even when a grand jury has ended.
Douglas Oil, 441 U.S. at 219; see also Wright & Miller, supra, § 106. The risk of public
reputational harm to such individuals is slim to none here, however, where disclosure is to HJC
under special handling protocols. Further, any remaining interest in secrecy is diminished by
widespread public knowledge about the details of the Special Counsel’s investigation, which
paralleled that of the grand jury’s, and about the charging and declination decisions outlined in
the Mueller Report. See In re Grand Jury Subpoena, Judith Miller, 438 F.3d 1138, 1140 (D.C.
Cir. 2006) (recognizing that “when information is sufficiently widely known” it has no
“character [of] Rule 6(e) material” (quoting In re North, 16 F.3d at 1245)).
DOJ argues that ongoing criminal matters referred by the Special Counsel’s Office for
investigation or prosecution are the chief reason for continued secrecy. See DOJ Resp. at 36–37
(citing, inter alia, Mueller Report App’x D (“Special Counsel’s Office Transferred, Referred,
and Completed Cases”)). That DOJ has already disclosed to certain Members of the House the
material redacted from the Mueller Report to prevent harm to ongoing matters, see DOJ Resp. at
8; see also Hr’g Tr. at 4:4–4:11, undercuts this claim that continued secrecy of the grand jury
material is required to protect any ongoing investigations or cases. HJC has nevertheless made
clear that it has “no interest whatsoever in undermining any ongoing criminal proceedings” and
has expressed willingness to negotiate with DOJ about disclosure of any grand jury information

73

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 74 of 75
149a
that DOJ believes could harm ongoing matters. Hr’g Tr. at 45:2–45:11. The Court expects that
any such negotiations between the parties would be limited to the six redactions for grand jury
information in Volume I of the Report that DOJ has already identified as presenting potential
harm to ongoing matters. See Second ADAG Decl. ¶ 3.
*

*

*

The need for continued secrecy is minimal and thus easily outweighed by HJC’s
compelling need for the material. Tipping the scale even further toward disclosure is the public’s
interest in a diligent and thorough investigation into, and in a final determination about,
potentially impeachable conduct by the President described in the Mueller Report. See In re
1972 Grand Jury Report, 370 F. Supp. at 1230; see Illinois v. Abbott & Assocs., Inc., 460 U.S.
557, 567 n.15 (1983) (“[T]he district court may weigh the public interest, if any, served by
disclosure to a governmental body.”).
3.

Scope of Disclosure Authorized

HJC has shown that it needs the grand jury material referenced and cited in the Mueller
Report to avoid a possible injustice in the impeachment inquiry, that this need for disclosure is
greater than the need for continued secrecy, and that the “request is structured to cover only
material so needed.” Douglas Oil, 441 U.S. at 222.49 DOJ is ordered to disclose that material to
HJC promptly, by October 30, 2019. HJC may file further requests with the Court articulating
its particularized need for disclosure of any additional material requested in its initial application.
IV.

CONCLUSION
For the foregoing reasons, HJC’s application is granted. Consequently, DOJ is ordered to

provide promptly, by October 30, 2019, to HJC all portions of the Mueller Report that were

DOJ concedes that the requests for the material referenced or cited in the report are properly structured.
See DOJ Resp. at 37–38 (challenging only the structure of HJC’s request for material in category three).
49

74

Case 1:19-gj-00048-BAH Document 46 Filed 10/25/19 Page 75 of 75
150a
redacted pursuant to Rule 6(e) and any underlying transcripts or exhibits referenced in the
portions of the Mueller Report that were redacted pursuant to Rule 6(e). HJC is permitted to file
further requests articulating its particularized need for additional grand jury information
requested in the initial application.
An appropriate Order accompanies this Memorandum Opinion.
Date: October 25, 2019
__________________________
BERYL A. HOWELL
Chief District Judge

75

Case 1:19-gj-00048-BAH Document 45 Filed 10/25/19 Page 1 of 2
151a
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

In re APPLICATION OF THE COMMITTEE
ON THE JUDICIARY, U.S. HOUSE OF
Grand Jury No. 19-48 (BAH)
REPRESENTATIVES, FOR AN ORDER
AUTHORIZING THE RELEASE OF
Chief Judge Beryl A. Howell
CERTAIN GRAND JURY MATERIALS

ORDER GRANTING THE APPLICATION OF THE COMMITTEE ON THE
JUDICIARY, U.S. HOUSE OF REPRESENTATIVES
Upon consideration of the Application of the Committee on the Judiciary (“HJC”), U.S.
House of Representatives, for an Order Authorizing the Release of Certain Grand Jury Materials,
ECF No. 1.; the memoranda and declarations, with exhibits, in support and opposition thereto,
including the memoranda of amici curiae Constitutional Accountability Center and U.S. House
Representative Doug Collins, HJC’s Ranking Member; the arguments presented at the Hearing
on October 8, 2019, see Hr’g Tr., ECF No. 38, and the entire record herein, for the reasons stated
in the accompanying Memorandum Opinion Granting the Application of the Committee on the
Judiciary, U.S. House of Representatives, it is hereby:
ORDERED that HJC’s Application is GRANTED; and it is further
ORDERED that, by October 30, 2019, DOJ must disclose to HJC: (1) All portions of
Special Counsel Robert S. Mueller III’s Report on the Investigation Into Russian Interference In
The 2016 Presidential Election (“Mueller Report”) that were redacted pursuant to Federal Rule
of Criminal Procedure 6(e); and (2) any underlying transcripts or exhibits referenced in the
portions of the Mueller Report that were redacted pursuant to Rule 6(e); and it is further

1

Case 1:19-gj-00048-BAH Document 45 Filed 10/25/19 Page 2 of 2
152a
ORDERED that, following review and assessment of the disclosed grand jury material
set out in (1) and (2) above, HJC may submit further requests articulating particularized need for
disclosure of additional grand jury material requested in the Application.
SO ORDERED.
DATE: October 25, 2019
This is a final and appealable order.

__________________________

BERYL A. HOWELL
Chief Judge

2

Case 1:19-gj-00048-BAH Document 55 Filed 10/29/19 Page 1 of 7
153a
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

In re APPLICATION OF THE COMMITTEE
ON THE JUDICIARY, U.S. HOUSE OF
REPRESENTATIVES, FOR AN ORDER
AUTHORIZING THE RELEASE OF
CERTAIN GRAND JURY MATERIALS

Grand Jury Action No. 19-48 (BAH)
Chief Judge Beryl A. Howell

MEMORANDUM AND ORDER
The Department of Justice (“DOJ”) seeks to stay this Court’s order, issued on October
25, 2019, requiring DOJ to disclose, by October 30, 2019, to the House Judiciary Committee
(“HJC”) the grand jury material redacted, pursuant to Federal Rule of Criminal Procedure 6(e),
from the public version of Special Counsel Robert S. Mueller III’s Report On The Investigation
Into Russian Interference In The 2016 Presidential Election (“Mueller Report”), as well as any
underlying transcripts or exhibits referenced in those redactions. DOJ’s Mot. to Stay Disclosure
Order Pending Appeal (“Mot. Stay”), ECF No. 48.1 For the reasons set out below, the motion
for a stay is denied.
The law is well settled that a stay of a final judicial order pending appeal is an
“extraordinary remedy.” Cuomo v. NRC, 772 F.2d 972, 978 (D.C. Cir. 1985) (per curiam). The
Supreme Court has explained that “[a] stay is an ‘intrusion into the ordinary processes of
administration and judicial review,’” Nken v. Holder, 556 U.S. 418, 427 (2009) (quoting Va.
Petroleum Jobbers Ass’n v. FPC, 259 F.2d 921, 925 (D.C. Cir. 1958) (per curiam)), and, further,
DOJ filed the pending motion for a stay on October 28, 2019. After entry of a minute order directing HJC
to respond, see Min. Order (Oct. 28, 2019), HJC filed its Opposition to DOJ’s Motion for a Stay Pending Appeal,
ECF No. 50, on October 29, 2019, which was supplemented with HJC’s response to an order to show cause from
this Court, HJC’s Resp. to Order to Show Cause, ECF No. 52.
1

1

Case 1:19-gj-00048-BAH Document 55 Filed 10/29/19 Page 2 of 7
154a
that such a stay “is not a matter of right, even if irreparable injury might otherwise result to the
appellant,” id. (quoting Virginian R. Co. v. United States, 272 U.S. 658, 672 (1926)). The party
requesting a stay bears the burden of showing that the circumstances of a particular case justify
an exercise of judicial discretion upon consideration of four “traditional,” id. at 434, and
“stringent requirements,” Van Hollen v. FEC, Nos. 12-5117 & 12-5118, 2012 WL 1758569, at
*1 (D.C. Cir. May 14, 2012) (per curiam): “(1) the likelihood that the party seeking the stay will
prevail on the merits of the appeal; (2) the likelihood that the moving party will be irreparably
harmed absent a stay; (3) the prospect that others will be harmed if the Court grants the stay; and
(4) the public interest in granting the stay,” Cuomo, 772 F.2d at 974; see also Nken, 556 U.S. at
434 (listing essentially same four factors); Hilton v. Braunskill, 481 U.S. 770, 776 (1987) (same).
The Supreme Court has indicated that “[t]he first two factors of the traditional standard
are the most critical,” Nken, 556 U.S. at 434, and has elaborated, as to the first factor, that “[i]t is
not enough that the chance of success on the merits be ‘better than negligible,’” id. (quoting
Sofinet v. INS, 188 F.3d 703, 707 (7th Cir. 1999)). Rather, “[m]ore than a mere ‘possibility’ of
relief is required.” Id. (alteration in original) (internal quotation marks omitted). The D.C.
Circuit has further emphasized the importance of the first factor, stating that “show[ing] little
prospect of success” on appeal is “an arguably fatal flaw for a stay application.” Citizens for
Responsibility & Ethics in Washington v. FEC, 904 F.3d 1014, 1019 (D.C. Cir. 2018) (per
curiam); see also Sherley v. Sebelius, 644 F.3d 388, 393 (D.C. Cir. 2011) (“read[ing] Winter [v.
Natural Resources Defense Council, Inc., 555 U.S. 7 (2008)] at least to suggest if not to hold
‘that a likelihood of success is an independent, free-standing requirement’” (quoting Davis v.
Pension Benefit Guaranty Corp., 571 F.3d 1288, 1296 (D.C. Cir. 2009) (Kavanaugh, J.
concurring))).

2

Case 1:19-gj-00048-BAH Document 55 Filed 10/29/19 Page 3 of 7
155a
As to the requisite irreparable injury showing, “simply showing some ‘possibility of
irreparable injury’ fails to satisfy the second factor.” Nken, 556 U.S. at 434–35 (citation omitted)
(quoting Abbassi v. INS, 143 F.3d 513, 514 (9th Cir. 1998)). Rather, “[a] party moving for a stay
is required to demonstrate that the injury claimed is ‘both certain and great.’” Cuomo, 772 F.2d
at 976 (quoting Wis. Gas Co. v. FERC, 758 F.2d 669, 674 (D.C. Cir. 1985) (per curiam)).
Indeed, “[b]are allegations of what is likely to occur are of no value since the court must decide
whether the harm will in fact occur.” Wis. Gas, 758 F.2d at 674 (emphasis in original).
Set against these standards, analysis of the four requisite factors mandates denial of the
stay.
DOJ is not likely to succeed on the merits on appeal. The legal standard for likelihood of
success to obtain a stay of an order is not “a 50% plus probability,” Wash. Metro. Area Transit
Comm’n v. Holiday Tours, Inc., 559 F.2d 841, 844 (D.C. Cir. 1977), but is rather a finding that
“the [movant] has raised questions going to the merits so serious, substantial, difficult and
doubtful, as to make them a fair ground for litigation and thus for more deliberative
investigation,” id. Here, DOJ argues, first, that there is a “substantial question as to whether an
impeachment trial constitutes a ‘judicial proceeding’ within the meaning of Rule 6(e),” Mot.
Stay at 4, because “[i]mpeachment and removal proceedings in the legislature are not ‘judicial
proceedings’ within the ordinary meaning of that language,” id. at 2; and, second, that HJC failed
to establish “particularized need” for the requested materials because (a) HJC failed to articulate
a “specific reason the information is needed,” id. at 5 (emphasis in original), and (b) “the amount
of information [already] released in connection with the Mueller Report” minimizes HJC’s need
for the materials, id. at 6.2
Notably, DOJ has not argued that it is likely to prevail on any argument related to whether HJC’s current
investigation is occurring “preliminarily to” an impeachment trial. FED. R. CRIM. P. 6(e)(3)(E)(i).

2

3

Case 1:19-gj-00048-BAH Document 55 Filed 10/29/19 Page 4 of 7
156a
The serious infirmities in DOJ’s arguments have already been addressed at length. See In
re Application of Committee on Judiciary, U.S. House of Representatives, for an Order
Authorizing Release of Certain Grand Jury Materials, No. 19-gj-48 (BAH), 2019 WL 5485221,
at *11–23 (D.D.C. Oct. 25, 2019) (judicial proceeding); id. at *32–38 (particularized need).
Regarding the first argument, DOJ continues to ignore that the D.C. Circuit has already given
“judicial proceeding,” as used in Rule 6(e), a “broad interpretation,” In re Sealed Motion, 880
F.2d 1367, 1379 (D.C. Cir. 1989) (per curiam); that Haldeman v. Sirica, 501 F.2d 714 (D.C. Cir.
1974) (en banc), and McKeever v. Barr, 920 F.3d 842 (D.C. Cir. 2019), reh’g denied, Order, No.
17-5149 (D.C. Cir. July 22, 2019), docketing petition for cert., No. 19-307 (U.S. Sept. 5, 2019),
are binding D.C. Circuit precedent that rejected DOJ’s position; and that historical practice, the
Federalist Papers, the text of the Constitution, and Supreme Court precedent all make clear that
impeachment trials are judicial in nature and constitute judicial proceedings.
Regarding the “particularized need” arguments that DOJ asserts present colorable
appealable issues, DOJ is especially unlikely to succeed given that determinations of
“particularized need” are committed to the “considered discretion of the district court.” Douglas
Oil Co. of Ca. v. Petrol Stops Nw., 441 U.S. 211, 228 (1979). Moreover, courts have
consistently recognized that the “interest in conducting a full and fair impeachment inquiry” is a
sufficiently particularized need. In re Request for Access to Grand Jury Materials, 833 F.2d
1438, 1442 (11th Cir. 1987); see also Order, In Re: Grand Jury Investigation of U.S. Dist. Judge
G. Thomas Porteous, Jr., No. 2:09-mc-04346-CVSG, at 3 (E.D. La. Aug. 6, 2009), summarily
aff’d sub nom. In re Grand Jury Proceeding, No. 09-30737 (5th Cir. Nov. 12, 2009); In re
Report & Recommendation of June 6, 1972 Grand Jury (In re 1972 Grand Jury Report), 370 F.
Supp. 1219, 1230 (D.D.C. 1974) (Sirica, C.J.). DOJ’s minimal chance of success on appeal, by

4

Case 1:19-gj-00048-BAH Document 55 Filed 10/29/19 Page 5 of 7
157a
itself, is likely “fatal” to its motion, Citizens for Responsibility & Ethics in Washington, 904 F.3d
at 1019, but DOJ fares no better on the other factors.
As to the second critical factor, irreparable harm to the moving party, DOJ must, at a
minimum, show an especially high degree of irreparable harm considering DOJ’s failure to
establish a likelihood of success on appeal. See Cuomo, 772 F.2d at 784 (“Probability of success
is inversely proportional to the degree of irreparable injury evidenced. A stay must be granted
with either a high probability of success and some injury, or vice versa.”). DOJ alleges
irreparable harm without a stay because “once the grand jury information is released to the HJC .
. . , information cannot ever be clawed back,” and DOJ claims that this harm “is particularly
acute here, where there is no guarantee the HJC will keep this sensitive information secret.”
Mot. Stay at 3. This assertion is predicated on the apparent view that, despite the HJC’s special
protocols for handling grand jury material and keeping that information confidential, those
protocols cannot be trusted. To the contrary, given those protocols, a disclosure of grand jury
material made under the October 25 Order that is found to be erroneous, can be clawed back. To
the extent that underlying DOJ’s concern is a lack of trust in those protocols, history shows that
HJC has been and can be trusted. See In re 1972 Grand Jury Report, 370 F. Supp. at 1230
(“[HJC] has taken elaborate precautions to insure against unnecessary and inappropriate
disclosure of these [grand jury] materials. . . . We have no basis on which to assume that [HJC]’s
use of the Report will be injudicious . . . .”). Indeed, Congress has still not publicly disclosed the
entirety of the Watergate grand jury report that Chief Judge Sirica ordered be given to HJC fortyfive years ago, in 1974. See In re Petition for Order Directing Release of the “Road Map”
Transmitted by the Watergate Grand Jury to the House Judiciary Committee in 1974, No. 1:18mc-00125-BAH (D.D.C. dismissed without prejudice Apr. 16, 2019). This only demonstrates

5

Case 1:19-gj-00048-BAH Document 55 Filed 10/29/19 Page 6 of 7
158a
that disclosure to HJC does not equate to public disclosure. Finally, the mere chance that HJC
may opt to make some of the grand information public at some point is not sufficient to establish
a “certain” injury. Cuomo, 772 F.2d at 976 (quoting Wis. Gas, 758 F.2d at 674).
Nor will allowing HJC itself to review the grand jury materials cause irreparable harm.
HJC did not “request[] the entire grand jury record” of the Special Counsel’s investigation,
HJC’s Reply in Support of its App. for an Order Authorizing the Release of Certain Grand Jury
Materials at 24, ECF No. 33, and this Court—accepting HJC’s proposal that the case proceed
with “focused and staged disclosure,” id. at 25—ordered the release to HJC of only two, limited
categories of information: the “‘portions of the Mueller Report that were redacted pursuant to
Rule 6(e),’” and “the material underlying those redactions—that is, the portions of the grand jury
‘transcripts or exhibits’ cited in the Report,” In re Application of the Committee on the Judiciary,
2019 WL 5485221, at *32 (quoting HJC’s App. for an Order Authorizing the Release of Certain
Grand Jury Materials at 25, ECF No. 1). HJC’s access to this limited material on a confidential
basis in the circumstances of this matter will not harm the interests that grand jury secrecy is
meant to protect, see id. at *37–38, and this concern would certainly be insufficient to justify a
stay here, given that DOJ has not established a likelihood of success on appeal.3
The third factor, whether HJC will be harmed if the requested stay is ordered, and the
final factor, the public interest, also weigh against granting DOJ’s motion. “[A]n impeachment

This conclusion is not altered by the fact that Chief Judge Sirica, in ordering disclosure of the Watergate
grand jury’s report on President Richard Nixon’s conduct, stayed his decision “because of the irreversible nature of
disclosure.” In re 1972 Grand Jury Report, 370 F. Supp. at 1231. Chief Judge Sirica’s decision pre-dates D.C.
Circuit caselaw that has explained the substantial—perhaps dispositive—weight that must be given to the first
factor, likelihood of success on appeal. See, e.g., Citizens for Responsibility & Ethics in Washington, 904 F.3d at
1019; see also United States v. Sells Eng’g, Inc., 463 U.S. 418, 422 n.6 (1983) (recognizing, nine years after
disclosure of the Watergate grand jury’s report, that disclosure of grand jury material does not moot an appeal).
Moreover, Chief Judge Sirica ordered a stay of just two days, and did so merely “to allow [the] defendants an
opportunity to pursue their remedies.” In re 1972 Grand Jury Report, 370 F. Supp. at 1231. This Court went
beyond what Chief Judge Sirica did and granted DOJ five days to pursue an appeal before having to disclose any
grand jury materials.
3

6

Case 1:19-gj-00048-BAH Document 55 Filed 10/29/19 Page 7 of 7
159a
investigation involving the President of the United States” is “a matter of the most critical
moment to the Nation.” In re 1972 Grand Jury Report, 370 F. Supp. at 1230. As DOJ has
acknowledged, “the Framers themselves specifically determined” by providing for an
impeachment process that there is a “public interest in immediately removing a sitting President
whose continuation in office poses a threat to the Nation’s welfare.” A Sitting President’s
Amenability to Indictment and Criminal Prosecution, 24 Op. O.L.C. 222, 258 (2000). Both HJC
itself and the public, therefore, have an interest in HJC gaining immediate access to this grand
jury material.4
The Court finds that all four factors—including both critical factors—favor allowing
disclosure to occur while this case is considered on appeal. Accordingly, it is hereby
ORDERED that DOJ’s Mot. Stay, ECF No. 48, is DENIED.
SO ORDERED.
Date: October 29, 2019

__________________________
BERYL A. HOWELL
Chief Judge

DOJ claims that HJC does not need the disclosure to occur imminently because “[t]he Speaker [of the
House] has announced that the House impeachment inquiry will focus narrowly on the whistleblower complaint and
issues surrounding Ukraine” and thus “now . . . the House Intelligence Committee . . . is the lead committee heading
the congressional investigation.” Mot. Stay at 6. The Speaker has, however, in fact “direct[ed]” the “six
Committees” who have been “investigating” the President’s conduct—which includes HJC—to “proceed with their
investigations under th[e] umbrella of impeachment inquiry.” Pelosi Remarks Announcing Impeachment
Inquiry (Sept. 24, 2019), https://perma.cc/6EQM-34PT (emphasis added). Thus, HJC plainly remains engaged.
4

7

USCA Case #19-5288

160a
Document #1813216

Filed: 10/29/2019

Page 1 of 1

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

____________

No. 19-5288

September Term, 2019
1:19-gj-00048-BAH
Filed On: October 29, 2019

In re: Application of the Committee on the
Judiciary, U.S. House Of Representatives, for
an Order Authorizing the Release of Certain
Grand Jury Materials,
-----------------------------Committee on the Judiciary and United
States House of Representatives,
Appellees
v.
United States Department of Justice,
Appellant
BEFORE:

Millett, Pillard, and Wilkins, Circuit Judges
ORDER

Upon consideration of the emergency motion for stay pending appeal and for an
immediate administrative stay, it is
ORDERED that the district court’s October 25, 2019 order be administratively
stayed pending further order of the court. The purpose of this administrative stay is to
give the court sufficient opportunity to consider the emergency motion for stay pending
appeal and should not be construed in any way as a ruling on the merits of that motion.
See D.C. Circuit Handbook of Practice and Internal Procedures 33 (2018). It is
FURTHER ORDERED, on the court’s own motion, that appellees file a response
to the motion by 4:00 p.m. on Friday, November 1, 2019, and that appellant file any
reply by 4:00 p.m. on Tuesday, November 5, 2019. The parties are directed to handdeliver the paper copies of their submissions to the court by the time and date due.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

/s/
Amy Yacisin
Deputy Clerk

USCA Case #19-5288

Document #1816378
161a

Filed: 11/18/2019

Page 1 of 2

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

____________

No. 19-5288

September Term, 2019
1:19-gj-00048-BAH
Filed On: November 18, 2019

In re: Application of the Committee on the
Judiciary, U.S. House of Representatives, for
an Order Authorizing the Release of Certain
Grand Jury Materials,
-----------------------------Committee on the Judiciary, United States
House of Representatives,
Appellee
v.
United States Department of Justice,
Appellant

BEFORE:

Rogers, Griffith, and Rao, Circuit Judges
ORDER

It is ORDERED, on the court’s own motion, that the parties brief the merits of this
appeal pursuant to the following briefing schedule:
Brief of Appellant

December 2, 2019

Appendix

December 2, 2019

Brief of Appellee

December 16, 2019

Reply Brief of Appellant

December 23, 2019

The parties are directed to file their briefs and appendix and hand deliver the
paper copies to the Clerk’s office by 4:00 p.m. on the date due. While not otherwise
limited, the parties are directed to address in their briefs the court’s jurisdiction and the
justiciability of this case. It is

USCA Case #19-5288

Document #1816378
162a

Filed: 11/18/2019

Page 2 of 2

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

____________

No. 19-5288

September Term, 2019

FURTHER ORDERED that oral argument be scheduled before this panel at 9:30
a.m. on Friday, January 3, 2020. It is
FURTHER ORDERED that the administrative stay entered on October 29, 2019,
remain in place pending further order of the court.
All issues and arguments must be raised by appellant in the opening brief. The
court ordinarily will not consider issues and arguments raised for the first time in the
reply brief.
To enhance the clarity of their briefs, the parties are urged to limit the use of
abbreviations, including acronyms. While acronyms may be used for entities and
statutes with widely recognized initials, briefs should not contain acronyms that are not
widely known. See D.C. Circuit Handbook of Practice and Internal Procedures 41
(2018); Notice Regarding Use of Acronyms (D.C. Cir. Jan. 26, 2010).
All briefs and appendices must contain the date that the case is scheduled for
oral argument at the top of the cover. See D.C. Cir. Rule 28(a)(8).
Per Curiam

FOR THE COURT:
Mark J. Langer, Clerk
BY:

Page 2

/s/
Scott H. Atchue
Deputy Clerk

USCA Case #19-5288

Document #1840901
163a

Filed: 05/01/2020

Page 1 of 1

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

____________

No. 19-5288

September Term, 2019
1:19-gj-00048-BAH
Filed On: May 1, 2020

In re: Application of the Committee on the
Judiciary, U.S. House of Representatives, for
an Order Authorizing the Release of Certain
Grand Jury Materials,
-----------------------------Committee on the Judiciary, United States
House of Representatives,
Appellee
v.
United States Department of Justice,
Appellant
BEFORE:

Rogers, Griffith, and Rao, Circuit Judges
ORDER

Upon consideration of the motion of the Department of Justice to stay mandate
pending petition for writ of certiorari, which includes a request to stay issuance of the
mandate for a reasonable period to permit the Department to seek a stay from the
Supreme Court, and the opposition thereto, it is
ORDERED that the motion to stay mandate pending petition for writ of certiorari
be denied. The Clerk is directed to withhold issuance of the mandate until May 11,
2020, to permit the Department a reasonable time to seek a stay from the Supreme
Court.
Per Curiam

FOR THE COURT:
Mark J. Langer, Clerk
BY:

/s/
Michael C. McGrail
Deputy Clerk

